<html>
<title> - LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006</title>
<body><pre>[Senate Hearing 109-]
[From the U.S. Government Printing Office]



 
         LEGISLATIVE BRANCH APPROPRIATIONS FOR FISCAL YEAR 2006

                              ----------                              


                       WEDNESDAY, APRIL 13, 2005

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.
    The subcommittee met at 10:30 a.m., in room SD-116, Dirksen 
Senate Office Building, Hon. Wayne Allard (chairman) presiding.
    Present: Senators Allard, Cochran, and Durbin.

                              U.S. SENATE

                        Office of the Secretary

STATEMENT OF EMILY REYNOLDS, SECRETARY OF THE SENATE
ACCOMPANIED BY:
        MARY SUIT JONES, ASSISTANT SECRETARY OF THE SENATE
        TIM WINEMAN, FINANCIAL CLERK OF THE SENATE


               OPENING STATEMENT OF SENATOR WAYNE ALLARD


    Senator Allard. The Subcommittee on the Legislative Branch, 
Committee on Appropriations, will come to order. We meet today 
to hear testimony from the Secretary of the Senate and the 
Architect of the Capitol on the fiscal year 2006 budget 
requests.
    It's my first hearing as chairman of this subcommittee, and 
I look forward to learning about the key issues and budget 
priorities within each of the legislative branch agencies.
    Overall, the request for the legislative branch totals 
$4.03 billion, an increase of $482 million, or a 13.5 percent 
increase over the fiscal year 2005 level. Clearly, in the 
constrained budget environment in which we will be operating, 
an increase of this level will be difficult, if not impossible 
to provide, so we will be seeking to ensure that all agencies 
have prioritized their budget requests, are taking steps to 
operate as cost effectively as possible, and are eliminating 
wasteful or unnecessary spending.
    Welcome to our witnesses this morning. We will hear first 
from Emily Reynolds, Secretary of the Senate, who's accompanied 
by the Assistant Secretary of the Senate, Mary Suit Jones, and 
the Financial Clerk of the Senate, Tim Wineman.
    Ms. Reynolds, your budget request totals almost $23 
million, an increase of about 7 percent over fiscal year 2005, 
primarily to accommodate routine pay and inflation-related 
increases, as well as to make some upgrades in a few areas.
    Following the Secretary of the Senate, we will take 
testimony from Mr. Alan Hantman, Architect of the Capitol. The 
AOC budget request totals $506 million, an increase of $157 
million over the current fiscal year. The increase is largely 
associated with several construction projects, including 
completion of the Capitol Visitor Center (CVC), construction of 
the Library of Congress storage modules at Fort Meade, 
Maryland, and a new offsite delivery facility for the Capitol 
Police, as well as startup costs and new personnel for the CVC.
    Your budget office is to be commended for putting together 
a budget justification which is transparent and thorough and 
explains all increases concisely, and we certainly appreciate 
that effort.
    There are a number of issues I'd like to explore with you 
today. Most important, of course, is the schedule and budget 
for completion of the Capitol Visitor Center. As I understand 
it, while much progress has been made, there's still a long way 
to go before the facility can be opened to the public, and the 
schedule remains unclear. There have been significant 
difficulties with this project, including coordinating two 
major construction contractors, weather-related delays, 
unforeseen site conditions, and, frankly, serious management 
problems. While it is too late to make major changes to how the 
project is being run, it is my expectation that you will make 
every effort to demand the best from your contractors, provide 
the Congress with a balanced assessment of progress as the 
project continues, and accept the counsel of the Government 
Accountability Office (GAO), which has been monitoring the 
project, providing recommendations from the start. GAO has done 
a very professional job in this oversight effort, and we 
appreciate this. Their projections on cost and schedule have 
been accurate, and their recommendations have been good.
    In addition to the CVC, there continues to be much 
construction activity around this campus. One of the primary 
reasons is security-related work that will continue even after 
the CVC is complete. All of us have construction fatigue and 
look forward to when this complex can be returned to a state 
that we can all be proud of, free of construction activity, 
dump trucks, jersey barriers, and torn-up streets. So we will 
be urging you to accelerate these efforts, which have been in 
the works for many years now.
    The perimeter security project and the visitor center seem 
to be emblematic of problems this agency continues to have with 
project management. As I understand it, about half of the major 
projects AOC has underway at this time are behind schedule, and 
too many are over budget, as well. We look forward to hearing 
what you're doing to improve project management.
    There are also concerns with the morale of your workforce. 
Highlighted in an article a few weeks back in The Hill 
newspaper, it seems that communication with employees is not as 
good as it should be. So we look forward to an update on how 
you're improving communication and employee morale.
    Finally, the AOC has been working to develop a long-range 
master plan for the Capitol complex, as well as condition 
assessments of each of the buildings. This should lead to a 
plan for prioritizing spending for both capital projects and 
deferred maintenance over the next 5 years. The master planning 
effort has been underway for some time, so we look forward to 
understanding when we will have a final product and a roadmap 
for future budget requirements.
    We will now turn to the Secretary of the Senate. I welcome 
you to the subcommittee and look forward to your testimony, Ms. 
Reynolds. And you may proceed.


                  OPENING STATEMENT OF EMILY REYNOLDS


    Ms. Reynolds. Thank you very much, Mr. Chairman. And we 
look forward to working with you, as our legislative branch 
subcommittee chairman.
    I would ask, of course, that my full statement, which 
includes our complete Department reports, be submitted for the 
record. And today I'd like to take just a few minutes to give 
you a brief overview of the Secretary's operation and, of 
course, as you referenced, our budget request for fiscal year 
2006.
    Along with Mary Suit Jones and Tim Wineman, who, as you 
said, are here today, we have a good representation of our some 
26 department heads, an able team and a tremendous group of 
individuals who serve the Senate.
    Our budget request, as you said, is right at $23 million, 
representing almost $21 million in salary costs and $1.9 
million in operating costs. This is a slight increase from 
fiscal year 2005, mostly in COLA and merit increases, so that 
we can continue to attract and retain the kind of talent the 
Senate requires and, indeed, deserves for its operations. We 
also have a small increase of $200,000 in that operating budget 
to prepare specifically for a specialized and much-needed 
storage space for our curator and upcoming relocations for 
Senate security and our closed-captioning services operation. 
We also anticipate some additional costs for the support and 
maintenance of systems that are currently underway--systems 
upgrades that are currently underway in both the gift shop and 
the stationery room.
    Since the first Secretary was elected by the Senate in 
1789, our office has served the Senate in three principal ways; 
that is, to provide legislative, financial, and administrative 
support. And I'd like to briefly highlight some our 
accomplishments from last year in each of these areas.
    The legislative department, of course, consists of nine 
offices dedicated to ensuring that the Senate can carry out its 
constitutional responsibilities. And, to that end, one of our 
priorities remains the crosstraining among their specialties. 
In election years, our parliamentarians play a key and perhaps 
even little-known role. Following the elections, the 
parliamentarian must attest to the accuracy of each State's 
certificate of election for Senate races, a process that we 
have to have completed, obviously, before our Members can be 
sworn in. The parliamentarian also reviews the electoral 
ballots for the President and Vice President, and assists the 
Vice President and his staff in preparation for the joint 
session of Congress to count those electoral ballots.
    On the financial side, our disbursing office pays the 
Senate community every 2 weeks, of roughly 6,500 individuals, 
and we process over 125,000 bills each year. Of course, as you 
well know, this office also administers health insurance, life 
insurance, and all of the retirement programs for our Members 
and staff.
    We continue to make significant progress on the 
implementation of the financial management information system 
(FMIS), a 5-year strategic plan which this subcommittee 
generously provided the funding for now 3 years ago. Of course, 
FMIS' high priority is to provide efficiency, accountability, 
and ease of use for the 140 Senate offices that rely on the 
disbursing operation.
    On the administrative side of our operation, there were 
several noteworthy accomplishments from last year. With the 
assistance of our Senate curator, late next month we will 
unveil the portrait of former Majority Leader George Mitchell, 
and, soon after, we will add to our collection the portrait of 
another Maine Senator, Margaret Chase Smith. We have underway a 
commission to add to the Senate reception room a portrait to 
commemorate the authors of the Connecticut Compromise, Senators 
Ellsworth and Sherman.
    You might well have seen the ``Catalogue of Fine Art'', 
which we released last year, a beautiful piece of work. We hope 
to add a companion piece this Congress, the Senate ``Catalogue 
of Graphic Art'', which will be a compilation of our collection 
of 900 historic engravings and lithographs.
    And one of the most exciting initiatives we have underway, 
which this subcommittee has generously supported, is our work 
with the Senate Curatorial Advisory Board, which has now 
completed its second meeting. The board provides us with expert 
advice regarding our collections and preservation program. It's 
a group of 12 highly knowledgeable and esteemed experts in 
their fields of art, preservation, architecture, and they are 
giving generously of their time and talent to the Senate.
    In addition, our newly formed Senate Preservation Board of 
Trustees will meet next month. This group will supplement the 
work of the Curatorial Advisory Board and assist us in 
acquisitions and to facilitate preservation projects for the 
Senate. You may recall that your former colleague from 
Colorado, Senator Campbell, sent us on a search for a chair 
that was given to Vice President Charles Curtis to celebrate 
his Native American heritage. And that chair, now on loan to 
us--the search was victorious--and the chair now resides in the 
Vice President's ceremonial office.
    Since that acquisition, I'm pleased to report we've made 
progress on other fronts, as well. We have subsequently 
acquired a Brumidi oil sketch, which was a preliminary 
treatment for the signing of the first Treaty of Peace with 
Great Britain, which, of course, in its finished form, is on 
the first floor of the Capitol, in the Brumidi corridors. And I 
would add, just coincidentally, this year happens to mark the 
200th anniversary of Brumidi's birth. We are working with the 
Architect of the Capitol on several ways that we can 
commemorate that historic occasion in the Capitol this summer.
    Our historical office also came into possession, this last 
year, of a wonderful treasure of scrapbooks that contain 
photographs of nearly 900 Senators, from the Senate's early 
days up to the early 20th century. Many of these were from 
Members for whom we had no prior photograph or record. Some we 
believe may even be the photographs done by Matthew Brady, the 
very famous Civil War photographer. This treasure actually came 
to us from a lifelong Washington resident. He grew up on 
Capitol Hill, and one of his fondest memories is that he was 
often walked to school by Chief Justice Taft. Thanks to his 
generosity, our historical office is now putting together, for 
the first time ever, a pictorial directory of the images of all 
Senators who have served since 1789, by State and class.
    While we focus on the rich history and tradition of the 
Senate in the Secretary's office, we certainly don't ignore the 
fact that technology continues to dramatically change the way 
we deliver services to the Senate in this 21st century. The 
Senate Library, for example, just late last year completed an 
ambitious project to provide its entire catalog online through 
the Senate intranet, Webster, so you can now review our catalog 
of 158,000 items literally from your desk. In addition, the use 
of our public website, senate.gov, continues to grow, a 9 
percent increase last year, with almost 3.3 million visitors 
per month.
    The second of our two mandated systems, the Legislative 
Information System (LIS), is a technological achievement, in 
and of itself. I'm delighted to report that, already in this 
Congress, working in conjunction with the Office of Senate 
Legislative Counsel, we've used this system to draft 
legislation, and 75 percent of the introduced and reported 
bills have been created as XML documents through this project. 
Once again, this subcommittee has generously supported that 
initiative.
    And, quickly, there are two special projects I want to 
mention that don't necessarily fall tidily within our mission 
of legislative, financial, and administrative responsibilities, 
but they are two projects that we have the unique opportunity 
to work on in election and inaugural years. In November, we 
organized and executed the orientation program for our nine new 
Senators, their spouses, and staffs, and we were very fortunate 
to have the guidance of four of your colleagues, current 
Members, Senators Alexander, Carper, Pryor, and Voinovich, who 
wanted to set a new standard for orientation. And, thanks to 
their leadership, I believe we did, with an intensive 4-day 
program, with over two dozen Senators, on a bipartisan basis, 
serving as facilitators and instructors for their new 
colleagues.
    Our staff was also honored to assist the Joint 
Congressional Committee on Inaugural Ceremonies in the 
preparation and execution of the 55th inaugural. From the 
closed-captioners, who provided the captioning for the 
jumbotrons, to the curator and Historian serving on the JCCIC 
website design team, it was really our honor to take a small 
role in that presentation.
    Our operation, as you can see, is one that relies heavily 
on its human capital. While our operating budget is small, it 
is the teamwork, it is our employees, that make the Secretary's 
operation click. We are collaborative partners in so many ways, 
and in so many different levels within our departments 
themselves, within the office, also with disbursing, reaching 
out to administrative managers on the applications of FMIS. We 
work closely with Mr. Hantman and the entire team in the 
Architect's office, on the construction issues, and the 
planning of the CVC. And, finally, in so many ways, we're 
joined with the Sergeant at Arms in the ongoing important 
effort of continuity of Government planning and preparation.


                           PREPARED STATEMENT


    It's a real privilege to be part of that team and to serve 
as the Senate's 31st Secretary, to be part of that rich 
tradition and heritage of the Senate, but also to be planning 
and preparing for its future. On balance, I believe we've 
presented a budget for you today that will enable us to 
continue to provide the best possible legislative, financial, 
and administrative services to the United States Senate.
    I thank you for your time and look forward to any 
questions. Thank you, sir.
    [The statement follows:]

                Prepared Statement of Emily J. Reynolds

    Mr. Chairman, Senator Durbin and Members of the Subcommittee, thank 
you for your invitation to present testimony in support of the budget 
request of the Office of the Secretary of the Senate for fiscal year 
2006.
    Detailed information about the work of the 26 departments of the 
Office of the Secretary is provided in the annual reports which follow. 
I am pleased to provide this statement to highlight the achievements of 
the Office and the outstanding work of our dedicated employees.
    My statement includes: Presenting the fiscal year 2006 budget 
request; implementing mandated systems: Financial Management 
Information System (FMIS) and Legislative Information System (LIS); 
Capitol Visitor Center; continuity of operations planning; and 
maintaining and improving current and historic legislative, financial 
and administrative services.

             PRESENTING THE FISCAL YEAR 2006 BUDGET REQUEST

    I am requesting a total fiscal year 2006 budget of $22,766,000.
    The fiscal year 2006 budget request is comprised of $20,866,000 in 
salary costs and $1,900,000 for the operating budget of the Office of 
the Secretary. The salary budget represents an increase over the fiscal 
year 2005 budget as a result of (1) the costs associated with the 
annual Cost of Living Adjustment in the amount of $672,000 and (2) an 
additional $608,000 for merit increases and other staffing. The 
operating budget represents an increase for (1) costs to be incurred 
for the support and maintenance of systems upgrades for the gift shop 
and stationery room and (2) costs to be incurred for the Curator's 
storage space along with the relocation of Senate Security and 
Captioning Services.
    The net effect of my total budget request for fiscal year 2006 is 
an increase of $1,480,000.
    Our request in the operating budget is a sound one, enabling us to 
meet our operating needs and provide the necessary services to the 
United States Senate through our legislative, financial and 
administrative offices.
    In reference to the salary budget, first and foremost, this request 
will enable us to continue to attract and retain talented and dedicated 
individuals to serve the needs of the United States Senate.

                                 OFFICE OF THE SECRETARY APPORTIONMENT SCHEDULE
----------------------------------------------------------------------------------------------------------------
                                                                      Amount
                                                                     available        Budget
                              Item                                  fiscal year      estimate       Difference
                                                                   2005, Public     fiscal year
                                                                    Law 108-447        2006
----------------------------------------------------------------------------------------------------------------
Departmental operating budget:
    Executive office............................................        $525,000        $550,000        +$25,000
    Administrative services.....................................       1,135,000       1,290,000        +155,000
    Legislative services........................................          40,000          60,000         +20,000
                                                                 -----------------------------------------------
      Total operating budget....................................       1,700,000       1,900,000        +200,000
----------------------------------------------------------------------------------------------------------------

                     IMPLEMENTING MANDATED SYSTEMS

    Two systems critical to our operation are mandated by law, and I 
would like to spend a few moments on each to highlight recent progress, 
and to thank the committee for your ongoing support of both.
Financial Management Information System (FMIS)
    The Financial Management Information System, or FMIS, is used by 
approximately 140 offices (100 Senators' offices, 20 Committees and 20 
Leadership and support offices). Consistent with our five year 
strategic plan, the Disbursing Office continues to modernize processes 
and applications to meet the continued demand by our Senate offices for 
efficiency, accountability and ease of use. Our goal is to move to a 
paperless voucher system, improve the Web-FMIS system, and make payroll 
and accounting system improvements.
    During fiscal year 2004 and the first half of fiscal year 2005, 
specific progress made on the FMIS project included:
  --Web FMIS has been completely rewritten as a ``zero-client'' 
        application accessed via a website, ``webfmis.senate.gov''. Our 
        implementation began in August 2004 with a pilot of 15 offices, 
        including Senators, Committees and Leadership & Support 
        offices. During the Fall, it continued for new office managers, 
        and in January the intranet version of Web FMIS was provided to 
        the new offices of the 109th Congress. As of the end of March, 
        it was in use by 60 offices. Roll out to the remaining offices 
        has been announced with a schedule of completion by the end of 
        April.
  --The new version of Web FMIS provides functionality desired by the 
        Web FMIS users group, which participated in the design process. 
        The functionality enjoyed most by users is the automatic 
        determination of funding year to which a payment is charged 
        based on the obligation start date. This seemingly small change 
        has improved efficiency and reduced mistakes substantially. 
        Additionally, it has no files on the users PC, which improves 
        our ability to function in a disaster recovery situation.
  --For the SAVI system, which enables Senate staff to create Expense 
        Summary Reports online and to check the status of reimbursement 
        payments, over a course of several upgrades, we provided 
        additional user functionality. Specifically, the upgrades 
        enabled users to prepare and submit Non-travel Expense Summary 
        Reports (in addition to Travel Expense Summary Reports), to 
        request e-mail notification of payments made via direct 
        deposit, to define their own log-on ids and to maintain their 
        own e-mail addresses; completed security enhancements; and 
        implemented a simplified web address ``savi.senate.gov'' and 
        architectural changes, which simplify disaster recovery 
        infrastructure at the ACF.
  --As a non-Treasury disbursing office, the Senate pays bills via 
        direct deposit and checks. During 2004, we made substantial 
        progress on both fronts.
    --In March 2004, we implemented use of laser checks. Staff and 
            vendors not receiving payments via direct deposit now 
            receive checks printed on a laser printer. This has several 
            benefits. Use of a standard laser printer enhances our 
            ability to work off-site, should the need arise, and 
            produces a higher quality print which prevents negotiation 
            of checks for an unintended dollar amount and helps the 
            Postal Service to deliver checks. Use of laser checks 
            required that the U.S. Treasury create a check and stub 
            form for use by the Senate.
    --In May 2004, we offered direct deposit payment to all external 
            vendors. In 2002, we began making reimbursements to Senate 
            staff via direct deposit and in June 2003 we made our first 
            direct deposit payments to external vendors on a pilot 
            basis. Of the approximately 6,000 non-payroll payments made 
            in February 2005, overall, 59 percent were made via direct 
            deposit; of the approximately 2,000 reimbursements to 
            Senate staff, 87 percent were made via direct deposit and 
            of the approximately 4,000 payments to external vendors, 47 
            percent were made via direct deposit.
  --The Sergeant at Arms staff use ADPICS and FAMIS, the mainframe 
        components of FMIS, for procurement activities. In 2004 we 
        contracted with Bearing Point to make system and reporting 
        enhancements to these systems that align system functionality 
        with SAA business practices. By the end of March 2005, the 
        requirements for the system enhancements were approved by the 
        SAA staff and the reports were delivered for testing.
  --One of the goals of FMIS is to implement paperless voucher 
        processing. This requires implementation of electronic 
        signatures, and imaging of supporting documentation, both of 
        which present complex and challenging issues. Our focus has 
        been on revising the requirements for these functions, 
        including a phased approach for implementation (i.e., a pilot 
        vs. long term). In addition, we assessed the risks associated 
        with paperless voucher processing, identified policy and 
        process issues to be resolved, and began to analyze the 
        appropriate hardware/software acquisition strategy.
  --Disaster operation services for FMIS are provided at the Alternate 
        Computer Facility. In December 2004, we conducted an intensive 
        two-day test of operating critical FMIS subsystems at this 
        location. Our tests of all mainframe systems (i.e., payroll, 
        ADPICS and FAMIS) were successful and we were able to simulate 
        making payroll and voucher payments via direct deposit and 
        check. Additionally, we were able to create, post, and print 
        documents via Web FMIS and ADPICS. Document printing has always 
        presented problems during past tests at other facilities; 
        however, the system configuration at the ACF has resolved this 
        problem.
  --The computing infrastructure for FMIS is provided by the Sergeant 
        at Arms. Each year upgrades are made to the infrastructure 
        software. The major upgrade this year is implementation of a 
        new version of the mainframe operating system software, ``Z/
        OS'', scheduled for the end of April 2005. This required two 
        steps, installation of an upgrade to the current operating 
        system, OS390, which was completed in October 2004, and the 
        upcoming implementation of Z/OS. These upgrades require FMIS 
        testing, both before implementation to identify and resolve any 
        incompatibilities, and after implementation to verify that all 
        functions are working properly.
    During the remainder of fiscal year 2005 the following FMIS 
activities are anticipated:
  --Complete implementing the intranet version of Web FMIS in all 
        Senate offices.
  --Implementing the system and reporting enhancements for the Sergeant 
        at Arms.
  --Completing analysis of the appropriate hardware/software 
        acquisition strategy for electronic signatures, and imaging of 
        supporting documentation, and begin acquisition.
  --Conducting an additional test of FMIS functionality at the 
        Alternate Computing Facility, including testing two FMIS sub-
        systems, Web FMIS reports and SAVI, that were not previously 
        tested.
  --Implementing e-mail notification to vendors of payments made via 
        direct deposit.
    During fiscal year 2006 the following FMIS activities are 
anticipated:
  --Conducting a pilot of the technology for paperless payment. This 
        assumes identification of satisfactory hardware and software 
        for electronic signatures and imaging of supporting 
        documentation, and resolution of related policy and process 
        issues.
  --Developing requirements for integrating the Funds Advance Tracking 
        System (FATS system) into FMIS. The FATS system, a stand-alone 
        PC-based system, tracks election cycle information used in the 
        voucher-review process, and tracks travel advances and petty 
        cash advances against dollar maximum and total allocation 
        rules.
  --Implementing on-line distribution of payroll system reports.
    A more detailed report on FMIS is included in the departmental 
report of the Disbursing Office which follows.

Legislative Information System (LIS)
    The LISAP project team is developing the Senate's legislative 
editing XML application (LEXA), and the Office of the Senate 
Legislative Counsel (SLC) began using it last year to draft 
legislation. The SLC offered valuable feedback throughout the year 
regarding LEXA's continued development as existing features were 
enhanced and additional document types, such as amendments and reported 
bills, were added to LEXA. The use of LEXA by the SLC has gradually 
increased, and so far in the 109th Congress, approximately 75 percent 
of the introduced and reported bills have been created as XML 
documents. The LISAP project team is now working with the Office of the 
Enrolling Clerk toward preparing engrossed and enrolled bills in XML.
    The document management system (DMS) for the SLC will be 
implemented once the SLC has completed the transition from XyWrite to 
LEXA and a substantial number of drafts are created in XML. The SLC's 
DMS will be integrated with LEXA and will provide a powerful tracking, 
management, and delivery tool. The software used to convert locator 
documents to XML was updated to provide a more robust tool, and a joint 
project to convert the compilations of current law to an XML format is 
nearing completion.
    The Government Printing Office (GPO) also began using LEXA last 
year to prepare and print XML documents as requested and to provide 
support for LEXA as directed in the 2004 Legislative Branch 
Appropriations Act. GPO took over maintenance and support of the coding 
and style sheet portion of LEXA that converts an XML document to 
locator for printing through Microcomp. GPO also developed the style 
sheet that will be used to display XML documents on the LIS website 
(www.congress.gov) and on thomas.loc.gov in a format that more closely 
resembles the printed document (without page and line numbers).

                         CAPITOL VISITOR CENTER

    While the Architect of the Capitol directly oversees this massive 
and impressive project, I would like to briefly mention the ongoing 
involvement of the Secretary's office in this endeavor. My colleague, 
the Clerk of the House, and I continue to facilitate weekly meetings 
with senior staff of the joint leadership of Congress to address and 
hopefully quickly resolve issues that might impact the status of the 
project or the operations of Congress in general.
    In addition, I also facilitate weekly meetings with the Architect's 
office for the senior staff of the Senate Sergeant at Arms, Capitol 
Police, Rules Committee and Appropriations Committee, to address the 
expansion space plans for the Senate and any issues with regard to the 
CVC's construction that may directly impact Senate operations.
    Although the construction creates numerous temporary inconveniences 
to Senators, staff and visitors, completion of the Capitol Visitor 
Center will bring substantial improvements in enhanced security and 
visitor amenities, and its educational benefits for our visitors will 
be tremendous.

      CONTINUITY OF OPERATIONS AND EMERGENCY PREPAREDNESS PLANNING

    The Office of the Secretary maintains a Continuity of Operations 
(COOP) program to ensure that the Senate can fulfill its constitutional 
obligations under any circumstances. Plans are in place to support 
Senate floor operations both on and off Capitol Hill, and to permit 
each department within the Office of the Secretary to perform its 
essential functions during and after an emergency.
    COOP planning in the Office of the Secretary began in late 2000. 
Since that time, we have successfully implemented COOP plans during the 
anthrax and ricin incidents, and have conducted roughly one dozen 
drills and exercises to test and refine our plans. In conjunction with 
the Senate Sergeant at Arms, Capitol Police, the Office of the 
Attending Physician, and the Architect of the Capitol, we have 
established and exercised Emergency Operations Centers, Briefing 
Centers and Alternate Senate Chambers, both on and off Capitol Hill.
    In addition, we have identified equipment, supplies and other items 
critical to the conduct of essential functions, and have assembled 
``fly-away kits'' for the Senate Chamber, and for each department of 
the Office of the Secretary. Multiple copies of each fly-away kit have 
been produced. Some are stored in our offices, and back-up kits are 
stored nearby but off the main campus, as well as at other sites 
outside the District of Columbia. This approach will enable the Office 
of the Secretary to resume essential operations in 12 to 24 hours, even 
if there is no opportunity to retrieve anything from our offices.
    Today, the Office of the Secretary is prepared to do the following 
in the event of an emergency: support Senate Floor operations in an 
Alternate Senate Chamber within twelve hours on campus, and in 24 to 72 
hours off campus, depending upon location; support an emergency 
legislative session at a Briefing Center, if required; support Briefing 
Center Operations at any of three designated locations within one hour; 
and activate an Emergency Operations Center on campus or at Postal 
Square within one hour.

Activities in the Past Year
    During the past year, the Office of the Secretary continued to 
update, refine and exercise emergency preparedness plans and 
operations. Specific activities included the following: Activated an 
Emergency Operations Center, Leadership Coordination Center and 
selected departmental COOP plans during the ricin incident response; 
participated in the Capitol Police Incident Command during the ricin 
incident response; provided supplies to temporary offices in the 
Capitol and Postal Square during the ricin incident response; conducted 
an offsite Alternate Chamber exercise and a Briefing Center exercise; 
and reviewed and updated the COOP plans of all departments of the 
Office of the Secretary.
    The central mission of the Office of the Secretary is to provide 
the legislative, financial and administrative support required for the 
conduct of Senate business. Our emergency preparedness programs are 
designed to ensure that the Senate can carry out its Constitutional 
functions under any circumstances. These programs are critical to our 
mission, and they are a permanent, integral part of the Secretary's 
ongoing operation.

 MAINTAINING AND IMPROVING CURRENT AND HISTORIC LEGISLATIVE, FINANCIAL 
                      AND ADMINISTRATIVE SERVICES
                          LEGISLATIVE OFFICES

    The Legislative Department of the Office of the Secretary of the 
Senate provides the support essential to Senators to perform their 
daily chamber activities as well as the constitutional responsibilities 
of the Senate. The department consists of eight offices--the Bill 
Clerk, Captioning Services, Daily Digest, Enrolling Clerk, Executive 
Clerk, Journal Clerk, Legislative Clerk, and the Official Reporters of 
Debates--all supervised by the Secretary through the Legislative Clerk. 
The Parliamentarian's office is also within the Legislative Department 
of the Secretary of the Senate.
    Each of the nine offices within the Legislative Department is 
supervised by experienced veterans of the Secretary's office. The 
average length of service of legislative supervisors is 20 years. There 
is not one supervisor with less than 14 years of service. The 
experience of these senior professional staff is a great asset for the 
Senate. As in previous years and in order to ensure continued well-
rounded expertise, the legislative team has cross-trained extensively 
among their specialties.

                             1. BILL CLERK
 
   The Office of the Bill Clerk collects and records data on the 
legislative activity of the Senate, which becomes the historical record 
of official Senate business. The Bill Clerk's Office keeps this 
information in its handwritten files and ledgers and also enters it 
into the Senate's automated retrieval system so that it is available to 
all House and Senate offices via the Legislative Information System 
(LIS). The Bill Clerk records actions of the Senate with regard to 
bills, resolutions, reports, amendments, cosponsors, public law 
numbers, and recorded votes. The Bill Clerk is responsible for 
preparing for print all measures introduced, received, submitted, and 
reported in the Senate. The Bill Clerk also assigns numbers to all 
Senate bills and resolutions. All the information received in this 
office comes directly from the Senate floor in written form within 
moments of the action involved. As a result, the Bill Clerk's Office is 
generally regarded as the most timely and most accurate source of 
legislative information.
    The Bill Clerk's Office continues to provide Senate offices and the 
public information on Senate legislative status with a high degree of 
accuracy and speed, both through the Senate LIS system (when questions 
on status concern legislation from prior days) and over the phone 
(mostly for same-day information).
Legislative Activity
    The Bill Clerk's Office processed less legislation and fewer roll 
call votes during the second session of the108th Congress compared to 
the first session of the 108th Congress. Below is a comparative summary 
of the second sessions of the 107th and the 108th congresses, as well 
as a comparative summary of both sessions of the 107th and the 108th 
congresses:

------------------------------------------------------------------------
                                               107th           108th
                                           Congress, 2nd   Congress, 2nd
                                              Session         Session
------------------------------------------------------------------------
Senate Bills............................           1,298           1,032
Senate Joint Resolutions................              23              16
Senate Concurrent Resolutions...........              67              66
Senate Resolutions......................             170             204
Amendments Submitted....................           2,287           1,857
House Bills.............................             298             322
House Joint Resolutions.................              12              12
House Concurrent Resolutions............              84              87
Measures Reported.......................             406             317
Written Reports.........................             219             208
                                         -------------------------------
      Total Legislation.................           4,864           4,121
                                         ===============================
Roll Call Votes.........................             253             216
------------------------------------------------------------------------

    For comparative purposes, here is a final cumulative summary of 
both sessions of the 107th and the 108th congresses:

------------------------------------------------------------------------
                                          107th Congress  108th Congress
------------------------------------------------------------------------
Senate Bills............................           3,181           3,035
Senate Joint Resolutions................              53              42
Senate Concurrent Resolutions...........             160             152
Senate Resolutions......................             368             487
Amendments Submitted....................           4,984           4,088
House Bills.............................             562             604
House Joint Resolutions.................              29              32
House Concurrent Resolutions............             175             165
Measures Reported.......................             653             659
Written Reports.........................             351             428
                                         -------------------------------
      Total Legislation.................          10,516           9,692
                                         ===============================
Roll Call Votes.........................             633             675
------------------------------------------------------------------------

Assistance from the Government Printing Office (GPO)
    The Bill Clerk's office maintains a good working relationship with 
the Government Printing Office with a common goal to provide the best 
service possible to meet the needs of the Senate. Toward this end, the 
Government Printing Office continues to respond in a timely manner to 
the Secretary's request through the Bill Clerk's office for the 
printing of bills and reports, including the printing of priority 
matters for the Senate Chamber. Specifically, the Secretary requested, 
through the Bill Clerk, that GPO reprint (star print) roughly 40 
measures during the course of the Congress, and that GPO expedite the 
printing of slightly more than one hundred measures for consideration 
by the Senate.

Projects
    Amendment Tracking System (ATS).--Rules Committee staff approached 
our office with the task of scanning submitted amendments onto the 
Amendment Tracking System on LIS. The Rules Committee has identified a 
need for Senate staff, to have all amendments submitted in the Senate 
made available to them online shortly after being submitted, especially 
during cloture. The Rules Committee also requested that the Secretary 
through the Bill Clerk assess the feasibility of lifting the page 
limitation for scanning amendments onto the ATS Indexer. In response, 
the Bill Clerk contacted the Technology Development division of the 
Sergeant at Arms office to outline the technical requirements needed to 
implement such a request. A draft has now been completed. Once the 
final version is delivered, the Secretary through the Bill Clerk, in 
consultation with the Legislative Clerk, will ascertain the legislative 
requirements needed in order for the staff to implement this request. 
The system must be designed and implemented without sacrificing 
critical services to the functioning of the Senate Chamber, and 
specifically the amendment process.
    Electronic Ledger System.--Shortly after the September 2001 attacks 
and the subsequent anthrax attacks in the Capitol complex, the Bill 
Clerk identified the need to have a electronic version of the official 
Senate ledgers in order to ensure the integrity of the information 
recorded in the ledgers. The electronic version will be portable for 
use during possible emergency scenarios. At the clerk's request, the 
Technology Development division of the Sergeant at Arms is working to 
develop two separate functions of this electronic ledger system. One is 
an electronic data entry system which will mimic the layout of the 
current Senate ledgers printed by the Government Printing Office; the 
other is a search function. Both of these programs will be housed on a 
separate server to maintain the integrity of the ledger data. The 
electronic ledger system is currently under development. To further 
advance the project, the ELS project team at Postal Square has spent 
much time updating and converting data.

                    2. OFFICE OF CAPTIONING SERVICES

    The Office of Captioning Services provides realtime captioning of 
Senate floor proceedings for the deaf and hard-of-hearing and 
unofficial electronic transcripts of Senate floor proceedings to Senate 
offices via the Senate Intranet.
    Accuracy remains the watchword of Captioning Services. Overall 
caption quality is monitored through translation data reports, 
monitoring the captions in realtime and reviewing the caption files on 
the Senate Intranet.
    A cooperative effort between the Senate Rules Committee, the 
Judiciary Committee, the Sergeant at Arms and the Secretary of the 
Senate in fiscal year 2002 to develop a Pilot Project to realtime 
caption Senate Committee Hearings resulted in a Judiciary Committee 
Captioning Committee Pilot Project.
    Voice recognition technology continues to improve and the Office of 
Captioning Services is on the cutting edge of testing and evaluating 
these products as they evolve. The Pilot Project to realtime caption 
Judiciary Committee hearings employed the newest hardware and software 
developed for voice recognition captioning.
    During fiscal year 2005, considerable energy was expended to update 
the hardware, software and documentation in our COOP flyway kit to 
enhance the ability to successfully caption from a remote location.
    The primary objective for fiscal year 2006 is to plan for the 
procurement and installation of equipment and relocation of the Office 
of Captioning Services to the Capitol Visitors Center.

                            3. DAILY DIGEST

    The Senate Daily Digest serves seven principal functions:
  --To render a brief, concise and easy-to-read accounting of all 
        official actions taken by the Senate in the Congressional 
        Record section known as the Daily Digest.
  --To compile an accounting of all meetings of Senate committees, 
        subcommittees, joint committees and committees of conference.
  --To enter all Senate and Joint committee scheduling data into the 
        Senate's web-based scheduling application system. Committee 
        scheduling information is also prepared for publication in the 
        Daily Digest in three formats: Day-Ahead Schedule; 
        Congressional Program for the Week Ahead; and the extended 
        schedule which actually appears in the Extensions of Remarks 
        section of the Congressional Record.
  --To enter into the Senate's Legislative Information System all 
        official actions taken by Senate committees on legislation, 
        nominations, and treaties.
  --To publish in the Daily Digest a listing of all legislation which 
        has become public law.
  --To publish on the first legislative day of each month in the Daily 
        Digest a ``Resume of Congressional Activity'' which includes 
        all Congressional statistical information, including days and 
        time in session; measures introduced, reported and passed; and 
        roll call votes.
  --To assist the House Daily Digest Editor in the preparation at the 
        end of each session of Congress a history of public bills 
        enacted into law and a final resume of congressional 
        statistical activity.

Committee Activity
    Senate committees held a total of 787 meetings during the second 
session, as contrasted with 930 meetings during the second session, of 
the 107th Congress.
    As more specifically defined above, all hearings and business 
meetings (including joint meetings and conferences) are scheduled 
through the Office of the Senate Daily Digest and are published in the 
Congressional Record and entered in the web-based applications system 
(Legislative Information System). Meeting outcomes are also published 
by the Daily Digest in the Congressional Record each day.
Chamber Activity
    The Senate was in session a total of 133 days, for a total of 1,031 
hours and 31 minutes. There was one live quorum call and 216 recorded 
votes. (A 20-Year Comparison of Senate Legislative Activity follows).

                                                                        20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1985          1986          1987          1988          1989          1990          1991          1992          1993          1994
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/3          1/21           1/6          1/25           1/3          1/23           1/3           1/3           1/5          1/25
Senate Adjourned....................................         12/20         10/18         12/22         10/21         11/21         10/28        1/3/92          10/9         11/26         12/01
Days in Session.....................................           170           143           170           137           136           138           158           129           153           138
Hours in Session....................................      1,25231"      1,27815"      1,21452"      1,12648"      1,00319"      1,25014"      1,20044"      1,09109"      1,26941"      1,24333"
Average Hours per Day...............................           7.4           8.9           7.1           8.2           7.4           9.1           7.6           8.5           8.3           9.0
Total Measures Passed...............................           583           747           616           814           605           716           626           651           473           465
Roll Call Votes.....................................           381           359           420           379           312           326           280           270           395           329
Quorum Calls........................................            20            16            36            26            11             3             3             5             2             6
Public Laws.........................................           240           424           240           473           240           244           243           347           210           255
Treaties Ratified...................................             6            12             3            15             9            15            15            32            20             8
Nominations Confirmed...............................        55,918        39,893        46,404        42,317        45,585        42,493        45,369        30,619        38,676        37,446
Average Voting Attendance...........................         94.64         95.72         94.03         91.58          98.0         97.47         97.16          95.4          97.6         97.02
Sessions Convened Before 12 Noon....................           119           117           131           120            95           116           126           112           128           120
Sessions Convened at 12 Noon........................            38            25            12            12            14             4             9  ............             6             9
Sessions Convened after 12 Noon.....................            13             1            25             5            27            17            23            10            15            17
Sessions Continued after 6 p.m......................           104            92            97            37            88           100           102            91           100           100
Sessions Continued after 12 Midnight................             7            15             6             7             9            13             6             4             9             7
Saturday Sessions...................................             3             2             3  ............             1             3             2             2             2             3
Sunday Sessions.....................................             1  ............             1  ............  ............             2  ............  ............  ............  ............
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------


                                                                  20-YEAR COMPARISON OF SENATE LEGISLATIVE ACTIVITY--Continued
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
                                                          1995          1996          1997          1998          1999          2000          2001          2002          2003          2004
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Senate Convened.....................................           1/4           1/3           1/3          1/27           1/6          1/24           1/3          1/23           1/7          1/20
Senate Adjourned....................................        1/3/96          10/4         11/13         10/21         11/19         12/15         12/20         11/20          12/9          12/8
Days in Session.....................................           211           132           153           143           162           141           173           149           167           133
Hours in Session....................................      1,83910"      1,03645"      1,09307"      1,09505"      1,18357"      1,01751"      1,23615"      1,04223"      1,45405"      1,03131"
Average Hours per Day...............................           8.7           7.8           7.1           7.7           7.3           7.2           7.1           7.0           8.7           7.7
Total Measures Passed...............................           346           476           386           506           549           696           425           523           590           663
Roll Call Votes.....................................           613           306           298           314           374           298           380           253           459           216
Quorum Calls........................................             3             2             6             4             7             6             3             2             3             1
Public Laws.........................................            88           245           153           241           170           410           136           241           198           300
Treaties Ratified...................................            10            28            15            53            13            39             3            17            11            15
Nominations Confirmed...............................        40,535        33,176        25,576        20,302        22,468        22,512        25,091        23,633        21,580        24,420
Average Voting Attendance...........................         98.07         98.22         98.68         97.47         98.02         96.99         98.29         96.36         96.07         95.54
Sessions Convened Before 12 Noon....................           184           113           115           109           118           107           140           119           133           104
Sessions Convened at 12 Noon........................             2            15            12            31            17            25            10            12             4             9
Sessions Convened after 12 Noon.....................            12             7             7             2            19            24            21            23            23            21
Sessions Continued after 6 p.m......................           158            88            96            93           113            94           108           103           134           129
Sessions Continued after 12 Midnight................             3             1  ............  ............  ............  ............             2             3             8             2
Saturday Sessions...................................             5             1             1             1             3             1             3  ............             1             2
Sunday Sessions.....................................             3  ............             1  ............  ............             1  ............  ............             1             1
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------
Prepared by the Senate Daily Digest--Office of the Secretary.

Technology Updates and Government Printing Office
    The Daily Digest continues to send the complete publication at the 
end of each day to the Government Printing Office electronically. The 
Editor, Assistant Editor, and Committee Scheduling Coordinator function 
solely within the framework of adaptability to preparing Digest copy on 
computers, storing and sharing information, permitting prompt editing, 
and the final transfer to floppy disc. The Digest continues the 
practice of sending a disc along with a duplicate hard copy to GPO, 
even though GPO receives the Digest copy by electronic transfer long 
before hand delivery is completed adding to the timeliness of 
publishing the Congressional Record. The Digest office continues to 
feel comfortable with this procedure, both to allow the Digest Editor 
to physically view what is being transmitted to GPO, and to allow GPO 
staff to have a comparable final product to cross reference.
    The Daily Digest continues the practice of discussing with the 
Government Printing Office problems encountered with the printing of 
the Digest, and are pleased to report that with the onset of electronic 
transfer of the Digest copy, occurrences of editing corrections or 
transcript errors are infrequent.
    The Digest office continues to work closely with Senate computer 
staff to refine the LIS/DMS system, including further refinements to 
the Senate Committee Scheduling application which will improve the data 
entry process. The committee scheduling application was developed back 
in 1999 as a server-based web-enabled application that is browser 
accessible to all Senate offices on Capitol Hill. It was designed to 
replace the committee scheduling functions and reports that were 
supported by the mainframe-based Senate Legis System.

Office Summary
    The Daily Digest consults on a daily basis with the Senate 
Parliamentarians, Legislative, Executive, Journal, and Bill Clerks, the 
Official Reporters of Debates, as well as the staffs of the Policy 
Committees and other committee staffs, and is grateful for the 
continued support from these offices.

                           4. ENROLLING CLERK

    The Enrolling Clerk prepares, proofreads, corrects and prints all 
legislation passed by the Senate prior to its transmittal to the House 
of Representatives, the White House, the National Archives, the 
Secretary or State and/or the United States Claims Court.
    In 2004, 86 enrolled bills (transmitted to the President) and 14 
concurrent resolutions (transmitted to Archives) were prepared, 
proofread, corrected and printed on parchment.
    A total of 673 additional pieces of legislation in one form or 
another were passed or agreed to by the Senate, requiring processing by 
the Enrolling Clerk.

                           5. EXECUTIVE CLERK

    The Executive Clerk prepares an accurate record of actions taken by 
the Senate during executive sessions (proceedings on nominations and 
treaties) which is published as the Executive Journal at the end of 
each session of Congress. The Executive Clerk also prepares daily the 
Executive Calendar as well as all nomination and treaty resolutions for 
transmittal to the President. Additionally, the Executive Clerk's 
office processes all executive communications, presidential messages 
and petitions and memorials.

Nominations
    During the second session of the 108th Congress, there were 340 
nomination messages sent to the Senate by the President, transmitting 
24,420 nominations to positions requiring Senate confirmation and 26 
messages withdrawing nominations previously sent to the Senate. Of the 
total nominations transmitted, 336 were for civilian positions other 
than lists in the Foreign Service, Coast Guard, NOAA, and Public Health 
Service. In addition, there were 4,077 nominees in the ``civilian 
list'' categories named above. Military nominations received this 
session totaled 20,003 (6,077--Air Force, 5,324--Army, 7,375--Navy and 
1,227--Marine Corps). The Senate confirmed 27,047 nominations this 
session. Pursuant to the provisions of paragraph six of Senate Rule 
XXXI, 4,129 nominations were returned to the President during the 
second session of the 108th Congress.

Treaties
    There were 14 treaties transmitted to the Senate by the President 
during the second session of the 108th Congress for its advice and 
consent to ratification, which were ordered printed as treaty documents 
for the use of the Senate (Treaty Doc. 108-15 through 108-28). The 
Senate gave its advice and consent to 18 treaties with various 
conditions, declarations, understandings and provisos to the 
resolutions of advice and consent to ratification.

Executive Reports and Roll Call Votes
    There were 14 executive reports relating to treaties ordered 
printed for the use of the Senate during the second session of the 
108th Congress (Executive Report 108-9 through 108-14). The Senate 
conducted 32 roll call votes in executive session, all on or in 
relation to nominations.

Executive Communications
    For the second session of the 108th Congress, 4,932 executive 
communications, 212 petitions and memorials and 39 Presidential 
messages were received and processed.

Legislative Information System (LIS) Update
    The staff consulted with the Senate Computer Center during the year 
concerning the ongoing improvements to the LIS concerning the 
processing of nominations, treaties, executive communications, 
presidential messages and petitions and memorials.
    The Senate Computer Center developed a new program for the 
Executive Calendar that has proved more efficient and error free. The 
SAA computer programming and systems design staff have were very 
helpful in consulting with our office concerning our requirements. The 
SAA also has underway a much needed redesign of a program for creating 
and publishing the Executive Journal.

                            6. JOURNAL CLERK

    The Journal Clerk takes notes of the daily legislative proceedings 
of the Senate in the ``Minute Book'' and prepares a history of bills 
and resolutions for the printed Journal of the Proceedings of the 
Senate, or Senate Journal, as required by Article I, Section V of the 
Constitution. The Senate Journal is published each calendar year. In 
2004, the Journal Clerk completed the production of the 1,146 page 
Senate Journal for 2003.
    The Journal staff each take 90 minute turns at the rostrum in the 
Senate Chamber, noting by hand for inclusion in the Minute Book (i) all 
orders (entered into by the Senate through unanimous consent 
agreements), (ii) legislative messages received from the President of 
the United States, (iii) messages from the House of Representatives, 
(iv) legislative actions as taken by the Senate (including motions made 
by Senators, points of order raised, and roll call votes taken), (v) 
amendments submitted and proposed for consideration, (vi) bills and 
joint resolutions introduced, and (vii) concurrent and Senate 
resolutions as submitted. These notes of the proceedings are then 
compiled in electronic form for publication.
    After extensive testing, the LIS Senate Journal Authoring System 
was completed in early 2004. The Journal staff utilized this system 
through all phases of production for the first time to successfully 
compile the 2004 Journal which was sent to the Government Printing 
Office for printing in mid-March.

                          7. LEGISLATIVE CLERK

    The Legislative Department provides support essential to Senators 
in carrying out their daily chamber activities as well as the 
constitutional responsibilities of the Senate. The Legislative Clerk 
sits at the Secretary's desk in the Senate Chamber and reads aloud 
bills, amendments, the Senate Journal, Presidential messages, and other 
such materials when so directed by the Presiding Officer of the Senate. 
The Legislative Clerk calls the roll of members to establish the 
presence of a quorum and to record and tally all yea and nay votes. 
This office prepares the Senate Calendar of Business, published each 
day that the Senate is in session, and prepares additional publications 
relating to Senate class membership and committee and subcommittee 
assignments. The Legislative Clerk maintains the official copy of all 
measures pending before the Senate and must incorporate into those 
measures any amendments that are agreed to. This office retains custody 
of official messages received from the House of Representatives and 
conference reports awaiting action by the Senate. This office is 
responsible for verifying the accuracy of information entered into the 
LIS system by the various offices of the Secretary.
    Additionally, the Legislative Clerk acts as supervisor for the 
Legislative Department providing a single line of communication to the 
Assistant Secretary and Secretary, and is responsible for overall 
coordination, supervision, scheduling, and cross training.

Summary of Activity
    The second session of the 108th Congress completed its legislative 
business and adjourned sine die on December 8, 2004. During 2004, the 
Senate was in session 133 days and conducted 216 roll call votes. There 
were 317 measures reported from committees, 663 total measures passed, 
and there were 296 items remaining on the Calendar at the time of 
adjournment. In addition, there were 1,857 amendments processed.

Cross-Training
    Recognizing the importance of planning for the continuity of Senate 
business, under both normal and possibly extenuating circumstances, 
cross-training is strongly emphasized among the Secretary's legislative 
staff. To ensure additional staff are trained to perform the basic 
floor responsibilities of the Legislative Clerk, as well as the various 
other floor-related responsibilities of the Secretary, approximately 
half of the legislative staff are currently involved or have recently 
been involved in cross-training.

Legislative Information System (LIS) Enhancement
    In an effort to monitor and improve the Legislative Information 
System (LIS), the Legislative Clerk acts as the liaison between 
legislative clerks and technical operations staff of the Sergeant at 
Arms by scheduling and conducting meetings when necessary. Also, the 
Legislative Clerk reviews, prioritizes, and forwards change requests 
from the clerks to the technical operations staff. Over the past year, 
45 change requests submitted by the clerks to improve the system have 
been implemented.

                    8. OFFICIAL REPORTERS OF DEBATES

    The Official Reporters of Debates prepare and edit for publication 
in the Congressional Record a substantially verbatim report of the 
proceedings of the Senate, and serve as liaison for all Senate 
personnel on matters relating to the content of the Record. The 
transcript of proceedings, submitted statements and legislation are 
transmitted in hard copy and electronically throughout the day to the 
Government Printing Office (GPO).
    The office works diligently to assure that the electronic 
submissions to GPO are timely and efficient. The Official Reporters 
encourage offices to make submissions to the Record by electronic 
means, which results in both a tremendous cost saving to the Senate and 
minimizes keyboard errors.
    To further efficiency, the office provides guidelines on format for 
the Congressional Record. These provide a helpful tool to assure an 
accurate and timely printing of each day's Record.
    The office updated its ProCat transcription software at the 
beginning of last year. With the help of the Information Systems 
department, the office was able to make the necessary adjustments to 
accomplish the latest software update.

                           9. PARLIAMENTARIAN

    The Parliamentarian's Office continues its performance of normal 
legislative duties. These include advising the Chair, Senators and 
their staff, as well as committee staff, House members and their 
staffs, administration officials, the media and members of the general 
public, on all matters requiring an interpretation of the Standing 
Rules of the Senate, the precedents of the Senate, unanimous consent 
agreements, as well as provisions of public law affecting the 
proceedings of the Senate.
    The Parliamentarians work in close cooperation with the Senate 
leadership and their floor staffs to coordinate all of the business on 
the Senate floor. The Parliamentarian or one of his assistants is 
always present on the Senate floor when the Senate is in session, 
standing ready to assist the Presiding Officer in his or her official 
duties, as well as to assist any other Senator on procedural matters. 
The Parliamentarians work closely with the staff of the Vice President 
of the United States and the Vice President himself whenever he 
performs his duties as President of the Senate.
    The Parliamentarians monitor all proceedings on the floor of the 
Senate, advise the Presiding Officer on the competing rights of the 
Senators on the floor, and advise all Senators as to what is 
appropriate in debate. The Parliamentarians keep track of the 
amendments offered to the legislation pending on the Senate floor, and 
monitor them for points of order. In this respect, the Parliamentarians 
reviewed more than 1,000 amendments during 2004 to determine if they 
met various procedural requirements, such as germaneness. The 
Parliamentarians also reviewed thousands of pages of conference reports 
to determine what provisions could appropriately be included therein.
    The Office of the Parliamentarian is responsible for the referral 
to the appropriate committees of all legislation introduced in the 
Senate, all legislation received from the House, as well as all 
communications received from the executive branch, state and local 
governments, and private citizens. In order to perform this 
responsibility, the Parliamentarians do extensive legal and legislative 
research. During 2004, the Parliamentarian and his assistants referred 
1,271 measures and 5,183 communications to the appropriate Senate 
committees. The office worked extensively with Senators and their 
staffs to advise them of the jurisdictional consequences of particular 
drafts of legislation, and evaluated the jurisdictional effect of 
proposed modifications in drafting. The office continues to address the 
jurisdictional questions posed by the creation of the Department of 
Homeland Security, which now has responsibility for hundreds of issues 
previously in the jurisdiction of other Senate committees, by the 
adoption of S. Res. 445 reorganizing intelligence and homeland security 
jurisdiction in the Senate, and by the enactment of the Intelligence 
Reform and Terrorism Prevention Act of 2004. The Parliamentarians have 
made dozens of decisions about the committee referrals of nominations 
for new positions created in Homeland Security, nominations for 
positions which existed before the department was created but whose 
responsibilities have changed, and hundreds of legislative proposals 
concerning the department's responsibilities.
    The staff of the Parliamentarian's Office is also frequently called 
on to analyze and advise Senators on a great number of issues arising 
under the Congressional Budget Act of 1974. The decisions made by the 
Parliamentarians on these matters were a significant factor in the 
consideration of the President's budgetary proposals, and the overall 
Congressional approach to its budget.
    Additionally, in the last four years, rules relating to legislation 
on appropriations bills, and the scope of conference reports on all 
bills were reinstated. This has opened up hundreds of Senate amendments 
to renewed scrutiny by the Parliamentarians, and has meant that the 
Parliamentarians now have the responsibility of potentially reviewing 
every provision of every conference report considered by both houses of 
Congress.
    The Parliamentarians have taken the lead in the Senate in analyzing 
the need for emergency procedural authorities of Congress generally, 
and the Senate in particular. The Parliamentarians took the initiative 
that led to the adoption of S. Res. 296 on February 3, 2004, which 
granted certain emergency authorities to enable the Senate leadership 
to alter the Senate's schedule in certain emergency situations.
    In 2004, as in all election years, the Parliamentarians received 
all of the certificates of election of Senators elected or reelected to 
the Senate, and reviewed them for sufficiency and accuracy, returning 
those that were defective and reviewing their replacements. Also in 
2004, as in all Presidential election years, the Parliamentarians 
worked with other professional staff of the Secretary of the Senate and 
our House counterparts to prepare for the orderly conduct of the joint 
session of Congress to count the electoral ballots for President and 
Vice President. The Parliamentarians reviewed the electoral ballots for 
President and Vice President sent by all the states and the District of 
Columbia to the Vice President, and held several briefings with the 
Vice President and his staff and the House Parliamentarians regarding 
the Vice President's routine duties while presiding over the joint 
session of Congress to count the electoral ballots.

                FINANCIAL OPERATIONS: DISBURSING OFFICE

Disbursing Office Organization
    The mission of the Senate Disbursing Office is to provide efficient 
and effective central financial and human resource data management, 
information and advice to the distributed, individually managed 
offices, and to Members and employees of the United States Senate. To 
accomplish this mission, the Senate Disbursing Office manages the 
collection of information from the distributed accounting locations in 
the Senate to formulate and consolidate the agency level budget, 
disburse the payroll, pay the Senate's bills, prepare auditable 
financial statements, and provide appropriate counseling and advice. 
The Senate Disbursing Office collects information from Members and 
employees that is necessary to maintain and administer the retirement, 
health insurance, life insurance, and other central human resource 
programs. The DO provides responsive, personal attention to Members and 
employees on a non-biased and confidential basis. The Senate Disbursing 
Office also manages the distribution of central financial and human 
resource information to the individual Member Offices, Committees, and 
Administrative and Leadership offices in the Senate while maintaining 
the appropriate control of information for the protection of individual 
Members and Senate employees.
    To support the mission of the Senate Disbursing Office, the 
organization is structured in a manner that is intended to enhance its 
ability to provide quality work, maintain a high level of customer 
service, promote good internal controls, efficiency and teamwork, and 
provide for the appropriate levels of supervision and management. The 
long-term financial needs of the Senate are best served by an 
organization staffed with highly trained professionals who possess a 
high degree of institutional knowledge, sound judgement, and 
interpersonal skills that reflect the unique nature of the United 
States Senate.

Deputy for Benefits and Financial Services
    The primary responsibility of this position is to provide expertise 
on Federal retirement and benefits, payroll, and front office 
processes. Coordination of the interaction between the Financial 
Services, Employee Benefits, and Payroll sections is also a major 
responsibility of the position. Planning and project management of new 
computer systems and programs is also a key function. Ensuring that job 
processes are efficient and up to date, modifying computer support 
systems, implementing regulatory and legislated changes, and designing 
and producing up to date forms for use in all three sections are 
additional areas of responsibility.
    In November 2003, it was determined that the new IBM Mainframe 
operating system being released would not support our payroll system. 
An accelerated system implementation was required, so instead of the 
normal eighteen-month window, this implementation had to be completed 
in only eight months. A team to address the situation was composed of 
Disbursing Office staff with the Deputy as the project lead, key 
Sergeant at Arms personnel and outside contractors. The system was 
successfully tested and implemented as planned on August 1, 2004. The 
payroll system was brought up to web accessible status, a myriad of 
small problems was corrected, and a number of new functions were added 
to enable payroll to more efficiently handle the Senate's needs.
    In January, final touches on the Document Imaging System were 
completed and the first documents, the 2003 W-2s, were loaded into it. 
The Front Office, Employee Benefits, Payroll and Administrative 
sections' personnel were trained in the use of the system and the old 
procedure for the reissue of W-2 copies was discontinued. During the 
next few months, copies of the W-2s going as far back as 1998 were 
added to the files.
    In March, many of the forms and procedures for the Student Loan 
Repayment Program were examined and revised to increase accuracy and 
efficiency of processing.
    In September, the monthly payroll data provided to the Accounting 
Section was converted to e-format for transmittal to the Office of 
Personnel Management.
    In November, reports and projections for Agency contributions to be 
uploaded into the Accounting system were addressed. Requirements were 
detailed, and during the month the payroll upload portion was completed 
and the Accounting group is now working on their portion of the 
project.

Front Counter--Administrative and Financial Services
    The Front Counter is the main service area of all general Senate 
business and financial activity. The Front Counter maintains the 
Senate's internal accountability of funds used in daily operations. 
Reconciliation of such funds is executed on a daily basis. The Front 
Counter provides training to newly authorized payroll contacts along 
with continuing guidance to all contacts in the execution of business 
operations. It is the receiving point for most incoming expense 
vouchers, payroll actions, and employee benefits related forms, and is 
the initial verification point to ensure that paperwork received in the 
Disbursing Office conforms to all applicable Senate rules, regulations, 
and statutes. The Front Counter is the first line of service provided 
to Senate Members, Officers, and employees. All new Senate employees 
(permanent and temporary) who will work in the Capitol Hill Senate 
offices are administered the required oath of office and personnel 
affidavit and provided verbal and written detailed information 
regarding their pay and benefits. Authorization is certified to new and 
state employees for issuance of their Senate identification card. 
Advances are issued to Senate staff authorized for an advance for 
official Senate travel. Cash and check advances are entered and 
reconciled in the Funds Advance Tracking System (FATS). Repayment of 
travel advances is executed after processing of certified expenses is 
complete. Travelers' checks are available on a non-profit basis to 
assist the traveler. Numerous inquiries are handled daily, ranging from 
pay, benefits, taxes, voucher processing, reporting, laws, and Senate 
regulations, and must always be answered accurately and fully to 
provide the highest degree of customer service. Cash and checks 
received from Senate entities as part of their daily business are 
handled through the Front Counter and become part of the Senate's 
accountability of federally appropriated funds and are then processed 
through the Senate's general ledger system.

            General Activities
    The Front Counter processed approximately 2,100 cash advances, 
totaling approximately $1.2 million and initialized 700 check/direct 
deposit advances, totaling approximately $780,000.
    Received and processed more than 27,000 checks, totaling over 
$3,450,000. Administered Oath and Personnel Affidavits to more than 
3,200 new Senate staff and advised them of their benefits.
    Maintained brochures for 10 Federal health carriers and distributed 
approximately 4,000 brochures to new and existing staff during the 
annual FEHB Open Season.
    Provided 36 training sessions to new Office Managers.
    The Front Office operations continued its daily reconciliation of 
operations without any auditable variation; continued to provide 
training and guidance to new Office Managers and business contacts; and 
spearheaded the advance processing of paperwork of the nine incoming 
offices resulting from the November elections. A major emphasis was 
placed on assisting employees in maximizing their Thrift Savings Plan 
contributions and making them aware of the Thrift Savings Plan catch up 
program when applicable. Front Office operations continued to provide 
the Senate community with prompt, courteous, and informative advice 
regarding Disbursing operations.

Payroll Section
    The Payroll Section maintains the Human Resources Management System 
and is responsible for the following: processing, verifying, and 
warehousing all payroll information submitted to the Disbursing Office 
by Senators for their personal staff, by Chairmen for their committee 
staff, and by other elected officials for their staff; issuing salary 
payments to the above employees; rectifying returns of student loan 
allowance payments, jointly maintaining the Automated Clearing House 
(ACH) FEDLINE facilities with the Accounts Payable Section for the 
normal transmittal of payroll deposits to the Federal Reserve; 
distributing the appropriate payroll expenditure and allowance reports 
to the individual offices; issuing the proper withholding and agency 
contributions reports to the Accounting Department; and transmitting 
the proper Thrift Savings Plan (TSP) information to the National 
Finance Center (NFC), while maintaining earnings records for 
distribution to the Social Security Administration, and maintaining 
employees' taxable earnings records for W-2 statements, prepared by 
this section. The Payroll Section is also responsible for the payroll 
expenditure data portion of the Report of the Secretary of the Senate.

            General Activities
    The Payroll Section processed a January 1, 2004 cost of living 
increase of 2.12 percent. This was a preliminary cost of living 
increase based on the President's recommended plan at the time. The 
payroll section later processed a second cost of living increase on 
March 1, 2004 when Congress set the final cost of living rate of 4.42 
percent. Payroll was able to offer the offices several scenarios to 
retroactively implement the COLA.
    The Payroll Section maintained the normal schedule of processing 
TSP open season forms.
    Employees took full advantage of the increase of TSP deductions 
making the most of the new 14 percent/$13,000.00 maximum. For those 
employees over 50 years of age the TSP catch-up programs provided them 
an opportunity to make additional contributions in excess of the 
standard program.
    January 2004 represented the first full year for the processing of 
Flexible Spending Accounts and Long Term Care Accounts. The section has 
found that the files received for each of the above items were 
challenging as the third party vendors had not done business with the 
Federal Government in the past and were unfamiliar with standard 
processing procedures.
    The section helped the SAA's Information Technology staff upgrade 
the Payroll/Personal System from 31 bit technology to 64 bit 
technology. This upgrade enabled better security and additional Web 
based access to Disbursing Office Data. Each member of the section 
assisted in the testing and evaluation of the new product. The upgraded 
system was successfully put into production August 1, 2004.
    The elections of 2004 focused the efforts of the Payroll Section on 
preparing the system for the opening of incoming members' offices and 
the closing of departing members' offices.
    The Payroll Section participated in the December disaster recovery 
testing at the Alternate Computer Facility (ACF). Members of the 
section were able to access and process data to the computer at ACF 
from several locations and various computer connections. Finally, set-
up of the ACH Fedline II system was completed. It established proper 
connections with the Federal Reserve to ensure that processed payrolls 
and vouchers could be transmitted from the ACF.

Employee Benefits Section
    The primary responsibilities of the Employee Benefits Section (EBS) 
are administration of health insurance, life insurance and all 
retirement programs for Members and employees of the Senate. This 
includes counseling, processing of paperwork, research, dissemination 
of information and interpretation of retirement and benefits laws and 
regulations. In addition, the sectional work includes research and 
verification of all prior federal service and prior Senate service for 
new and returning appointees. EBS provides this information for payroll 
input and once Official Personnel Folders and Transcripts of Service 
are received, verifies the accuracy of the information provided and 
reconciles as necessary. Transcripts of Service including all official 
retirement and benefits documentation are provided to other federal 
agencies when Senate Members and staffers are hired elsewhere in the 
government. EBS processes employment verifications for loans, the Bar 
Exam, the FBI, OPM, and DOD, among others. Unemployment claim forms are 
completed, and employees are counseled on their eligibility. Department 
of Labor billings for unemployment compensation paid to Senate 
employees are reviewed in EBS and submitted by voucher to the 
Accounting Section for payment. Designations of Beneficiary for FEGLI, 
CSRS, FERS, and unpaid compensation are filed and checked by EBS.
    In 2004 OPM announced that there would be a FEGLI Open Season for 
employees to elect new or additional life insurance coverage. EBS 
drafted Open Season informational flyers and notified employees 
electronically and via mail outs. An innovative step taken with this 
mail out was to have FEGLI send direct notification to Senate 
employees, which provided more timely notice and saved mailing expenses 
to the Senate. Numerous employees were counseled and approximately 350 
Senate employees made FEGLI changes during the Open Season.
    In 2003 as part of our COOP goals, EBS worked with the Deputy for 
Benefits and Financial Services, the Senate Computer Center and other 
DO staff to outline the needs and parameters required for development 
and implementation of a document imaging system for use in 
electronically reproducing employee personnel folders. During 2004 EBS 
redesigned the file room to accommodate a new employee hired to assist 
with the document scanning as well as the document imaging hardware. In 
mid-2004 implementation of the document imaging system was achieved. 
This required extensive training and modification of many procedures 
and the forms-flow from EBS and Payroll to the file room as well as the 
flow of forms within the file room. Modification of procedures will 
continue as warranted. This system will allow computer-based access to 
new employee personnel folders and documents as well as the ability to 
access them from an off-site facility. To complete our COOP readiness 
with respect to employee personnel folder access, one future goal is to 
contract out the scanning of all ``prior'' employee personnel folder 
documents that are housed in the DO file room.
    Shortly before the onset of the FEHB Open Season, OPM announced 
that it would offer a new type of health plan to employees: High 
Deductible Health Plans, which incorporate a Health Savings Account 
(HSA) and a Health Reimbursement Arrangement (HRA). As these plans are 
vastly different than those previously offered in the FEHB program, EBS 
worked diligently to become educated in all aspects of these plans and 
to understand the similarities and differences between HSAs, FSAs and 
HRAs. Many employees were counseled on the aspects of these new plans.
    The annual FEHB Open Season was held and approximately 500 
employees changed plans. These changes were processed and reported to 
carriers in record time. This year we were again able to offer an 
exciting tool for Senate employees. The Checkbook on-line Guide to 
Health Plans was made available to research and compare FEHB plans. 
This tool will remain available to staff throughout the year. As 
awareness and understanding of this valuable tool has increased, 
feedback is positive. Once again, the Disbursing Office hosted an FEHB 
Open Season Health Fair, which was attended by about 700 employees and 
as an additional service, it was open to all other federal employees on 
the Hill, including House, Capitol Police, Architect of the Capitol and 
Senate Restaurant employees. In addition to having health plan 
representatives available to provide information and answer questions, 
representatives from FSA Feds and Long Term Care Insurance were in 
attendance as well.
    While retirement case processing was about average for the year, 
retirement planning and counseling was brisk in the second half of 2004 
due to the impending retirement of 8 Senators, and the dissolution of 
their staffs and the potential changes to committee staffs. This 
resulted in the counseling of hundreds of employees including extensive 
research and calculation of Statements of Tentative Retirement 
Computations. Approximately 95 retirement cases were processed 
(including 8 death cases).
    Seminars were held for outgoing Members' staffs, as well as 
committees facing potential reorganization. Information disseminated 
spanned retirement, Thrift Savings Plan, health and life insurance, and 
unemployment compensation. Due to the large post-election turnover, EBS 
also hosted a seminar with the D.C. Office of Employment Services for 
outgoing staff who wished to apply for unemployment compensation. This 
opportunity for staff was well received.
    There was a great deal of turnover and rehire in 2004, as employees 
left staff to work on campaigns and then returned to the Senate after 
the elections. This caused an increase in appointments to be researched 
and processed, retirement records to be closed out, termination 
packages of benefits information to be compiled and mailed out, and 
health insurance registrations to be processed. Transcripts of service 
for employees going to other federal agencies, and other tasks 
associated with employees changing jobs remained constant this year. 
These required prior employment research and verification, new FEHB, 
FEGLI, CSRS, FERS and TSP enrollments, and the associated requests for 
backup verification.
    The government-wide CLER program for health insurance enrollment 
reconciliation, now in its third year, has finally become a usable and 
effective tool. Through much diligence and effective problem solving, 
EBS was able to assist with the improvements to this program.
    EBS continues to upgrade the information available on the DO 
Webster site and has added more downloadable forms. Newer video 
technologies and links are routinely used. In addition, EBS has been 
developing many computer-based forms and calculators for use in 
providing benefits information and estimates.
    Two detailed Power Point retirement seminars on CSRS and FERS were 
updated and conducted for interested Senate staff. The seminars were 
well attended and well received.
    Additionally EBS staff regularly provided a panel participant for 
the monthly New Staff Orientation seminars and quarterly Senate 
Services Fairs held by the Office of Education and Training.
    Interagency meetings were attended with time being spent on the 
FEGLI Open Season, guidance on the new FEHB plans, as well as 
continuing education and guidance on the FSA
    Program, LTCI, and the continuing TSP program changes and 
enhancements.
    Based on the continued operations in Iraq and the call to active 
duty of military reservists, the volume of Senate employees being 
placed in a Military Leave Without Pay (LWOP) status and subsequently 
returned to pay status continued to be elevated throughout 2004. 
Counseling and administration of their retirement and benefits was 
handled by EBS.
    Telephone inquiries, though not specifically tracked, continued at 
high levels, with the EBS staff of 7 pressed to answer calls 
thoroughly, yet quickly enough to keep lines open.

Disbursing Office Financial Management
    Headed by the Deputy for Financial Management, the mission of 
Disbursing Office Financial Management (DOFM) is to coordinate all 
central financial policies, procedures, and activities to process and 
pay expense vouchers within reasonable time frames, to work toward 
producing an auditable consolidated financial statement for the Senate 
and to provide professional customer service, training and confidential 
financial guidance to all Senate accounting locations. In addition, the 
Financial Management group is responsible for the compilation of the 
annual operating budget of the United States Senate for presentation to 
the Committee on Appropriations as well as for the formulation, 
presentation and execution of the budget for the Senate. On a 
semiannual basis, this group is also responsible for the compilation, 
validation and completion of the Report of the Secretary of the Senate. 
DOFM is segmented into three functional departments: Accounting, 
Accounts Payable, and Budget. The Accounts Payable Department is 
subdivided into three sections: The Audit group, the Disbursement group 
and the Vendor/SAVI group. The Deputy coordinates the activities of all 
three departments, establishes central financial policies and 
procedures, acts as the primary liaison to the Human Resources 
Administrator, and carries out the directives of the Financial Clerk 
and the Secretary of the Senate.

            Accounting Department
    During fiscal year 2004, the Accounting Department approved nearly 
48,000 expense reimbursement vouchers, processed 1,300 deposits for 
items ranging from receipts received by the Senate operations, such as 
the Senate's Revolving Funds, to canceled subscription refunds from 
Member Offices. The number of vouchers that the Accounting Department 
approved decreased compared to fiscal year 2003, due to the Senate 
Committee on Rules and Administration increasing the sanctioning 
authority delegated to the Financial Clerk of the Senate from $35.00 or 
less to $100.00 or less. General ledger maintenance also prompted the 
entry of thousands of adjustment entries that include the entry of all 
appropriation and allowance funding limitation transactions, all 
accounting cycle closing entries, and all non-voucher reimbursement 
transactions such as payroll adjustments, COLA (cost of living) budget 
uploads, stop payment requests, travel advances and repayments, and 
limited payability reimbursements.
    This year the Accounting Department assisted in the validation of 
various system upgrades and modifications, including the testing 
required to implement Web Release 9.0 and the upgrade to a 64 bit 
mainframe operating system. During January 2004, the Accounting 
Department, with assistance from a contractor, Bearing Point, completed 
the 2003 year-end process to close and reset revenue, expense and 
budgetary general ledger accounts to zero. During June 2004, we 
successfully tested and implemented in Federal FAMIS another document 
purge including the archiving of Web report data for lapsed years. 
Further, toward the end of the fiscal year, the financial file rollover 
was performed to update FAMIS' tables and create the new index codes 
needed to accommodate data for fiscal year 2005. With the September 
2004 closing and as a result of looking into ways to modernize the 
monthly reporting of checks written by reel tape, the Accounting 
Department tested and implemented (with assistance from the SAA and 
Bearing Point) the electronic transmission of check data to Treasury 
via a secure dial-up.
    The Department of the Treasury's monthly financial reporting 
requirements includes a Statement of Accountability that details all 
increases and decreases to the accountability of the Secretary of the 
Senate, such as checks issued during the month and deposits received, 
as well as a detailed listing of cash on hand. Also, on a monthly 
basis, reported to the Department of the Treasury is the Statement of 
Transactions According to Appropriations, Fund and Receipt Accounts 
that summarizes all activity at the appropriation level of all monies 
disbursed by the Secretary of the Senate through the Financial Clerk of 
the Senate. All activity by appropriation account is reconciled with 
the Department of the Treasury on a monthly and annual basis. The 
annual reconciliation of the Treasury Combined Statement is also used 
in the reporting to the Office of Management and Budget (OMB) as part 
of the submission of the annual operating budget of the Senate.
    This year, the Accounting Department transmitted all Federal tax 
payments for Federal, Social Security, and Medicare taxes withheld from 
payroll expenditures, as well as the Senate's matching contribution for 
Social Security and Medicare to the Federal Reserve Bank. The 
Department also performed quarterly reporting to the Internal Revenue 
Service (IRS) and annual reporting and reconciliation to the IRS and 
the Social Security Administration. Payments for employee withholdings 
for state income taxes were reported and paid on a quarterly basis to 
each state with applicable state income taxes withheld. Monthly 
reconciliations were performed with the National Finance Center 
regarding the employee withholdings and agency matching contributions 
for the Thrift Savings Plan. Starting in August, the Accounting Group 
began transmitting electronically all employee withholdings and agency 
contributions for life and health insurance, and federal retirement 
programs to the Office of Personnel Management (OPM).
    In addition to Treasury's external reporting deadlines there are 
some internal reporting requirements such as the monthly ledger 
statements for all Member offices and all other offices with payroll 
and non-payroll expenditures. These ledger statements detail all of the 
financial activity for the appropriate accounting period with regard to 
official expenditures in detail and summary form. Monthly, it is the 
responsibility of the Accounting Department to review and verify the 
accuracy of the statements before Senate-wide distribution. During the 
course of this year, various table changes were made to the ledger 
extract to suppress lapsed fiscal years and appropriations that do not 
require the monthly reports.
    The Accounting Department, in conjunction with the Deputy for 
Financial Management, continues to work closely with the Sergeant at 
Arms Finance Department in completing the corrective actions that were 
identified during the pro-forma financial statements auditability 
assessment. Based on the results of this exercise, 23 corrective 
actions were suggested including an action plan and proposed schedule 
to have them corrected. Some of the actions were rather simple to 
implement while others will take significantly longer. Of the 23 
corrective actions noted, 14 have been completed and 9 are still in 
process. As part of this project, the Accounting Group continues to 
work with the SAA to complete the draft of the Senate-wide 
capitalization policy and is assisting with the reconciliation between 
FAMIS and the newly implemented asset management system, Asset Center. 
The Accounting Group also drafted and finalized state taxes, stop pays, 
EFT payments, vendor file and travel advance procedures and is in the 
process of updating various additional sections of the financial 
policies and procedures book.
    As part of the financial statement initiative, steps were taken 
this year to procure a software package to assist with the compilation 
of data and automate the process of preparing the Senate-wide financial 
statements. The financial statement software will facilitate the 
preparation of closing, elimination and reclassification entries as 
well as provide the appropriate audit trails. The software was up and 
running in March 2005. As part of this initiative, the Accounting Group 
drafted the first internally developed set of unaudited financial 
statements to be used as our baseline on the testing of the newly 
acquired software following the guidance provided by OMB Bulletin 01-
09, ``Form and Content of Agency Financial Statements.''
    On a consulting basis, the Deputy for Financial Management assisted 
the Senate Gift Shop on the implementation of their new accounting 
system and in the completion of their reconciliations for fiscal year 
2004. In addition, the Deputy was part of the task force to procure and 
acquire a new point-of-sale and accounting systems for the Senate 
Stationery Room.
    Toward the end of the calendar year, the Deputy for Financial 
Management also participated in successful disaster recovery testing at 
the ACF.

            Accounts Payable--Vendor/SAVI Section
    Created in the fall of 2003, the Vendor/SAVI section is responsible 
for maintaining the accuracy and integrity of the Senate's central 
vendor (payee) file, for the prompt completion of new vendor file 
requests, and service requests related to the DO's web-based payment 
tracking system known as SAVI. This section also assists the IT 
Department with periodic testing and monitoring of the performance of 
the SAVI system.
    Currently, there are more than 12,300 vendor records stored in the 
vendor file. Daily requests for new vendor addresses or updates to 
existing vendor information are processed within 24 hours of being 
received. In 2004, the A/P Department began paying vendors by 
electronic funds transfer (EFT). Besides updating mailing addresses, 
the Vendor/SAVI section facilitates the use of EFT by switching the 
method of payment requested by the vendor from check to EFT. Whenever a 
new remittance address is added to the vendor file, a standard letter 
is mailed to our vendors requesting tax and banking information. If a 
vendor responds to our letter and indicates they would like to receive 
EFT payments in the future, the method of payment will be changed. In 
August, this section coordinated a large mailing requesting EFT 
information from our home state office landlords and our largest 
commercial vendors. The mailing was a success. More than 40 percent of 
the targeted vendors responded to this mailing. Currently, more than 
650 vendors and over half of the home state office landlords are being 
paid by EFT.
    Service to Senate staff was significantly improved with the release 
of SAVI version 3.1 in late October. This version allows Senate staff 
to electronically create, save, and file expense reimbursement forms, 
track their progress, and get detailed information on payments made by 
DO. The most common service requests are requests for system user ids, 
system passwords and to reactivate accounts. Less common but more 
complicated are employee requests for an alternative expense payment 
method. An employee can choose to have their payroll set up for direct 
deposit but can have their vouchered expenses be reimbursed by paper 
check.
    The Vendor/SAVI section works closely with the A/P Disbursements 
group resolving returned EFT issues. EFT payments are returned 
periodically for a variety of reasons. The reasons given have included 
incorrect account numbers, incorrect ABA routing numbers, and, in rare 
instances, a nonparticipating financial institution. Most EFT return 
issues are easy to resolve; however, there are some instances that 
result with a vendor being converted back to paper check payments. 
Currently, there are no unresolved return EFT issues.
    The Vendor/SAVI section continues to electronically scan and store 
supporting documentation of vendor file requests. In the near future, 
this section will assist the IT Department test an automatic email 
notification system which will alert vendors when an EFT payment has 
been made and will give them information on the payment made.
    This year, the Vendor/SAVI section processed over 2,800 vendor file 
requests, completed nearly 1,300 SAVI service requests and mailed 
nearly 2,000 vendor information letters.

            Accounts Payable--Disbursements Department
    In 2004, well over 100,000 expense claims were received and 
processed by the department. More than 35,000 expense checks were 
written and approximately 50,000 direct deposit reimbursements were 
transmitted. The department performed at a high level to ensure that 
all vendors and employees continued to receive timely and accurate 
payments.
    After vouchers are paid, they are sorted and filed by document 
number. The number is an alpha-numeric code beginning with the letters 
D, PADV, V, IV, or CV and followed by numbers representing the fiscal 
year in which they were created, and another series of numbers 
representing, in ordinal sequence, the actual document number. Vouchers 
are grouped in 6-month ``clusters'' to accommodate their retrieval for 
the semi-annual Report of the Secretary of the Senate. Currently, files 
are maintained for the current period and three prior periods. Filing 
is current and accurate as few problems are encountered retrieving 
documents.
    A major function of the Department is to prepare documents, 
internally classified as ``adjustments.'' Such adjustments are varied 
and include the following: preparation of Foreign Travel advances and 
vouchers, reimbursements for expenses incurred by Senate Leadership, 
reissuance of items held as accounts receivable collections, reissuance 
of payments for which non-receipt is claimed, and various supplemental 
adjustments received from the Payroll Department. Such adjustments are 
usually disbursed by check, but an increasing number are now handled 
electronically via the Automated Clearing House (ACH).
    The Disbursements Department is also responsible for researching 
returned checks as vendors request additional information relating to 
payment allocation. Fortunately, few checks are returned. This is a 
result of the use of a centralized vendor file and accurate 
certification of payments. There are currently no unresolved returned 
check issues.
    The Accounts Payable Disbursements Department prepares for the 
distribution of the monthly ledgers to the 140 accounting locations 
throughout the Senate. At month's end, they are printed and delivered 
to Disbursing, usually to the attention of the Accounting Department, 
and received in Disbursements. The statements are sorted and 
disseminated according to special handling instructions from the 
office. Offices expressing no preference have their statements sent to 
their respective offices marked ``Personal and Confidential.'' The main 
objective of this process is to have each office receive their ledger 
statements for the month just ended by the 10th of the following month.
    A/P Disbursements also prepares the quarterly state tax returns. 
The dollar amounts are provided by the Accounting Department, and 
payment coupons are prepared for the 43 state jurisdictions. The 
coupons are obtained from each jurisdiction either in hard copy or on-
line via the Internet. Vouchers are prepared electronically via an 
uploaded spreadsheet, which is used to generate check payments to the 
taxing authorities. Once the checks are written, letters of transmittal 
are prepared and mailed to the appropriate state jurisdictions and the 
District of Columbia.
    The Department also prepares the forms required by the Department 
of Treasury for stop payments. Stop payments are requested by employees 
who have not received salary or expense reimbursements, and vendors 
claiming non-receipt of expense checks. During this year, the A/P 
Disbursement Supervisor and the Accounts Payable Manager continued 
using the Department of Treasury--Financial Management Service (FMS) 
on-line stop pay and check retrieval process known as PACER. The PACER 
system allows us to electronically submit stop-payment requests and 
provides on-line access to digital images of negotiated checks for 
viewing and printing. Once a check is viewed, it is printed and may be 
scanned. Scanned images are then forwarded to the appropriate 
accounting locations via email. This process has been well received by 
Senate offices as well as vendors. This saves time and significantly 
reduces reliance on the Postal System. All Accounts Payable 
Disbursements staff have Treasury secure ID cards and are trained in 
the use of PACER. Given the time and money savings, as well as the 
overwhelmingly positive reception, large growth in the use of PACER for 
check retrieval purposes is anticipated.
    In October of 2004, the Accounts Payable Disbursements department 
began using laser checks. The tractor fed check writer system has been 
dismantled and a new, improved system was developed and implemented. 
The replacement was comprehensive in scope as new software, hardware, 
and new Treasury designed laser checks were introduced. The result is a 
user friendly, and more secure system. Accuracy has also improved as 
the new laser check printer font is much clearer than one from the old 
printer. This resulted in an immediate reduction in returned checks 
from the United States Postal System. It is anticipated that a new 
folder/inserter designed for our use will be purchased to eliminate 
manual hours spent on folding and hand stuffing checks into envelopes. 
Testing and demonstrations continue in efforts to find a machine which 
is both economical and efficient.
    A major project which has seen tremendous progress this year is the 
reconciliation of the replacement check account. A team was formed 
consisting of the Deputy for Financial Management, Accounts Payable 
Manager, Chief Accountant, Accounts Payable Disbursements Supervisor 
and Staff Accountants. There were over 250 unresolved items covering a 
variety of issues. Persistent and determined revenue collection 
procedures have resulted in the reduction of the unresolved items and 
fewer than 20 remain outstanding.
    The warehousing of documents has improved, and continues to evolve. 
Vouchers were housed at two facilities, but now all have been 
transferred to a single location. This location is larger, but there is 
need for expansion. Meetings with the Sergeant at Arms and consultants 
continue in an effort to provide state-of the-art warehousing. Plans 
call for current space requirements, anticipated space requirements, 
and the need for ``staging'' areas, telephone, copier, and fax access, 
climate control, and security.

            Accounts Payable--Audit Department
    The final section under the Accounts Payable Department is the 
Audit Section. The Accounts Payable Audit Section is responsible for 
auditing vouchers and answering questions regarding voucher preparation 
and the permissibility of expenses. This section provides advice and 
recommendations on the discretionary use of funds to the various 
accounting locations, identifies duplicate payments submitted by 
offices, monitors payments related to contracts, trains new Office 
Managers and Chief Clerks about Senate financial practices, trains 
Office Managers in the use of the Senate's Financial Management 
Information System, and assists in the production of the Report of the 
Secretary of the Senate. The Section also monitors the Fund Advance 
Tracking System (FATS) to ensure that advances are charged correctly, 
vouchers repaying such advances are entered, and balances are adjusted 
for reuse of the advance funds. An ``aging'' process is also performed 
to ensure that advances are repaid in the time specified by the advance 
travel regulations.
    The Accounts Payable Audit Section, currently a group of 12, has 
the responsibility for the daily processing of expense claims submitted 
by the 140 accounting locations of the Senate. The section processed 
approximately 133,000 expense vouchers in fiscal year 2004. The voucher 
processing ranged in scope from providing interpretation of Senate 
rules, regulations and statute, applying the same to expense claims, 
monitoring of contracts and direct involvement with the Senate's 
central vendor file. On average, vouchers greater than $100.00 that do 
not have any issues or questions are received, audited, sanctioned by 
Rules and paid by DO within 10 business days of receipt.
    During fiscal year 2004, the Chairman of the Committee on Rules and 
Administration increased the delegated sanctioning authority for 
vouchers from $35.00 or less to $100.00 or less. The workload within 
this group increased by almost 50 percent with the responsibility to 
sanction vouchers whose totals are less than or equal to $100.00. These 
vouchers comprise approximately 60 percent of all vouchers processed. 
The responsibility for sanctioning rests with the Certifying Accounts 
Payable Specialists and are being received, audited, and paid within 5 
business days of receipt. The increase in sanctioning authority came as 
a direct result of passing two post-payment audits performed by the 
Rules Committee.
    Additionally, advance documents and non-Contingent Fund vouchers 
are now posted in Audit. The increase in sanctioning responsibilities 
allowed for two staff promotions to Certifying Accounts Payable 
Specialist and for the creation of one additional A/P Specialist 
position. One staff member was promoted from the Disbursements section 
to the Audit section to fill this newly created position.
    The reduced flow of vouchers to the Rules Committee also brought 
that committee into the on-line sanctioning process. Initially, four 
Senators' offices and the Committees comprised the pilot group. 
Currently, all vouchers over $100.00 are sanctioned electronically by 
the Rules Committee using Web FAMIS.
    The Accounts Payable Audit Group provided training sessions in the 
use of new systems, the process for generation of expense claims, the 
permissibility of an expense, and participated with seminars sponsored 
by the Secretary of the Senate, the Sergeant at Arms, and the Library 
of Congress. The Section trained 15 new Administrative Managers and 
Chief Clerks and conducted 4 informational sessions for Senate staff 
through seminars sponsored by the Congressional Research Service (CRS).
    The Accounts Payable group also assisted the IT department and 
Vendor/SAVI group in the testing and implementation of the new on-line 
travel and non-travel expense summary reports (ESR). The new reports 
are not only available on-line, but they can be imported into a 
corresponding Web FMIS voucher, thus facilitating the preparation and 
accuracy of the voucher document. Routinely, during voucher processing, 
vendor information is verified against invoices, and corrections made 
as needed. The Audit Group has been fully trained in the new travel 
advance system and in the use of the four new WEB inquiries to assist 
offices with questions. Additionally the section provided testing 
support for the release of Web FMIS version 9 and is scheduled to 
assist in the testing of Version 10 this year.
    A cancellation process was established for advances in 2004. This 
was necessary to ensure repayment of advances systematically for 
canceled or postponed travel in accordance with Senate Travel 
Regulations. Advance procedures including cancellation were formally 
incorporated into the Policies and Procedures Manual. Cancellation 
procedures for other Web vouchers is scheduled for testing during a 
later system release. The A/P sections within the Policies and 
Procedures Manual are in the process of being updated and revised.

            Budget Department
    The third component of the Disbursing Office Financial Management 
Group is the Budget Department. The primary responsibility of the 
Budget Department is to compile the annual operating budget of the 
United States Senate for presentation to the Committee on 
Appropriations. The Budget Department is responsible for the 
preparation, issuance and distribution of the budget justification 
worksheets (BJW). In fiscal year 2004, the budget justification 
worksheets were mailed to the Senate accounting locations at the end of 
November, processed in December and reported the budget baseline 
estimates for fiscal year 2006 to OMB by mid-January, via the MAX 
database.
    This department is also responsible for the formulation, 
presentation and execution of the budget for the Senate and provides a 
wide range of analytical, technical and advisory functions related to 
the budget process. The Budget Department acts as the Budget Officer 
for the Office of the Secretary, assisting in the preparation of 
testimony for the hearings before the Committee on Appropriations and 
the Committee on Rules and Administration.
    During January, the Senate Budget Analyst is responsible for the 
preparation of 1099's and the prompt submission of forms to the IRS 
before the end of the month.

                DISBURSING OFFICE INFORMATION TECHNOLOGY

Financial Management Information System
    The Disbursing Office Information Technology (IT) Department, 
provides both functional and technical assistance for all Senate 
Financial Management activities. Activities revolve around support of 
the Senate's Financial Information System (FMIS) which is used by 
approximately 140 Senate accounting locations (i.e., 100 Senator's 
offices, 20 Committees, 20 Leadership & Support offices, the Rules 
Committee Audit section, and the Disbursing Office). Responsibilities 
include: Supporting current systems; testing infrastructure changes; 
managing and testing new system development; planning; managing the 
FMIS project, including contract management; administering the 
Disbursing Office's Local Area Network (LAN); and coordinating the 
Disbursing Office's Disaster Recovery activities.
    The activities associated with each of these responsibilities are 
described in more detail in the sections that follow. Work during 2004 
was supported by the Sergeant at Arms (SAA) Technology Services staff, 
the Secretary's Information Technology staff, and contracts with 
Bearing Point.
    The SAA Technology Services staff is responsible for providing the 
technical infrastructure, including hardware (mainframe and servers), 
operating system software (mainframe and servers), database software, 
and telecommunications; technical assistance for these components, 
including migration management, database administration and regular 
batch processing. Bearing Point is responsible, under the contract with 
the SAA, for operational support, and under contract with the 
Secretary, for application development. The DO is the ``business 
owner'' of FMIS and is responsible for making the functional decisions 
about FMIS. The three organizations work cooperatively.
    Highlights of the year include:
  --Implementation of three releases of Web FMIS including pilot 
        implementation of an intranet-based version;
  --Implementation of two releases of SAVI, including a release that 
        allows users to create Non-travel Expense Summary Reports in 
        addition to Travel Expense Summary Reports;
  --Implementation of laser check printing which substantially improves 
        the readability of checks by the postal service and banks;
  --Support of the Rules Committee's post payment audit for the Rules 
        Committee Audit staff whereby they can do a statistically valid 
        sample of vouchers of $100.00 and under (an increase from 
        $35.00 effective January 1, 2004) for which sanctioning was 
        delegated to the Financial Clerk;
  --Roll out of direct deposit payments to external vendors;
  --Coordinating and participating in the FMIS portion of a disaster 
        recovery exercise for the Alternate Computing Facility; and
  --Conducting monthly classes, seminars, and demonstrations on Web 
        FMIS.
    FMIS is not a single computer system. It is composed of many 
subsystems that provide Senate-specific functionality. These subsystems 
are outlined in the table that follows.

                                                     SENATE FINANCIAL MANAGEMENT INFORMATION SYSTEM
--------------------------------------------------------------------------------------------------------------------------------------------------------
          Subsystem                          Functionality                             Source                      Primary Users         Implementation
--------------------------------------------------------------------------------------------------------------------------------------------------------
FAMIS (Mainframe)............  Financial general ledger................  Off the shelf federal system       Disbursing Office.........  October 1998
                               Vendor file                                purchased from Bearing Point.
                               Administrative functions
                               Security functions
ADPICS (Mainframe)...........  Preparation of requisition, purchase      Off the shelf federal system       Sergeant at Arms..........  October 1998
                                order, voucher from purchase order, and   purchased from Bearing Point.     Disbursing Office.........
                                direct voucher documents.                                                   Secretary of the Senate...
                               Electronic document review functions
                               Administrative functions
Checkwriter (Client-server)..  Prints checks and check registers as      Off the shelf state government     Disbursing Office.........  October 1998
                                well as ACH (Automated Clearing House)    system purchased from and
                                direct deposit payments.                  adapted to Senate's requirements
                                                                          by Bearing Point.
Web FMIS (Client-server and    Preparation of vouchers, travel           Custom software developed under    All Senators' offices.....  October 1999
 intranet).                     advances, vouchers from advance           Senate contract by Bearing Point. All Committee offices.....
                                documents, credit documents and simple                                      All Leadership & Support
                                commitment and obligation documents.                                         offices.
                               Entry of detailed budget                                                     Secretary of the Senate...
                               Reporting functions (described below)                                        Sergeant at Arms..........
                               Electronic document submission and                                           Disbursing Office.........
                                review functions.
                               Administrative functions
FATS (PC-based)..............  Tracks travel advances and petty cash     Developed by SAA Technology        Disbursing Office.........  Spring 1983
                                advances (available to Committees only).  Services.
                               Tracks election cycle information
Post Payment Voucher Audit     Selects a random sample of vouchers for   Excel spreadsheet developed by     Rules Committee...........  Spring 2003
 (PC-based).                    which sanctioning was delegated to the    Bearing Point.                    Disbursing Office.........
                                Financial Clerk for the Rules Committee
                                to use in conducting a post payment
                                audit.
SAVI (Intranet)..............  As currently implemented, provides self-  Off the shelf system purchased     Senate employees..........  Pilot--Spring
                                service access (via the Senate's          from Bearing Point.                                            2002
                                intranet) to payment information for                                                                    Senate-wide--
                                employees receiving reimbursements.                                                                      July 2002
                               Administrative functions
Online ESR (Intranet)........  A component of SAVI through which Senate  Custom software developed under    Senate employees..........  April 2003
                                employees can create on-line Travel/Non-  contract by Bearing Point.
                                Travel Expense Summary Reports and
                                submit them electronically to their
                                Office Manager/Chief Clerk for
                                processing.
Secretary's Report (Mainframe  Produces the Report of the Secretary of   Custom software developed under    Disbursing Office.........  Spring 1999
 extracts, crystal reports,     the Senate.                               contract by Bearing Point.
 and client-server ``tool
 box'').
Ledger Statements (Mainframe   Produces monthly reports from FAMIS that  Developed by SAA Technology        Disbursing Office Senate    Winter 1999
 database extracts, and         are sent to all Senate ``accounting       Services.                          Accounting Locations.
 crystal reports).              locations''.
Web FMIS Reports (mainframe    Produces a large number of reports from   Custom software developed under    Senate Accounting           October 1999
 database extracts, crystal     Web FMIS, FAMIS and ADPICS data at        contract by Bearing Point.         Locations.
 reports, client server, and    summary and detailed levels. Data is
 Intranet).                     updated as an overnight process and can
                                be updated through an on-line process
                                by accounting locations.
--------------------------------------------------------------------------------------------------------------------------------------------------------

Supporting Current Systems
    The IT section supports FMIS users in all 140 accounting locations, 
the Disbursing Office Accounts Payable, Accounting, Disbursements and 
Front Office Sections, and the Rules Committee Audit staff. The 
activities associated with this responsibility include:
  --User support--provide functional and technical support to all 
        Senate FMIS users; staff the FMIS ``help desk''; answer 
        hundreds of phone calls a year; and meet with Chiefs of Staff, 
        Administrative Managers, Chief Clerks, and Directors of various 
        Senate offices as requested;
  --Technical problem resolution--ensure that technical problems are 
        resolved;
  --Monitor system performance--check system availability and 
        statistics to identify system problems and coordinate 
        performance tuning activities for parallel load and database 
        access optimization;
  --Security--maintaining user rights for all ADPICS, FAMIS, SAVI, and 
        Web FMIS users;
  --System administration--design, test and make entries to tables that 
        are intrinsic to the system;
  --Support of Accounting Activities--provide assistance in the cyclic 
        accounting system activities;
  --Support the Rules Committee post payment voucher audit process; and
  --Training--provide functional training to all Senate FMIS users.
    Of these, the post payment voucher audit deserves recognition. In 
December of 2002, the Rules Committee delegated to the Financial Clerk 
the authority for sanctioning vouchers of $35 and less; effective 
January 1, 2004 this threshold increased to $100.00. The authorization 
directed Rules and DO to establish a set of procedures for a semi-
annual audit of these vouchers. The two offices agreed that Rules would 
conduct a random sampling inspection of these vouchers based on 
industry statistical standards. Under the supervision of the IT Group, 
Bearing Point created tools to determine the sample size, to enable 
selecting the sample from the universe of vouchers of $100 and less, 
and to determine the acceptable number of discrepancies given the 
sample size and the desired confidence interval. Both audits conducted 
in 2004 resulted in a favorable finding of zero discrepancies. The 
audit conducted in April 2004 for the six-month period ending March 31, 
2004, covered 18,368 vouchers and the audit conducted in November 2004 
for the six-month period ending September 30, 2004, covered 25,853 
vouchers.

Testing Infrastructure Changes
    The SAA provides the infrastructure on which FMIS operates, 
including the mainframe, the database, security hardware and software, 
the telecommunications network, and a hardware and software 
installation crew and help-desk provider. During 2004 there was an 
upgrade of the mainframe operating system (OS390) in preparation for 
the implementation of the Z/OS operating system. This required that the 
Disbursing Office test all FMIS subsystems both in a testing 
environment and in the production environment.

Managing and Testing New System Development
    During 2004, development and extensive integration system testing 
was performed and implemented with changes to the following FMIS 
subsystems: Web FMIS; Senate Vendor Information (SAVI) and Online ESR; 
and Checkwriter.

            Web FMIS
    The goal for 2004 was to update and simplify the underlying 
technology of Web FMIS, basically replacing all Visual Basic Client/
Server and Cold Fusion Web technology with WebSphere web pages thereby 
creating a ``thin client'' application that can be accessed via an 
intranet browser. The Web FMIS Users Group worked closely with the team 
to rethink processes and redesign Web FMIS screens to maximize ease-of-
use. The transition included four releases of Web FMIS during 2004:
  --Web FMIS r8.0.--Implemented in March 2004, focused on the list 
        maintenance functions, and conducted a pilot of a new version 
        of the report generation software, Crystal Reports version 9;
  --Web FMIS r8.1.--Implemented in June 2004, upgraded the version of 
        the report generation software for all users, and concurrently 
        addressed obtaining reports from ``archived years'' (i.e., 
        fiscal year 1999 and 2000), the data for which was archived 
        from FAMIS. In addition, a ``report favorites'' function was 
        added;
  --Web FMIS r9.0.--Implemented for pilot offices in August 2004, was a 
        complete re-writing of the functions most used by offices, 
        Document Entry and Budget Entry. In addition, it allows the 
        start date to determine the funding year (thus eliminating the 
        need to select a funding year from which to pay a bill), added 
        the ability to import Non-travel Expense Summary Reports, and 
        revamps the user security function to be based on ``roles'' 
        which provide the Web FMIS system administrators more 
        flexibility in providing (or not providing) specific user 
        functionality.
  --Web FMIS r9.1.--Implemented for pilot offices in November 2004, 
        made system changes based on the pilot offices' use of Web FMIS 
        r9.
    At the end of 2004, testing was conducted on Web FMIS r10, which 
reduces the files required on the PC for printing reports, adds new 
reports for committees that show expenses in the format required for 
their biannual budget justification, rewrites the DO functions as 
WebSphere web pages and provides additional DO functions such as an 
online deposit (CD) log, standard text for notes, and additional 
inquiries. Web FMIS r9.1 will be given to all new 109th Congress 
offices and to all new office managers from existing offices. All other 
offices will be transferred to the WebSphere version of Web FMIS when 
Web FMIS r10 is implemented.
    During 2004 work was conducted with Bearing Point to define the 
requirements for adding electronic signature and documentation imaging 
functionality, two key components for paperless voucher processing. 
Additionally, appropriate technology is being explored to provide these 
functions.

            Senate Automated Vendor Inquiry (SAVI) and Online ESR
    SAVI enables Senate staff to check the status of reimbursements, 
whether via check or direct deposit and whether or not referencing an 
on-line ESR. The on-line ESR function enables Senate staff to create 
expense summary reports. These documents can be imported into Web FMIS, 
reducing the data entry tasks for voucher preparation. The SAVI system 
was upgraded three times in 2004. Release 2.2, implemented in March 
2004, completed several security enhancements. Release 3.0, implemented 
for pilot offices in June 2004 and 3.1 implemented for all offices in 
October 2004, allow users to prepare and submit Non-travel Expense 
Summary Reports and to define their own logon ID.

            Checkwriter
    The Disbursing Office makes payments via direct deposit and via 
check.
  --Direct Deposit.--In 2002 the Disbursing Office began making expense 
        reimbursements to Senate staff via direct deposit. In 2003 this 
        was expanded to include external vendors. The initial pilot 
        vendors provided materials to the Keeper of Stationery; and our 
        first payments to them were transmitted on June 3, 2003. After 
        a very successful initial pilot, the program was expanded 
        larger-volume vendors, such as FedEx. During 2004, direct 
        deposit was rolled out to all vendors.
  --Laser Checks.--In 2004 the printing of checks was switched from a 
        continuous-feed impact printer to a laser printer when 
        checkwriter version 5 was implemented in March 2004. The laser 
        version provides more flexibility for continuance of operations 
        by eliminating dependence on a harder-to-find printer. It also 
        produces a higher print quality, which will help the Postal 
        Service in the delivery of checks and will prevent checks from 
        being negotiated for an unintended dollar amount. Use of the 
        laser check printer required that Treasury create a 8.5 0A 10 
        inches check and stub form. A folder-inserter machine was used 
        for these checks, but the checks are incompatible with the 
        machine. During 2005, work continues to identify a machine that 
        will accept this heavy-grade check paper.

            Planning
    There are two main planning activities:
  --Schedule coordination--planning and coordinating a rolling 12-month 
        schedule; and
  --Strategic planning--setting the priorities for further system 
        enhancements.

            Schedule Coordination
    In 2004, two types of meetings were held among the DO, SAA and 
Bearing Point to co-ordinate schedules and activities:
  --Project specific meetings--a useful set of project specific working 
        meetings, each of which has a weekly set meeting time and meets 
        for the duration of the project (e.g., Document Purge meetings 
        and Web FMIS requirements meetings); and
  --Technical meeting--a weekly meeting among the DO staff (IT and 
        functional), SAA Technical Services staff, and Bearing Point to 
        discuss coordination among the active projects, including 
        scheduling activities and resolving issues.

            Strategic Planning
    The FMIS strategic plan has a longer time horizon than the rolling 
12-month time frame of the technical meeting schedule. It is designed 
to set the direction and priorities for further enhancements. In 2002 a 
five-year strategic plan was written by the IT and Accounting staff for 
Disbursing Office Strategic Initiatives. This detailed description of 
five strategic initiatives formed the basis for the Secretary of the 
Senate's request for $5 million in multi-year funds for further work on 
the FMIS project. The five strategic initiatives are:
  --Paperless Vouchers--Imaging of Supporting Documentation and 
        Electronic Signatures.--Beginning with a feasibility study and 
        a pilot, implement new technology, including imaging and 
        electronic signatures, that will reduce the Senate's dependence 
        on paper vouchers. This will enable continuation of voucher 
        processing operations from any location, should an emergency 
        occur;
  --Web FMIS.--Requests from Accounting Locations--Respond to requests 
        from the Senate's Accounting Locations for additional 
        functionality in Web FMIS;
  --Payroll System.--Requests from Accounting Locations--Respond to 
        requests from the Senate's Accounting Locations for on-line 
        real time access to payroll data;
  --Accounting Sub-system Integration.--Integrate Senate-specific 
        accounting systems, improve internal controls, and eliminate 
        errors caused by re-keying of data; and
  --CFO Financial Statement Development.--Provide the Senate with the 
        capacity to produce auditable financial statements that will 
        obtain an unqualified opinion.

Managing the FMIS Project
    The responsibility for managing the FMIS project was transferred to 
the IT group during the summer of 2003 and includes developing the task 
orders with contractors and overseeing their work. In 2004, three new 
task orders were executed: Web FMIS r10; Fiscal Year 2004 Extended 
Operational Support (September 2004-August 2005); and SAA Finance 
System and Reporting Enhancements.
    In addition, work continued under two task orders executed in 2003: 
Web FMIS Thin Client; and Web FMIS Imaging and Digital Signature Design 
and Electronic Invoicing and Remittance Enhancements.

Administering the Disbursing Office's Local Area Network (LAN)
    The DO administers its own Local Area Network (LAN), which is 
separate from the LAN for the rest of the Secretary's Office. Our LAN 
Administrator's activities included: Office-wide LAN Maintenance and 
Upgrade; Projects for the Accounting Section; and Projects for the 
Payroll and Benefits Section.

            Office-wide LAN maintenance and upgrade
    Existing workstations were maintained with appropriate upgrades 
including:
  --Configured and installed a new Windows 2000 server and transferred 
        all critical DO data to this server;
  --Implemented an automatic update for the virus scanning software on 
        each PC in the DO;
  --Selected and supervised installation of new printers for DO staff 
        and placed multi-purpose printer/scanner/copier machines in 
        strategic locations;
  --Installed new stand-alone PCs for communication with the Federal 
        Reserve's Fedline system in the DO and at the Alternate 
        Computing Facility; and
  --Maintained the Office Information Authorization form log which 
        provides easy access from DO staff desktops to up-to-date 
        information about the authorized contacts for each Senate 
        office.

            Projects for the Accounting Sections
    The activities of the Accounting Section were supported with the 
implementation of a direct connection to the Treasury Department. This 
eliminated creating and delivering a monthly magnetic tape.

            Projects for Payroll and Employee Benefits Sections
    Activities of the Payroll and Employee Benefits sections were 
supported with three specific projects:
  --Implemented a Payroll Imaging system, developed by SAA staff. This 
        system captures payroll documents turned in at the DO front 
        counter electronically;
  --Assisted Benefits staff on transferring data electronically to 
        other agencies; and
  --Training Payroll and Benefits staff on creating fillable PDF forms.

Coordinating the Disbursing Office's Disaster Recovery Activities
    During 2004, the Sergeant at Arms' office completed the build out 
of the Alternative Computing Facility. In December 2004, a two-day test 
was performed to operate FMIS subsystems from this location. The tests 
of all mainframe systems (i.e., payroll, ADPICS and FAMIS) were 
successful and payroll and voucher payments were made via direct 
deposit and check. Additionally, documents were created, posted, and 
printed via Web FMIS and ADPICS. Document printing has always presented 
problems during past tests; however, system configuration at the ACF 
has resolved this problem. The next test is planned for May 2005, when 
additional FMIS sub-systems will be tested.

            Disbursing Office COOP Activities
    The DO staff wrote a Continuity of Operations Plan (COOP) in 2001. 
This document addresses issues beyond the scope of disaster recovery. 
Normal maintenance is performed on this document to ensure that it 
remains up-to-date and viable. In addition to the success of the 
disaster recovery testing in December, the DO's most significant COOP 
related activity was the setup and pre-positioning of essential 
equipment and supplies in the dedicated space at the ACF. This 
accomplishment significantly improves the DO's ability to quickly 
respond to and complete its core responsibilities.

                         ADMINISTRATIVE OFFICES

                    1. CONSERVATION AND PRESERVATION

    The Office of Conservation and Preservation develops and 
coordinates programs directly related to the conservation and 
preservation of Senate records and materials for which the Secretary of 
the Senate has statutory authority. This office's initiatives include 
deacidification of paper and prints, phased conservation for books and 
documents, collection surveys, exhibits, and matting and framing for 
the Senate leadership.
    Over the past year the Office of Conservation and Preservation has 
embossed 275 books and matted and framed 525 items for the Senate 
leadership. The office is especially proud to be a part of a Senate 
tradition. For more than 23 years, the office has bound a copy of 
Washington's Farewell Address for the annual Washington's Farewell 
Address ceremony. In 2004, a volume was bound for and read by Senator 
John Breaux.
    As mandated in the 1990 Senate Library Collection Condition Survey, 
the Office of Conservation and Preservation continued to conduct an 
annual treatment of books identified by the survey as needing 
conservation or repair. In 2003, conservation treatments were completed 
for 65 volumes of a 7,000 volume collection of House Hearings. 
Specifically, treatment involved recasing each volume as required, 
using alkaline end sheets, replacing acidic tab sheets with alkaline 
paper, cleaning the cloth cases, and replacing black spine title labels 
of each volume as necessary. The Office of Conservation and 
Preservation will continue preservation of the remaining 4,100 volumes.
    This office assisted the Senate Library with 531 books sent to the 
Library Binding section of the Government Printing Office (GPO) for 
binding and with five exhibits located in the Senate Russell building 
basement corridor. The Office of Conservation and Preservation also 
assisted the Senate Curator's staff with special matting & framing 
required for the World War II exhibit located on the first floor of the 
Capitol.
    This office continues to assist Senate offices with conservation 
and preservation of documents, books, and various other items. For 
example, the office is currently monitoring the temperature and 
humidity in the Senate Library storage areas, the vault and warehouse 
for preservation and conservation purposes

                               2. CURATOR

    The Office of Senate Curator, on behalf of the Senate Commission on 
Art (``Commission''), develops and implements the museum and 
preservation programs for the United States Senate. The Office 
collects, preserves, and interprets the Senate's fine and decorative 
arts, historic objects, and specific architectural features; and 
exercises supervisory responsibility for the chambers in the Capitol 
under the jurisdiction of the Commission. Through exhibitions, 
publications, and other programs, the Office educates the public about 
the Senate and its collections.
Collections: Commissions, Acquisitions, and Management
    Portraits of Senators Arthur Vandenberg of Michigan and Robert 
Wagner of New York were officially unveiled on September 14, 2004 in 
the Senate Reception Room. The new paintings join portraits of the 
``Famous Five'' Senators commissioned for the room and installed in 
1959.
    The painting of Senator George Mitchell for the Senate Leadership 
Portrait Collection was completed and approved by the Commission on 
Art, and the portrait of Senator Margaret Chase Smith is in its final 
stage. Both will be unveiled in 2005. Another important commissioned 
work in progress is a portrait of Senator Bob Dole.
    S. Res. 177 directed the Commission to commission a mural 
commemorating the Connecticut Compromise. The Rules Committee directed 
that the mural be added to the Senate Reception Room, and the 
Commission empaneled an advisory board of experts in the field to 
select and recommend an appropriate scene and three potential artists. 
These artists developed proposals, and the advisory board reviewed 
these sketches and have recommended a final candidate to the Commission 
for consideration.
    Fourteen objects were accessioned into the Senate Collection, 
including a Senate Reception Room chair from the 1860's (private 
donation); a reproduction Senate Chamber desk used on the set of the 
movie ``Mr. Smith Goes to Washington and'' ``Advise and Consent'' (gift 
of the U.S. Capitol Historical Society); an 1870's cabinet card album 
attributed to the Mathew Brady studio (private donation); and several 
historic prints and political cartoons.
    At the direction of the Commission, the Curator's Office 
facilitated the acquisition of a Cornelius & Baker armorial chandelier 
owned by Tudor Place in Washington, D.C. The purchase of this rare 
historic fixture, which is similar to one that hung in the second floor 
corridor of the Senate wing, is an important addition to the Capitol's 
decorative and lighting history.
    Twenty-four new foreign gifts were reported to the Select Committee 
on Ethics and transferred to the Curator's Office. They were 
catalogued, and are maintained by the office in accordance with the 
Foreign Gifts and Decorations Act. Appropriate disposition of 12 
objects in the collection was completed following established 
procedures.
    As construction continued on the Capitol Visitor Center (CVC), the 
office worked with the Architect of the Capitol's CVC staff to plan the 
two storage rooms designated for Senate Collection objects, to ensure 
the highest level of preservation standards. A conservator specializing 
in museum facility planning reviewed the design drawings and provided 
recommendations, including outfitting the storage spaces. A detailed 
survey of the entire collection was completed, and the findings will be 
incorporated into a Collection Storage Plan.
    An off-site collection storage facility, made available for use 
through a lease arranged by the Senate Sergeant at Arms (SAA) in 2003, 
continued to provide much needed secure, climate controlled, museum 
quality storage for objects in the Senate Collection. An additional 18 
objects were transferred to the storage facility.
    The office has worked for several years with the SAA regarding 
plans for the construction of a warehouse space to meet the stringent 
requirements for storing fine and decorative art. In 2004 
specifications developed by the office were used by the SAA to create 
plans and begin construction on such a space, in association with the 
larger effort to build a new Senate warehouse.
    The Curator's Office initiated a comprehensive project to 
photograph the 102 historic Senate Chamber desks (which includes the 
100 on the Senate floor and two desks currently in storage). One set of 
transparencies will be stored off-site for emergency purposes, while a 
second working set will be used for the web, image requests, and future 
publications. Twenty desks were photographed in 2004; the project is 
scheduled to be completed in December 2007.
    In keeping with established procedures, all Senate Collection 
objects on display were inventoried noting any changes in location. As 
directed by S. Res. 178, the office submitted inventories of the art 
and historic furnishings in the Senate to the Rules Committee. The 
inventories, submitted every six months, are compiled by the Curator's 
Office with assistance from the SAA and the AOC's Senate 
Superintendent's office.

Conservation and Restoration
    A total of 24 objects received conservation treatment in 2004. 
These included 15 Senate Chamber desks, two large sculptures, three 
plaster reliefs, three oil on canvas paintings, and one manuscript 
collection.
    The initiative to conserve the 100 historic Senate Chamber desks 
began in 1999. Twice a year, during Senate recess periods, desks are 
removed from the Senate Chamber and sent out for restoration. Treatment 
is extensive, and follows a detailed protocol developed to address the 
wear and degradation of these historic desks due to continued heavy 
use. To date, 91 desks have been restored and the project is on track 
to be completed in 2005. A condition survey completed in 2003 stressed 
the necessity of installing rubber bumpers to the arms of the Senate 
Chamber chairs to protect the front of the desks from continued damage. 
Seventy-eight chairs are now modified with bumpers.
    Due to numerous construction projects in the Capitol, several works 
of art were relocated. The large sculpture, Justice and History, 
displayed in the Senate subway terminal, was moved in 2003 due to CVC 
construction. Work entailed separating the large sections of marble 
that comprise the sculpture and moving each half individually. 
Arrangements were made during January 2004 to restore the plaster 
surface by repairing the seam between the two halves and treating other 
minor damage and stains to the plaster coat. The conservator also 
performed treatment and cleaning on three plaster relief sculptures 
located nearby.
    In May 2004, the portrait, George Washington (Patriae Pater), and 
the sculpture, Eagle and Shield, were removed from display in the Old 
Senate Chamber to protect them from possible damage during construction 
on the roof above. A fine art handling company deinstalled and crated 
the art works. The office took the opportunity to have conservators 
assess the condition of the pieces and perform surface cleaning. The 
conservators also collected samples from the surface of the Eagle and 
Shield to document the historic finishes. Analysis of the samples will 
provide invaluable information to guide future restoration decisions.
    The Isaac Bassett Manuscript Collection will be microfilmed during 
2005. A conservator was hired to conduct an assessment of the 
collection, carry out necessary conservation treatment prior to 
microfilming, and rehouse the papers for preservation.
    The office initiated a detailed condition and identification survey 
of the nearly 100 historic mirrors in the Senate wing. A conservator 
was contracted to undertake the work, which will include extensive 
written and photo documentation for each piece. The project has 
significant benefits: the condition assessments will determine 
priorities for conservation and maintenance treatments; provide 
information on the age, origin, and importance of the frames; and 
furnish documentation for disaster planning. Half the mirrors have been 
surveyed, and the project will be completed in 2005.
    The Curator's staff participated in training sessions for the 
Capitol Police regarding the care and protection of art in the Capitol, 
and continued to educate the housekeeping personnel on maintenance 
issues related to the fine and decorative art collections.

Historic Preservation
    Preservation work included extensive research, documentation, 
record keeping, and project review. The program emphasizes 
infrastructure development and oversight.
    The office worked with the AOC and the SAA to review, comment, and 
document Senate construction projects. In addition to offering 
direction in project development and methodology, the office maintains 
records on all known Senate wing projects. Documentation associated 
with those files varies in accordance with office involvement and 
impact on historic resources. Projects that required considerable 
review and assistance included: Brumidi corridor restoration phase 
VIII; window shutter refinishing; emergency strobe and horn 
installation; grand stairwell plaster replacement; marble step repair; 
plaster assessment program; Brumidi west corridor egress installation; 
and cell phone antenna installation. Additionally, the office is 
working closely with the AOC in the creation of an historic structures 
report for the Senate vestibule, adjacent stairwell, and small Senate 
rotunda. When completed, the report will provide critical documentation 
regarding the architectural history of these spaces, and will serve as 
the foundation for any future preservation work.
    The architectural chronology and social history databases 
established in 2003 were further refined, with new information entered 
as it became available and existing files systematically incorporated. 
While the office databases and files provide a significant resource for 
room and object histories, a project initiated in October will greatly 
increase the office's research capabilities. Currently, the historic 
preservation officer is working with the Senate Library to create an 
electronic database of all AOC, SAA, and Secretary of the Senate annual 
reports. Related to this effort, is a new initiative to photo document 
leadership suites during each Congress. This will allow the office to 
report on ``decorative'' changes in leadership rooms over time. With 
requests from Senate offices for information pertaining to room 
histories, architectural features, and historic images dramatically 
increasing, these initiatives allow for quick retrieval of necessary 
information.

Historic Chambers
    The Curator's staff continued to maintain the Old Senate and Old 
Supreme Court Chambers, and coordinated periodic use of both rooms for 
special occasions. By order of the U.S. Capitol Police, the Old Senate 
Chamber was closed to visitors after September 11, 2001. However, 
during most Senate recesses in 2004, the historic room was opened to 
tours. Twenty-six requests were received from current Members of 
Congress for after hours access to the chamber. Of special significance 
was the filming of a documentary history on the Capitol by C-SPAN using 
high definition equipment. B-roll footage was also requested and 
provided to Lion Television in Scotland for a documentary on Charles 
Dickens in America. Twenty-one requests were received by current 
Members of Congress for admittance to the Old Supreme Court Chamber 
after hours. The office also coordinated with the AOC to install 
emergency strobe lights in each chamber as part of the life-safety 
upgrade program.

Loans To and From the Collection
    A total of 76 historic objects and paintings are currently on loan 
to the Curator's Office on behalf of Senate leadership and officials in 
the Capitol. The staff added loans of two portraits for leadership 
suites, returned 11 paintings and prints at the expiration of their 
loan periods to their respective owners, and renewed loan agreements 
for 18 other objects. In addition, the office coordinated the loan of 
six oil study sketches by Robert Chester La Follette of Senators Clay, 
Calhoun, Webster, La Follette, and Taft, which relate to the 1958 
commission for the Senate Reception Room portraits. The sketches are 
currently on loan from the daughter of the late artist, and have been 
approved for accession into the Senate Collection in 2005.
    The Curator's Office obtained an oil sketch by Constantino Brumidi 
for study and appraisal. The painting is a preparatory sketch completed 
around 1874 by the artist for his fresco mural, the Signing of the 
First Treaty of Peace with Great Britain, located above room S-118 in 
the Brumidi Corridors. The sketch has now been acquired for the Senate 
Collection.
    The office continued to work with CVC staff to assemble information 
on Senate Collection objects. Condition reports were conducted on those 
objects currently being considered for loan, and exhibit labels were 
written for all Senate-related artifacts planned for the exhibition. 
The office also assisted in developing a CVC Art Task Force, composed 
of prominent curators, architects, and designers, to recommend short- 
and long-term plans for art in the Visitor Center. The first meeting 
was held in December, and a white paper will be developed in the next 
few months.
    The Secretary's china was distributed and returned six times in 
2004. It was used for events including a dinner for the Senate spouses, 
and luncheons for the current First Lady and former First Lady Nancy 
Reagan. The official Senate china was inventoried and used at 28 
receptions for distinguished guests, both foreign and domestic.

Publications and Exhibitions
    Work continued on the United States Senate Catalogue of Graphic 
Art, to be published in 2005. The volume features the Senate's 
collection of more than 900 historic engravings and lithographs, and 
includes two full-length essays and almost 40 short essays discussing 
selected prints. The Senate Curator and Associate Senate Historian are 
co-authors of the publication. It is a companion volume to the United 
States Senate Catalogue of Fine Art published in 2003.
    In August 2004, the office de-installed the popular photographic 
exhibition, The United States Capitol: Photographs by Fred J. Maroon, 
and installed World War II: The Senate and the Nation's Capital, an 
exhibition of photographs exploring how the Senate ``went to war'' and 
how the war came to Washington, D.C. The Senate Historical Office and 
Curator's Office developed the exhibit, which is located on the first 
floor of the Senate wing.
    In association with the Office of Web Technology and a web design 
contractor, the office worked on developing and posting two interactive 
exhibits to the Senate web site. The exhibits, Take the Puck 
Challenge!, and Advise and Consent: The Drawings of Lily Spandorf, were 
originally produced for stand-alone kiosks in the Capitol. They are 
being translated into Flash presentations to become internet 
compatible. Take the Puck Challenge! features quizzes, games, and 
puzzles to introduce viewers to the political cartoons of the 
nineteenth-century satirical magazine, Puck. Advise and Consent 
explores the work of Lily Spandorf, an artist who sketched the filming 
of the Otto Preminger movie of the same name, filmed in and around the 
Capitol in 1962. Ms. Spandorf's drawings are owned by the Senate.
    The internet exhibit, ``I Do Solemnly Swear'': A Half Century of 
Inaugural Images, was developed for the Joint Congressional Committee 
on Inaugural Ceremonies (JCCIC), and features images from the Senate's 
Graphic Art Collection illustrating inaugural events from 1853 to 1905.
    Several brochures were reprinted in 2004, and one new publication 
produced, The U.S. Senate Appropriations Committee. The office also 
continued to be a significant contributor to Unum, the Secretary of the 
Senate's newsletter.
    As part of an ongoing program to provide information about the 
Capitol's art and historic spaces, new informational panels were 
installed for the paintings of George Washington at Princeton and 
Recall of Columbus.

Policies and Procedures
    In 2004, the Senate Curatorial Advisory Board was established by 
statute. Composed of respected scholars and curators, this board was 
established to (i) provide expert advice to the Commission regarding 
the Senate's art and historic collections and preservation program, and 
(ii) assist in the acquisition and review of new objects for the 
collections. During 2004, the 12-member board was empaneled and the 
first meeting was held.
    Additionally, the Commission established the Senate Preservation 
Board of Trustees. This board, composed of eminent citizens, was 
established to enable the acquisition of significant art works and 
historical objects and to facilitate preservation projects for the 
Commission. Currently, the Commission, through the Curator's office, is 
fielding nominations for the board from Commission members and an 
initial meeting will be held in the spring of 2005.

Collaborations, Educational Programs, and Events
    In preparation for the presidential inauguration, the JCCIC 
requested various assistance from the Curator's Office. The staff was 
responsible for handling all details regarding the historic painting 
and podium for display at the inaugural luncheon; assisting with the 
printed programs and gift portfolio; and developing a collecting plan 
to ensure appropriate material would be saved for the Senate 
Collection. The Curator's Administrator served on the JCCIC design team 
for the web site, while the Curatorial Assistant was assigned to the 
Committee, serving as its Deputy Capitol Coordinator.

Office Administration
    As part of the continuing effort to safeguard collections and 
records against possible disaster, work began to microfiche and 
digitize the collection object files. These files are the primary legal 
title, research, and management records for all art and historical 
objects in the Senate's collections. Copies of the fiche and digital 
records will be kept off site for disaster recovery and archival 
purposes. Additional copies will be used on site for research and 
public information in order to lessen the wear and tear on the original 
paper records.

Automation
    The office upgraded its electronic collection management database, 
allowing for more efficient and accurate conversion of collection 
information into web site applications. The staff is participating in a 
pilot program to introduce Groove project management software to the 
Secretary's Office.
    In 2004 a PDF version of the publication, United States Senate 
Catalogue of Fine Art, was posted on the web site, and work is 
proceeding to add the essays from that volume to the web pages for each 
piece of art. In addition, the office completed photographing and 
scanning the 980 historical engravings and political cartoons in the 
Graphic Art Collection; work on adding these to the site will begin 
shortly. Due to an increased presence of the Senate Collection on the 
Senate.gov web site, requests for collection images increased 
dramatically.

Objectives for 2005
    A major initiative in the upcoming year will be the creation of 
several new museum quality storage areas for the Senate Collection. At 
the end of 2004, a site was selected for a new Senate warehouse 
facility that will be outfitted to include a room with climate control, 
security, and equipment to house Senate Collection objects. Work will 
include research and review of appropriate museum storage equipment and 
monitoring systems, and planning the move of collections into the new 
facility. Additionally, planning for the Curator's storage spaces in 
the CVC will be guided by the results of the contract with the 
conservator specializing in collections storage.
    Conservation and preservation concerns continue to be a priority. 
Projects in 2005 will include the restoration of nine Senate Chamber 
desks--completing the seven year conservation treatment program; 
assessment and conservation of the painting, the First Reading of the 
Emancipation Proclamation by F.B. Carpenter; and restoration of the 
Senate's historic portrait of George Washington by Gilbert Stuart. Two 
conservators from the National Gallery of Art recently provided an 
assessment of the condition of paintings on display in the Senate wing, 
and provided recommendations for the conservation of the Stuart 
panting. Two recently commissioned paintings, of Blanche Kelso Bruce 
and James O. Eastland, will receive light cleaning and application of a 
varnish coat to enhance and protect the portraits now that the paint 
has properly cured.
    The Senate Preservation Board of Trustees will hold its first 
meeting. The Senate Curatorial Advisory Board will continue to meet 
semi-annually and address such issues as the Commission and the office 
of the Senate Curator may bring before it.
    Work on the United States Senate Catalogue of Graphic Art will be 
completed in 2005. Information panels for three paintings will be 
developed: The Florida Case before the Electoral Commission, The Battle 
of Lake Erie, and First Reading of the Emancipation Proclamation.
    Internet exhibits will include sites on Isaac Bassett and the 
Senate Chamber desks. The Isaac Bassett exhibit will feature art works, 
historic images, and objects from the Senate Collection, as well as 
portions of the Bassett manuscript, highlighting the 64-year career of 
this nineteenth-century Senate employee. The Senate Chamber desk 
exhibit will bring together all historical information on the desks, as 
well as discuss the conservation efforts. The site will prove 
invaluable to anyone seeking information on desk occupants, desk 
styles, and Senate floor seating configurations. Other web activities 
include increasing the art and historic information on the site, and 
posting new acquisitions.
    To streamline the process for adding new objects to the Senate 
Collection, a tracking system for potential accessions will be 
developed. The system will improve the collection of information and 
the availability of collection documentation. A thorough review and 
consideration of the Incoming Objects Register collection will commence 
with the development of the tracking system. Additionally, the 
Registration department will implement an electronic tracking system to 
improve the accuracy and efficiency of loan renewals.
    Collection activities will include efforts to locate and recover 
historic Senate pieces long associated with the institution. Work has 
begun to find an early Senate Chamber chair by Thomas Constantine, a 
Russell Office Building desk by George Cobb, and furnishings associated 
with the Old Supreme Court Chamber.
    The office will proceed with the Connecticut Compromise mural and 
the portrait of Senator Bob Dole. Unveilings will be held for the 
Senator George Mitchell and Senator Margaret Chase Smith paintings.
    An oral history program will be developed, based on the Senate 
Historical Office's successful format, to document the history of the 
Senate's collections. Artists, cabinetmakers, donors, and others will 
be interviewed, and appropriate information posted on the Senate web 
site.
    Microfiching of the fine art collection files and microfilming of 
the Isaac Bassett papers will be completed, as will the project to 
digitize the annual reports from the AOC, SAA, and Secretary of the 
Senate. The office will continue to photograph the Senate Chamber 
desks.
    The office plans to expand its use of Groove project management 
software. It is hoped that by the end of the year all staff will 
achieve a reasonable level of proficiency in the program and that many 
projects will be managed and their status reported to the Secretary 
using this application.
    With the recent acquisition of the Cornelius & Baker armorial 
chandelier, the office will oversee the transfer and storage of the 
fixture, and will work with the Senate Curatorial Advisory Board to 
review options for the future use of the fixture within the Senate 
wing.
    The office will undertake several major research initiatives. 
Research on the Old Senate Chamber Eagle and Shield will be conducted 
in conjunction with major decorative art museums and scholars, and it 
is hoped that it will result in determining the origin, maker, and 
original condition of this important symbolic image. Research will 
begin on the Senate Chamber chairs. No original 1819 chairs remain in 
the chamber, and as new chairs were constructed over the years, many 
design features and materials changed. Documenting these changes will 
help determine the authenticity and age of any chair that might appear 
for sale or donation; currently several such chairs are being 
considered for acquisition.
    Of importance is the development of a five year plan for the Senate 
Preservation Program. In creating the plan, the Curator's staff will 
further their knowledge of state capitol preservation efforts by 
visiting other sites and meeting with local and state preservationists, 
and will seek advice from the Senate Curatorial Advisory Board. This 
will be a major initiative in advancing the Preservation Program.

               3. JOINT OFFICE OF EDUCATION AND TRAINING

    The Joint Office of Education and Training provides employee 
training and development opportunities for all Senate staff both in 
Washington D.C. and in the states. There are three branches within the 
department. The technical training branch is responsible for providing 
technical training support for approved software packages used in 
either Washington or the state offices. The computer training staff 
provides instructor-led classes; one-on-one coaching sessions; 
specialized training provided by vendors, computer based training; and 
informal training and support services. The professional training 
branch provides courses for all Senate staff in areas including 
management and leadership development, human resources issues and staff 
benefits, legislative and staff information, new staff and intern 
information. The Health Promotion branch provides seminars, classes and 
screenings on health related and wellness issues. This branch also 
coordinates an annual Health Fair for all Senate employees and four 
blood drives each year.

Training Classes
    The Joint Office of Education and Training offered 581 classes in 
2004. 5,252 Senate employees participated in these classes. The 
registration desk handled 20,467 requests for training and 
documentation.
    Of the above total, in the Technical Training area 265 classes were 
held with a total attendance of 1,093 students. An additional 702 staff 
received coaching on various software packages and other computer 
related issues.
    In the Professional Development area 316 classes were held with a 
total attendance of 4,159 students. Individual managers and supervisors 
are also encouraged to request customized training for their offices on 
areas of need.
    The Office of Education and Training is available to work with 
teams on issues related to team performance, communication or conflict 
resolution. During 2004, 40 requests for special training or team 
building were met. Professional development staff also traveled to 
state offices to conduct specialized training and team building during 
the year. During the last quarter of the year, training was offered via 
video teleconferencing to two state offices.
    In the Health Promotion area, 708 Senate staff participated in 
Health Promotion activities throughout the year. These activities 
included cancer screening, bone density screening and seminars on 
health related topics. Additionally 1,310 staff participated in the 
Annual Health Fair held in September.
    The Joint Office of Education and Training has actively worked with 
the Office of Security and Emergency Preparedness to provide security 
training for Senate staff. In 2004, the Office of Education and 
Training coordinated 53 sessions of escape hood and other security 
related training for 1,683 Senate staff.

State Training
    Since most of the classes that are offered are only practical for 
D.C. based staff, the Office of Education and Training continues to 
offer the ``State Training Fair'' which began in March 2000. In 2004, 
two sessions of this program were offered to state staff. This office 
also conducted our annual State Directors Forum for the second year. In 
addition, this office has implemented the ``Virtual Classroom'' which 
is an internet based training library of 300+ courses. To date, 396 
state office and DC staff have used this training option.

                    4. CHIEF COUNSEL FOR EMPLOYMENT

Background
    The Office of the Senate Chief Counsel for Employment (``SCCE'') is 
a non-partisan office established at the direction of the Joint 
Leadership in 1993 after enactment of the Government Employee Rights 
Act (``GERA''), which allowed Senate employees to file claims of 
employment discrimination against Senate offices. With the enactment of 
the Congressional Accountability Act of 1995 (``CAA''), Senate offices 
became subject to the requirements, responsibilities and obligations of 
11 employment laws. The SCCE is charged with all legal defense of 
Senate offices in all employment law cases at both the administrative 
and court levels. Also, on a day-to-day basis, the office provides 
legal advice to Senate offices about their obligations under employment 
laws. Accordingly, each of the 180 offices of the Senate is an 
individual client of the SCCE, and each office maintains an attorney-
client relationship with the SCCE.
    The areas of responsibilities of the SCCE can be divided into the 
following categories:
  --Litigation (Defending Senate Offices in Federal Court)
  --Mediations to Resolve Lawsuits
  --Court-Ordered Alternative Dispute Resolutions
  --Preventive Legal Advice
  --Union Drives, Negotiations and Unfair Labor Practice Charges
  --OSHA/Americans With Disability Act (``ADA'') Compliance
  --Layoffs and Office Closings In Compliance With the Law
  --Management Training Regarding Legal Responsibilities
  --Litigation; Mediations; Alternative Dispute Resolutions
    The SCCE represents each of the 180 employing offices of the Senate 
in all court actions (including both trial and appellate courts), 
hearings, proceedings, investigations, and negotiations relating to 
labor and employment laws. The SCCE handles cases filed in the District 
of Columbia and cases filed in any of the 50 states.
Union Drives, Negotiations And Unfair Labor Practice Charges
    In 2004, no employees attempted to unionize. Therefore, the SCCE 
handled no union drives.

OSHA/ADA Compliance
    The SCCE provides advice and assistance to Senate offices in 
complying with the applicable OSHA and ADA regulations; representing 
them during Office of Compliance inspections; advising state offices on 
the preparation of the Office of Compliance's Home State OSHA/ADA 
Inspection Questionnaires; assisting offices in the preparation of 
Emergency Action Plans; and advising and representing Senate offices 
when a complaint of an OSHA violation has been filed with the Office of 
Compliance or when a citation has been issued. In 2004, the SCCE 
assisted all Senate offices in preparing for OSHA/ADA inspections, pre-
inspected 12 offices, and gave 9 OSHA/ADA seminars.
Management Training Regarding Legal Responsibilities
    The SCCE conducts legal seminars for the managers of Senate offices 
to assist them in complying with employment laws. In 2004, the SCCE 
gave 51 legal seminars to Senate offices. Among the topics covered 
were:
  --Preventing and Addressing Sexual Harassment in the Workplace;
  --The Congressional Accountability Act of 1995: What Managers Need to 
        Know About Their Legal Obligations;
  --Managers' Obligations Under the Family and Medical Leave Act;
  --The Legal Pitfalls of Hiring the Right Employee: Advertising, 
        Interviewing, Drug Testing and Background Checks;
  --Disciplining, Evaluating and Terminating an Employee Without 
        Violating Employment Laws;
  --Management's Obligations Under the Americans With Disabilities Act;
  --Equal Pay for Equal Work: Management's Obligations Under the Equal 
        Pay Act;
  --The Immigration Reform and Control Act of 1986 (IRCA): Steps Your 
        Office Must Take to Verify Employment Eligibility;
  --Enhancing Diversity and Avoiding Discrimination in the Workplace; 
        and
  --Workplace Violence.

Preventive Legal Advice
    At times, a Senate office will become aware that an employee is 
contemplating legal action, and the office will request the SCCE's 
legal advice and/or that the SCCE negotiate with the employee's 
attorney before the employee files a lawsuit.
    Also, the SCCE advises and meets with Members, Chiefs of Staff, 
Administrative Managers, Staff Directors, Chief Clerks and General 
Counsels at their request. The purpose is to prevent litigation and to 
minimize liability in the event of litigation. For example, on a daily 
basis, the SCCE advises Senate offices on matters such as disciplining 
or terminating employees in compliance with the law, handling and 
investigating sexual harassment complaints, accommodating the disabled, 
determining wage law requirements, meeting the requirements of the 
Family and Medical Leave Act, and management's rights and obligations 
under union laws and OSHA.

                          5. SENATE GIFT SHOP

    The Senate Gift Shop was established under administrative direction 
and supervision of the Secretary of the Senate (SOS) in October 1992, 
(United States Code, Title 2--Chapter 4). The Gift Shop provides 
services to Senators, their spouses, staffs, and constituents, and the 
many visitors to the U.S. Capitol complex. Products include a wide 
variety of souvenirs, collectibles and fine gift items created 
exclusively for the U.S. Senate. Services include special ordering of 
personalized products, custom framing, gold embossing, engraving and 
shipping.

Facilities
    For several years the services offered by the Senate Gift Shop were 
over-the-counter sales to walk-in customers at a single location. 
Today, after more than 10 years in operation, and as a result of 
extended services and continued growth, the Gift Shop now provides 
service from three different locations. Services from these locations 
include walk-in sales, telephone orders, fax orders, mail orders, and a 
variety of special order and catalog sales.
    Plans for the movement of inventory from the offsite warehouses to 
the soon-to-be completed SAA warehouse are currently being formulated. 
Plans include but are not limited to taking a physical inventory of 
Gift Shop merchandise stored at both offsite warehouses, devising 
methods for securing product on pallets and carts in preparation for 
transportation, transporting the merchandise, and the shelving of 
inventory upon delivery to the new warehouse.
    Operational procedures for the new location such as staffing 
requirements, receiving, shipping, and security are currently under 
consideration. These issues as well as other procedural considerations 
will be more clearly defined through a series of meetings and 
communications between SAA and SOS Gift Shop staff as the warehouse 
construction nears completion.

Sales Activity
    Sales recorded for fiscal year 2004 are $1,494,744.51. Cost of 
goods sold during this same period are $1,005,348.34, accounting for a 
gross profit of $489,396.17.
    In addition to tracking gross profit from sales, the Senate Gift 
Shop maintains a revolving fund and a record of on-hand inventory. As 
of October 1, 2004, the revolving fund balance was $1,683,079.32 and 
the on-hand inventory was valued at $2,090,474.06.

Additional Activity
    One of the most important objectives for 2003 and 2004 was 
replacing point-of-sale and accounting software, Basic Four, which was 
more than twenty years old and no longer meeting the increasingly 
unique needs of the Gift Shop.
    The company providing the hardware and performing the system 
installation of the new retail and financial management system, has 
completed the bulk of the contract work and is nearing completion of 
the last few deliverables of the contract. The deliverables that remain 
to be fulfilled include the ability to export and import financial data 
from the Senate Disbursing Office into the Gift Shop's Great Plains 
accounting system, the delivery of a basic Web Store/Kiosk database 
engine and the development of an e-commerce storefront.
    The selected software packages, Microsoft Retail Management System, 
Headquarters, Store Operations and Great Plains, are off-the-shelf 
products that required little modification to meet the specific 
requirements of Senate Gift Shop operations. Currently Gift Shop staff 
continue to modify and create databases that will serve as the 
foundation for the new retail system. Databases include inventory, 
financial data and other information required for detailed reports. 
Contractors are currently working to solve programming issues and are 
confident that they will be able to complete the contract obligations 
in the very near future.
    It is important to note that the new system not only will meet the 
Gift Shop's current and near-future requirements, but will also 
accommodate potential add-on features such as intranet and internet 
sales.

Accomplishments and New Products in Fiscal Year 2004
            Official Congressional Holiday Ornaments
    The year 2002 marked the beginning of the Gift Shop's third 
consecutive ``four-year ornament series.'' Each ornament in the 2002-
2005 series of unique collectibles features an architectural milestone 
of the United States Capitol and is packaged with corresponding 
historical text taken from the book, History of the United States 
Capitol: A Chronicle of Design, Construction, and Politics by William 
C. Allen, Architectural Historian in the office of the Architect of the 
Capitol.
    Our 11th annual ornament was released in 2004 and shows the Capitol 
enlarged with new marble wings and cast-iron dome designed by 
Philadelphia architect Thomas U. Walter who was appointed architect of 
the Capitol extension in 1851. Walter enlivened the foreground of his 
drawing with a spirited scene of carriages, horses and crowds of 
people. In keeping with a Gift Shop tradition, the authentic colors of 
the original drawing were reproduced onto a white porcelain stone and 
set with a brass frame finished in 24kt gold.
    Sales of the 2004 holiday ornament exceeded 33,000, of which more 
than 7,400 were personalized with engravings designed, proofed and 
etched by Gift Shop staff. Sales revenue from this year's ornament 
generated more than $40,000 in scholarship funds for the Senate Child 
Care Center.

            Pickard China Porcelain ``Executive Authority'' Box
    Executive Authority, released in 2004, is the third in a series of 
four porcelain boxes that display different images from the Constantino 
Brumidi fresco paintings on the ceiling of the President's Room in the 
Senate Wing of the United States Capitol. The first and second boxes in 
the series, Liberty and Legislation, were released in 2002 and 2003. 
The final piece of this series, Religion, will be released later this 
year.

            United States Senate Catalogue of Fine Art
    The Gift Shop purchased for resale the book, United States Senate 
Catalogue of Fine Art. In order to ensure availability of this 
publication for an extended period of time, a large quantity was 
secured.

Projects and New Ideas for 2005
            108th Congressional Plate
    The series of Official Congressional Plates will continue this year 
with the design, development and manufacture of the 108th and 109th 
Congressional Plates. The design stage for both plates has been 
completed and prototypes are being produced by Tiffany & Co.
    In addition to determining the design for the 108th and 109th 
Congressional Plates, final artwork is under development with Tiffany's 
for the 110th and 111th Congressional Plates.

            Constantino Brumidi Birthday Celebration
    This year marks the 200th Birthday of Constantino Brumidi, ``The 
Artist of the Capitol.'' In celebration of this special occasion, Gift 
Shop staff will work closely with the staff of the Curator's Office 
throughout 2005 on an initiative to add to our collection of Brumidi-
inspired merchandise.

            Intranet/Webster
    The Gift Shop actively continues to develop its website. Primary 
considerations include website policy, design and layout, content and 
products to be featured. It is the Gift Shop's intention to quickly 
include links to the offices of the Historian, Curator and Senate 
Library so the Senate community using Webster will have ready access to 
additional information pertaining to the product or subject of their 
interest.

                          6. HISTORICAL OFFICE

    Serving as the Senate's institutional memory, the Historical Office 
collects and provides information on important events, precedents, 
dates, statistics, and historical comparisons of current and past 
Senate activities for use by members and staff, the media, scholars, 
and the general public.
    The Office advises Senators, officers, and committees on cost-
effective disposition of their non-current office files and assists 
researchers in identifying Senate-related source materials. The Office 
keeps extensive biographical, bibliographical, photographic, and 
archival information on the 1,784 former Senators. It edits for 
publication historically significant transcripts and minutes of 
selected Senate committees and party organizations, and conducts oral 
history interviews with key Senate staff. The photo historian maintains 
a collection of approximately 40,000 still pictures that includes 
photographs and illustrations of Senate committees and most former 
Senators. The Office develops and maintains all historical material on 
the Senate web site.

Editorial Projects
    Biographical Directory of the U.S. Congress, 1774-2005.--In May 
2003, both Houses of Congress adopted H. Con. Res. 138, authorizing 
printing of the sixteenth edition of the Biographical Directory of the 
United States Congress, 1774-2005. The first edition of this 
indispensable reference source was published in 1859; the most recent 
edition appeared in 1989. Since 1989, the assistant historian has added 
many new biographical sketches, expanded bibliography entries, and 
revised and updated most of the database's 1,875 Senate entries. In 
preparation for the new print edition, scheduled for release in late 
spring/early summer of 2005, the assistant historian has updated the 
Congress-by-Congress listing of members through the 108th Congress, 
updated the listing of executive branch officers, and completed the 
editing and proofing of all Senate-related information. In addition, 
existing information has been edited to allow for expanded search 
capabilities on the online version at http://bioguide.congress.gov.
    Joint Congressional Committee on Inaugural Ceremonies (JCCIC).--In 
early 2004, the Office began consulting with the JCCIC to develop 
historical content for the JCCIC's web site. The Office conducted 
historical research and compiled files for every inauguration since 
1789. Based on the information collected, staff provided historical 
data for each inauguration, and wrote brief articles on all aspects of 
inauguration day, from the morning prayer service to the evening's ball 
(including the procession to the Capitol, the swearing-in ceremony, the 
inaugural luncheon, and the parade). The photo historian located and 
provided photographs and illustrations to accompany the inauguration 
profiles and articles. Office staff assisted JCCIC staff with 
publishing these materials to the Web site. In addition to the Web 
site, the Office assisted the JCCIC with developing the inaugural 
theme, and wrote and edited content for printed materials, including 
the platform program, luncheon program, and the luncheon portfolio.
    Capitol Visitor Center Exhibition Content Committee.--Staff 
historians continued to assist the Capitol Preservation Commission in 
drafting text for the exhibition gallery of the Capitol Visitor Center. 
During 2004, the Office worked with Donna Lawrence Productions to 
develop a script for a CVC visitor orientation film.
    Administrative History of the Senate.--During 2004, the assistant 
historian continued the research and writing of this historical account 
of the Senate's administrative evolution, taking advantage of newly 
discovered archival resources and improved search capabilities for 
contents of nineteenth-century newspapers and periodicals. This study 
traces the development of the offices of the Secretary of the Senate 
and Sergeant at Arms, considers nineteenth and twentieth-century reform 
efforts that resulted in reorganization and professionalization of 
Senate staff, and looks at how the Senate's administrative structure 
has grown and diversified over the past two centuries.
    ``Anchor of the Republic: The United States Senate, 1789-2006''.--
The Office began work on a one-volume illustrated history of the 
Senate, intended for publication in late 2006. This book will focus on 
the Senate's unique constitutional responsibilities, the development of 
its traditions and prerogatives, and the contributions of significant 
personalities.
    Rules of the United States Senate, 1774-1979.--This work in 
progress will present a narrative history of the evolution of the 
Senate's standing rules, from their antecedents in the Continental 
Congress through their most recent recodification in 1979. Following 
the narrative section, a documentary section will include the original 
text of all standing rules, beginning with those the Senate adopted on 
April 16, 1789. It will reprint each of the seven subsequent 
recodifications (1806, 1820, 1828, 1868, 1877, 1884, and 1979) along 
with changes adopted between each recodification. Appendices will 
contain rules of the Continental Congresses, the Senate of the 
Confederate States of America, and the abandoned joint rules of 
Congress.

Member Services
    Members' Records Management and Disposition Assistance.--The Senate 
archivist continued to assist members' offices with planning for the 
preservation of their permanently valuable records, with special 
emphasis on archiving electronic information from computer systems and 
transferring valuable records to a home state repository. The archivist 
updated the archival sections of the handbook, ``Closing a Senate 
Office'' and participated in meetings with all offices of retiring 
Senators to plan for the disposition of their records. The archivist 
worked with staff from all repositories receiving senatorial 
collections to ensure adequacy of documentation and the transfer of 
appropriate records with adequate finding aids. The archivist worked 
with the Committee on Rules and Administration to recommend a change in 
the source of Senate funding for shipment of members' official records 
to home-state archival repositories. Public Law 108-447 (December 8, 
2004) changed the funding from individual office accounts to the 
``Miscellaneous Items'' appropriations account within the contingent 
fund of the Senate. The archivist worked with the Sergeant at Arms to 
develop protocols for the use of an electronic document management 
system operated by the Office of Printing, Graphics, and Direct Mail. 
The system is available to all offices for scanning projects and it 
simultaneously produces a microfilm version suitable for archival 
preservation purposes. The Historical Office began using the system to 
produce security copies of its thirty years' accumulation of historical 
subject files. The archivist identified and worked with three pilot 
project members' offices to implement its use. The archivist conducted 
a seminar on records management for Senate offices.
    Committee Records Management and Disposition Assistance.--The 
Senate archivist provided each committee with staff briefings, record 
surveys, guidance on preservation of information in electronic systems, 
and instructions for the transfer of permanently valuable records to 
the National Archives' Center for Legislative Archives. Over 1,365 feet 
of Senate records were transferred to the Archives. The archivist 
updated and published Records Disposition Procedures for Offices of the 
Secretary of the Senate. The archival assistant continued to provide 
processing assistance to committees and administrative offices in need 
of basic help with noncurrent files. The archival assistant produced 
committee archiving reports in a database format covering records' 
transfers for the past five years. The archivist analyzed these reports 
to provide committees with suggestions for improvements. The archivist 
also worked with all committees to transfer a set of mark-up 
transcripts to the Archives for security purposes. The archivist 
continues revision of the Records Management Handbook for United States 
Senate Committees. Part of the revision entailed developing, with 
assistance from National Archives (NARA) staff, a protocol for transfer 
of electronic records to NARA's Center for Legislative Archives. The 
Committee on Governmental Affairs and its archivist developed and 
successfully implemented a project using this protocol. In the project, 
all electronic information pertaining to the development of homeland 
security legislation was appraised, organized, and sent to the 
archives.
    Senate Historical Minutes.--The Senate historian continued an 
eight-year series of ``Senate Historical Minutes,'' begun in 1997 at 
the request of the Senate Democratic Leader. In 2004, the historian 
prepared and delivered a ``Senate Historical Minute'' at twenty-four 
Senate Democratic Conference weekly meetings. These 400-word Minutes 
were designed to enlighten members about significant events and 
personalities associated with the Senate's institutional development. 
More than 200 Minutes are available as a feature on the Senate Web 
site.
    Association of Centers for the Study of Congress.--In May, the 
Historical Office cosponsored the second annual meeting of the 
Association of Centers for the Study of Congress in Washington. Among 
the centers involved in this promising new organization are those 
associated with the public careers of former Senators Howard Baker, Bob 
Dole, Everett Dirksen, Margaret Chase Smith, George Aiken, Thomas Dodd, 
Wendell Ford, Hubert Humphrey, Richard Russell, John Stennis, and John 
Glenn. The Association elected Senate archivist Karen Paul as its 
secretary.

Oral History Program
    The Historical Office conducts a series of oral history interviews, 
which provide personal recollections of various Senate careers. This 
year, oral history interviews were completed with Chuck Ludlam, former 
staff member of the Separation of Powers Subcommittee; Arthur 
Rynearson, former deputy Senate Legislative Counsel; and Leonard Weiss, 
former staff director of the Governmental Affairs Committee. Several 
other interviews are currently in progress.

Photographic Collections
    The photo historian continued to catalog, digitize, and expand the 
Office's 40,000 item photographic collection. Photos and other images 
were added to the online collection of Senate Historical Minutes. A 
photographic exhibition (``Capitol Scenes: 1900-1950'') was developed 
for display on the Capitol's second floor, and a virtual exhibit was 
created of the same images for the Senate Web site. Working closely 
with the Senate Curator's Office and the Office of Conservation and 
Preservation, the photo historian helped to create and mount on the 
first floor of the Capitol's Senate wing a photographic exhibition 
entitled ``World War II: The U.S. Senate and the Nation's Capital.'' 
The office acquired a late 19th and early 20th century collection of 
scrapbooks containing the photographic images of nearly 900 Senators 
who served from the Senate's earliest years through the 1920s. The 
photo historian also began working on a pictorial directory that will 
include an image of every Senator who has ever served, organized by 
state and class. This first-of-its-kind publication will offer a unique 
visual representation of the collective Senate from its beginnings to 
the present.

Educational Outreach
    In coordination with the Joint Office of Education and Training, 
Historical Office staff provided seminars on the general history of the 
Senate, Senate committees, women Senators, and Senate floor leadership. 
Office staff also participated in seminars and briefings for specially 
scheduled groups. The historian and associate historian joined the 
Secretary of the Senate in making formal presentations at the June 2004 
Institute on Congress and American History at the Lyndon B. Johnson 
Library and Museum in Austin, Texas. Staff also made several 
international presentations. The historian addressed the ``Parliaments, 
Representation, and Society Seminar'' at the University of London's 
Institute of Historical Research and the associate historian was a 
featured speaker at a conference of the International Association of 
Oral History in Rome, Italy. Finally, on November 19, 2004, C-SPAN's 
``Washington Journal'' devoted an hour-long program to the history of 
the Senate and the work of the Senate Historical Office.

                           7. HUMAN RESOURCES

    The Office of Human Resources was established in June 1995 as a 
result of the Congressional Accountability Act. The Office develops and 
implements human resources policies, procedures, and programs for the 
Office of the Secretary of the Senate that not only fulfill the legal 
requirements of the workplace but which complement the organization's 
strategic goals.
    HR's responsibilities include recruiting and staffing; providing 
guidance to managers and staff; training; job analysis; compensation 
planning, design, and administration; leave administration; records 
management; employee handbooks and manuals; internal grievance 
procedures; employee relations and services; and organizational 
planning and development.
    The Human Resources Office also administers the Secretary's Public 
Transportation Subsidy program and the Summer Intern Program that 
offers college students the opportunity to gain valuable skills and 
experience in a variety of Senate support offices.

Ongoing projects for 2005

            Classification and Compensation Review Completed
    HR conducted a complete classification and compensation study. The 
classification study included a comprehensive collection of current job 
classifications and specifications for every position in the Office. 
For 2005 and beyond, HR will for maintain and update the entire system.

            Policies and Procedures
    The Secretary, through HR, will update and revise the Employee 
Handbook of the Office of the Secretary. With nuances in employment law 
and other advances, the policies will be reviewed, coordinated with 
counsel (if necessary), revised and updated annually.
    In regard to potential violations for said procedures, the 
Secretary, through HR and the Senate Chief Counsel for Employment, has 
developed an effective method to coordinate inquiries.

            Employee Self-Service (ESS)
    HR has implemented use of the Employee Self-Service system (ESS) 
which is a secure system enabling Secretary staff to review and update 
personnel information pertaining to addresses, phone numbers and 
emergency contact information. Employees are now able to review and 
correct information to their electronic personnel records kept by HR. 
Staff and managers can also access leave records and reports through 
this system. The ability to review and update this information is 
instrumental to maintain accurate contact lists for emergencies or 
other contingencies.

            New Leave Tracking System
    In the past, employees of the Secretary of the Senate had to 
maintain ``timesheets'' for each day of work throughout the year. This 
system was maintained by each employee and signed off on by the 
supervisor and/or department head. HR created a new leave tracking 
system whereby attendance is only recorded by the exception, or 
absence. Leave slips have been created for staff to complete and submit 
prior to needing to take leave. The supervisor approves the request and 
forwards it to HR to be entered into the system. Staff now have access 
to their leave balance which is maintained by HR. As a result of this 
new tracking system, directors and HR are able to generate a multitude 
of reports to analyze leave usage by department and organization-wide 
and to review leave balances.

            Attraction and Retention of Staff
    HR has the ongoing task of advertising new vacancies or positions, 
screening applicants, interviewing candidates and assisting with all 
phases of the hiring process.

            Outreach
    HR has initiated development of an Elder Care Fair that will be 
available for all Senate staff interested in learning more about local 
and nationwide services available to assist the elderly and those 
responsible for their care. HR is working closely with the Senate 
Office of Education and Training and the Employee Assistance Program to 
identify and contact agencies that may be of assistance to Senate 
staff. The goal is to conduct this one day event in the last quarter of 
2005.

            Training
    In conjunction with the Senate Chief Counsel for Employment, HR has 
worked on preparing training for department heads and staff. The 
training topics include Conducting Background Checks, Providing 
Feedback to Employees and Goal Setting. These skills will further 
enhance the ability to our staff to comply and succeed in the 
development of the staff of the Secretary of the Senate.

            Orienting New Staff
    Because first impressions make such a lasting impression, HR has 
developed a new consistent means of orienting new staff joining the 
Office of the Secretary. This new system allows for a seamless 
transition from the orientation of HR, policies, parking, and metro 
subsidy, to the particular department the staff member is joining.

            Interns and Fellows
    HR has been instrumental in the internship program and coordination 
of the Heinz Fellowship program. The next group of summer interns will 
begin in June 2005.

            Employee Feedback and Development
    A key to maintaining and improving performance standards, as well 
as ensuring completion of organizational objectives, is providing 
employee feedback. HR, in conjunction with the Executive Office and 
department heads, has established a new comprehensive tool to evaluate 
staff at all levels of the organization.

                         8. INFORMATION SYSTEMS

    The staff of the Department of Information Systems provides 
technical hardware and software support for the Office of the Secretary 
of the Senate. Information Systems staff also work closely with the 
application and network development groups within the Senate Sergeant 
at Arms (SAA), the Government Printing Office (GPO), and outside 
vendors on technical issues and joint projects. The Department provides 
computer related support for the all LAN-based servers within the 
Office of the Secretary of the Senate. Information Systems staff 
provide direct application support for all software installed 
workstations, initiate and guide new technologies, and implement next 
generation hardware and software solutions.

Mission Evaluation
    The primary mission of the Information Systems Department is to 
continue to provide the highest level of customer satisfaction and 
computer support for all departments within the Secretary of the 
Senate's operation. Emphasis is placed on the creation and transfer of 
legislation to outside departments and agencies, meeting Disbursing 
office financial responsibilities to the member offices, and office 
mandated and statutory obligations.
    Functional responsibilities for supporting other departments were 
expanded, as staffing levels were maintained. Information System staff 
functionality was expanded by moving the IT structure from a local LAN 
support structure to an enterprise IT support process. Improved 
diagnostic practices were adopted to stretch support across all 
Secretary departments. Several departments, namely Disbursing, Office 
of Public Records, Chief Counsel for Employment, Page School, Senate 
Security, and Stationery and Gift Shop have dedicated information 
technology staff within those offices. Public Records, Stationery, and 
Gift Shop remote support was added in 2004. Information Systems 
personnel continue to provide a multi-tiered escalated hardware and 
software support for these offices.
    For information security reasons, Secretary departments implement 
isolated computer systems, unique applications, and isolated local area 
networks. The Secretary of the Senate network is a closed local area 
network to all offices within the Senate. Information Systems staff 
continue to provide a common level of hardware and software integration 
for these networks, and for the shared resources of inter-departmental 
networking. Information System staff continue to actively participate 
in all new project design and implementation within the Secretary of 
the Senate operations.

Improvements to the Secretary's LANs
    The Senate chose Windows NT as the standard network operating 
system in 1997. The continuing support strategy is to enhance existing 
hardware and software support provided by the Information Systems 
Department, and augment that support with assistance from the SAA 
whenever required. The Secretary's network supports approximately 300 
user accounts and patron accounts in the Capitol, Hart, Russell, 
Dirksen, and the Page School locations.

Continuity of Operations Plan (COOP)
    The Office of Information System began disaster planning for the 
Secretary's office in June, 1998. In January, 2001, this planning 
process had evolved to include other working groups within the Senate . 
Working with the Office of Senate Security, SAA, GSA, and GAO 
personnel, the Information System COOP plan was developed in March 
2001. Initial emphasis was placed on the continuation of legislative 
and financial business elements within the Senate.
    Beginning in January 2001, new product technology was implemented 
to migrate and store legislative data off-line. This success of the 
initial pilot project was used to facilitate solutions in other 
Secretary offices. The same technology was applied to provide the 
department of Public Records with off-line storage capabilities in July 
2001.
    Near-line server storage solutions augment the normal tape archival 
process. Individual server data continues to be backed up each night. 
At present snap servers are deployed in key locations and smaller units 
are located off-site and are rotated on a bimonthly basis.

Fiscal Year 2004 Highlights

            1. Active Directory and Message Infrastructure Project 
                    (ADMA)
    The original plan involved replacing all CC:MAIL servers and 
gateways with a decentralized Microsoft Outlook solution. The 
Secretary's office previously had six Post Offices in six different 
server domains. There was no central Public Address Book for all 
Secretary employees. Additionally, Secretary Mail requirements needed 
to be refined to insure the implemented solution was both cost-
effective and reliable for the Office of the Secretary.
    The Microsoft Outlook E-Mail client solution is referred to as the 
Messaging Architecture, and the replacement of the existing Windows NT 
server installed base is referred to as the Active Directory project. 
The initial plan outlined that all staff employees be enrolled in one 
central Active Directory Secretary enterprise. Each department (except 
the Disbursing and Employment Counsel office) is to be structured as a 
Organizational Unit within the new enterprise. In November 2004, the 
Office of Employment Counsel migrated to ADMA. Completion of the 
remaining offices will occur in fiscal year 2005.

            2. Office of Public Records (OPR) Upgrades
    Upgrades to all OPR hardware and software were implemented in 
fiscal year 2004. This involved replacing four (4) new servers at the 
PSQ location, and consolidating all OPR data to a new hardware platform 
in SH-232. Operating System software was ungraded and Database software 
was transferred to a Windows2000/SQL2000. During the February ricin 
event, OPR staff relocated and were able to operate and continue their 
scanning operation.

            3. Senate Library Catalog Project
    The existing Senate Library hardware and software server operation 
in SRB-20 was mirrored to facilitate access to the Library Web Catalog 
for all Senate offices on the Senate Intranet. Previously only 
workstations within SOS could access the catalog. Home and state 
offices can now take advantage of the numerous library resources. The 
mirrored server operation at another location provides a redundant data 
backup to the primary Russell location. Future migration of the catalog 
information to the Storage Area Network (SAN) located at the Alternate 
Computing Facility is now possible.

            4. Legislative Operation Upgrades
    The Journal Clerk hardware and software business applications was 
updated in fiscal year 2004. The previous version of software was last 
updated in 1997, and this new software application now takes advantage 
of the LIS repository located at PSQ. Composition of the Senate Journal 
is more accurate and takes advantage of the internal LIS architecture.

            5. Gift Shop Procurement
    A search began early in 2002 to investigate and find a solution for 
a replacement hardware and software system for the Senate Gift Shop and 
Stationery operations. A procurement was awarded in 2002. New hardware 
servers and Point-Of-Sale workstations were installed in January 2004, 
the older POS applications retired, and new system integration 
completed in February 2004. This is a long-term project which involves 
the creation of a new product database, an e-commerce point-of-sale 
application, inventory control software, and Disbursing Office reports 
generation package.

            6. Stationery Room Renovation Procurement
    Similar to the Gift Shop renovation project, the Stationery Room 
awarded a contract to replace the existing business method. This 
process had not been updated in over ten years. Additional hardware and 
software was installed in 2004 to support the new point-of-sale system.
    In May 2004, an enhancement to the Metro Subsidy system began which 
would allow Senate offices to request allotted subsidies in advance 
using a web-browser based connection. SAA provided the web-entry portal 
and the Secretary installed the necessary SQL database server. An 
additional hardware server and new workstations were installed in 
December 2004 to support the PTI solution.

            7. Curator Project Management Software
    In May 2004, the Curator's office desired a method to more 
efficiently create, edit, publish, and distribute information relative 
to numerous contracts and outside vendor projects. After evaluating 
these business requirements, the IT solution implemented now provides 
multi-user collaboration software (Groove) to track and monitor these 
numerous projects. In parallel, working with SAA Research & 
Development, this solution was deemed valuable to other Senate offices 
as this package allows staff to communicate and share files regardless 
of location.

                     9. interparliamentary services
    The Office of Interparliamentary Services (IPS) has completed its 
23rd year of operation as a department of the Secretary of the Senate. 
IPS is responsible for administrative, financial, and protocol 
functions for all interparliamentary conferences in which the Senate 
participates by statute, for interparliamentary conferences in which 
the Senate participates on an ad hoc basis, and for special delegations 
authorized by the Majority and/or Minority Leaders. The office also 
provides appropriate assistance as requested by other Senate 
delegations.
    The statutory interparliamentary conferences are: NATO 
Parliamentary Assembly; Mexico-United States Interparliamentary Group; 
Canada-United States Interparliamentary Group; British-American 
Interparliamentary Group; United States-Russia Interparliamentary 
Group; and United States-China Interparliamentary Group.
    In June, the 45th Annual Meeting of the Canada-U.S. 
Interparliamentary Group was held in Idaho. Arrangements for this 
successful event were handled by the IPS staff.
    As in previous years, all foreign travel authorized by the 
Leadership is arranged by the IPS staff. In addition to delegation 
trips, IPS provided assistance to individual Senators and staff 
traveling overseas. Senators and staff authorized by committees for 
foreign travel continue to call upon this office for assistance with 
passports, visas, travel arrangements, and reporting requirements.
    IPS receives and prepares for printing the quarterly financial 
reports for foreign travel from all committees in the Senate. In 
addition to preparing the quarterly reports for the Majority Leader, 
the Minority Leader, and the President Pro Tempore, IPS staff also 
assist staff members of Senators and committees in filling out the 
required reports.
    Interparliamentary Services maintains regular contact with the 
Office of the Chief of Protocol, Department of State, and with foreign 
embassy officials. Official foreign visitors are frequently received in 
this office and assistance is given to individuals as well as to groups 
by the IPS staff. The staff continues to work closely with other 
offices of the Secretary of the Senate and the Sergeant at Arms in 
arranging programs for foreign visitors. In addition, IPS is frequently 
consulted by individual Senators' offices on a broad range of protocol 
questions. Occasional questions come from state officials or the 
general public regarding Congressional protocol.
    On behalf of the Leadership, the staff arranges receptions in the 
Senate for Heads of State, Heads of Government, Heads of Parliaments, 
and parliamentary delegations. Required records of expenditures on 
behalf of foreign visitors under authority of Public Law 100-71 are 
maintained in the Office of Interparliamentary Services.
    Planning is underway for the 44th Annual Meeting of the Mexico-U.S. 
Interparliamentary Group, and the second meetings of both the U.S.-
Russia Interparliamentary Group and the U.S.-China Interparliamentary 
Group, all of which will be held in the United States in 2005. Advance 
work, including site inspection, will be undertaken for the 46th Annual 
Canada-U.S. Interparliamentary Group meeting to be held in the United 
States in 2006. Preparations are also underway for the spring and fall 
sessions of the NATO Parliamentary Assembly.

                              10. library
    The Senate Library provides legislative, legal, business, and 
general information services to the United States Senate. The library's 
collection encompasses legislative documents that date from the 
Continental Congress in 1774; current and historic executive and 
judicial branch materials; and an extensive book collection on American 
politics, history, and biography. Other resources include a wide array 
of on-line systems used to provide nonpartisan, confidential, timely, 
and accurate information services to the Senate. The library also 
authors content for three Web sites: Legislative Information Service, 
Senate.gov, and Webster.

Notable Achievements
    Senate Library catalog available to all Senate staff via Webster.
    Web inquiries increased 73 percent and overall inquiries increased 
61 percent.
    Final design requirements for the off-site storage facility 
submitted to SAA.
    Adjourn time and vote information added to Floor Schedule on 
Senate.gov.

Information Services
            Research
    Legal, legislative, business, and general research is the library's 
primary mission. The complexity of research requests may require 
several hours of staff time and numerous resources, while working under 
strict deadlines. While these request totals are fewer than the Web-
based inquiries, they dominate daily library activity. This year the 
library answered 33,750 research inquiries that resulted in the 
delivery of 3,265 information packages. Activities supporting research 
requests included 2,747 faxes, 156,891 photocopies, and 6,945 pages 
printed from the microform collection. The library also loaned 2,165 
books and congressional documents to Senate offices. In addition, 371 
Senate staff established new borrowing accounts, bringing total 
accounts to 2,754.
    These research skills are critical in the librarians' ability to 
author material for three different Web sites. Since the 2002 redesign 
of senate.gov--the Senate's official public Internet site--the 
librarians have also become essential content providers, organizational 
consultants, and text editors. The 73 percent increase in visitors to 
library-authored online resources underscores the library's role in 
creating and delivering quality information products on the Web.
    Traditional inquires--which are telephone, fax, walk-in, and e-mail 
inquiries--plus visitors to library-authored Web resources increased 
total requests by 61 percent over last year.

                             TABLE 1.--SENATE LIBRARY INQUIRY HISTORY, 2000 TO 2004
                     [Traditional Requests and Visitors to Library-Authored Web Information]
----------------------------------------------------------------------------------------------------------------
                                                                                     Category
                                                                 -----------------------------------------------
                             Year(s)                                Traditional
                                                                  Phone, Fax, E-   Web See Table       Total
                                                                  mail & Walk-in   2 for details
----------------------------------------------------------------------------------------------------------------
2004............................................................          33,750         602,236         635,986
2003............................................................          46,234         348,198         394,432
2000-2002 Average...............................................          38,660           2,003          40,663
----------------------------------------------------------------------------------------------------------------

            Senate.gov
    The Senate Library's mission includes providing accurate, timely, 
and professionally organized information about the U.S. Senate on 
Senate.gov--the most widely read publication authored by the Office of 
the Secretary. The librarians' expert knowledge of the legislative 
process and sophisticated research skills are used to develop, 
customize, and deliver meaningful and relevant information. They are 
able to tailor information to meet the needs of various Web audiences 
and they possess the critical skills required to provide organized and 
meaningful content.
    Senate.gov accomplishments for 2004:
  --The Floor Schedule posted on the home page was enhanced this year 
        by including the adjournment time and a link to the day's 
        recorded votes, an expansion of the library's original 2003 
        mandate to publish the convene time and the Senate's daily 
        program. Prior to nightly posting of the interactive Schedule, 
        Senate staff were solely dependent upon cloakroom recorded 
        messages.
  --Librarians designed Statistics & Lists to provide easy access to 
        more than 80 lists of Senate information, including 28 that 
        detail senatorial biography and service records. Librarians 
        created a subject arrangement for quick access to the varied 
        lists. Topics range from Active Legislation (subject-organized 
        research aids providing bill numbers), to Senators who have 
        cast more than 10,000 votes, to books about art and 
        architecture in the U.S. Capitol.
  --Librarians researched and designed an historically important page 
        featuring links to the final Resume of Congressional Activity 
        for each year since the Resume was created in 1947. To maintain 
        currency, the latest monthly Resume is posted upon publication 
        in the Congressional Record. Web designers for both LIS and 
        THOMAS--the public site for legislative status information--
        quickly adopted the senate.gov Resume page to enhance their 
        existing content.
    The library's Web experience benefits offices under the Secretary 
needing to publish Internet information. The library designed a page 
for Senate Printing and Document Services that provides location, 
hours, and contact information, including an e-mail address for public 
document requests. The page also includes links to guides on 
identifying bill numbers and online texts of legislation, and provides 
definitions of the various categories of legislation. Librarians also 
coordinate with several Secretary's offices in the posting of monthly 
senate.gov articles, which complement Senate business. For instance, 
presidential cabinet nominations or an article announcing the United 
States Senate Catalogue of Fine Art, was prominently featured for Web 
visitors.
    The importance of long-range planning to meet the rapidly changing 
technical environment was the subject of a series of senate.gov vision 
meetings conducted this year. The meetings focused on four topics: the 
value of a taxonomy for site organization and content access; 
developing a structured workflow and standard editing style; acquiring 
appropriate software; and designating staff to support the expanding 
Web responsibilities.

   TABLE 2.--SENATE.GOV AND LIS VISITORS TO LIBRARY RESOURCES IN 2004
------------------------------------------------------------------------
                                                             Visitors
------------------------------------------------------------------------
Active Legislation on Senate.gov........................         213,014
Reference homepage on Senate.gov........................         281,836
Virtual Reference Desk on Senate.gov....................          86,637
Hot Bills List on LIS...................................          11,363
Appropriations Tables, Fiscal Year 1987-2005 on LIS.....           9,386
                                                         ---------------
      TOTAL.............................................         602,236
------------------------------------------------------------------------

            Legislative Information System (LIS)
    The Legislative Information System (LIS) serves as a gateway to 
electronic resources critical to the work of legislative branch staff. 
The Senate Library serves on an editorial committee with Congressional 
Research Service (CRS) staff tasked to meet the constantly changing 
information needs of legislative staff. The committee responds to 
congressional staff needs by adding features, reorganizing and 
improving content, and enhancing design elements. Among the library's 
most popular LIS products for Senate staff are the Hot Bills List and 
Appropriations Tables.
    The library is also working on improvements in LIS nomination and 
treaty chronologies. The project will ensure that all Senate hearing 
information is fully identified, regardless of when the hearing was 
conducted. The research and data entry strategies will be determined in 
2005.
            Webster
    A major accomplishment in 2004 was the establishment of Senate-wide 
access to the online library catalog via Webster--the Senate's 
Intranet--which required a coordinated effort by staff from the Office 
of the Secretary, the Sergeant at Arms, and the catalog vendor. On-site 
installation and reliability testing of the catalog began in January. 
The server was transferred to Postal Square in July, where subsequent 
security testing was completed before the October 25, 2004 official 
release. The catalog provides staff with desktop access to more than 
158,000 bibliographic records. These records include legislative 
materials dating from the 19th century, executive and judicial branch 
documents, and more than 35,000 books on the Senate, American history, 
politics, political biography, and legislative issues. Staff may 
request same-day book delivery via a catalog link. The catalog also 
provides full-text electronic access to selected congressional 
hearings, executive branch documents, and periodicals.
    The Webster home page announcement feature was successfully used to 
promote service seminars, National Library Week events, and the release 
of the library catalog. More than 150 staff attended the Webster-
announced events.

            Instructional Services
    The Information Services team serves as the Search Help Desk for 
the Front Page on Webster. Front Page is an information gateway to 
commercial databases such as LexisNexis, Westlaw, ProQuest, Leadership 
Directories, Congressional Quarterly, Bureau of National Affairs, 
National Journal, Federal Document Clearinghouse, Associated Press, and 
Reuters. This responsibility requires that each librarian maintain 
expert search skills and the ability to instruct staff in the use of 
these electronic resources.
    Library staff, in conjunction with the Joint Office of Education 
and Training (JOET), provide monthly LIS training sessions in which 
Senate staff are instructed in the latest electronic research 
strategies. Students learn efficient LIS search strategies for the 
Congressional Record, bill summary and status reports, roll call votes, 
and committee actions. As the LIS Help Desk, the library continues 
staff training by answering content and search strategy questions and 
providing personalized instruction. The JOET also requested the 
library's assistance in developing a survey to determine the best 
strategies for delivering information to Senate staff.

            Public Relations
    The library hosted 25 public relations events in 2004, including 
``Services of the Senate Library'' seminars, new staff and state staff 
orientations, Senate Page School seminars, and a Secretary of the 
Senate ``block party.'' The library also provided tours to several 
visiting groups, including Catholic University, University of Maryland, 
University of North Carolina, federal librarians, GPO staff, and a 
delegation from Japan.

Technical Services
            Acquisitions
    The library received 11,553 new acquisitions in 2004. Of this 
number, 7,523 were congressional documents, 3,314 were executive or 
judicial publications, and the remaining 716 items were books related 
to politics, American history, or biography. There were several major 
acquisitions in 2004, including 127 bound volumes of Senate and House 
bills from the 107th Congress; a 42-volume reprint of the Annals of 
Congress, containing the congressional debates from 1789-1824; and a 
significant portion of the 28 volumes of the John C. Calhoun papers.
    As a participant in the Federal Depository Library Program (FDLP), 
the library receives categories of legislative and executive and 
judicial branch publications from the Government Printing Office (GPO). 
In 2004, the library received 3,314 items through FDLP. The trend to 
distribute government publications electronically has significantly 
reduced the number of paper documents issued. GPO reports that 86 
percent of new government documents will only be distributed 
electronically. The library responded by adding more than 8,300 
government document links to the online catalog. The links provide 
Senate staff with immediate desktop access to the materials.
    A major project is the ongoing review of the items received through 
FDLP. During this fourth year of the project, 2,031 items were 
withdrawn from the collection and 1,660 (79 percent) of the items were 
donated to requesting federal libraries. The project's final phase 
improves document access by integrating executive branch documents with 
other collections under a single library classification system. This 
year the cataloging staff reclassified and integrated 326 government 
documents.
    The library's acquisitions committee meets monthly to review and 
approve all book purchases. The committee is composed of the Librarian, 
two reference librarians, and the acquisitions librarian. Library staff 
make recommendations to the committee through a Web-based selection 
tool that allows staff to suggest titles for possible purchase.

            Cataloging
    The library's highly productive cataloging staff draws on years of 
experience to produce and maintain a catalog of 158,111 items. During 
the year, 8,172 items were added to the catalog and an overall 8 
percent increase in titles cataloged was realized.
    Cataloging efforts in 2004 focused on historic treaties, Senate 
executive reports, and older Senate hearings. In many instances, the 
Senate's collection holds the only known copy of the document. This 
work contributed to a 33 percent increase over the previous year in 
cataloging historic material. As a result, the library contributed 636 
new personal and treaty name records through the Name Authorities 
Cooperative program (NACO), a total that exceeds that of many larger 
institutions. The privilege to participate in NACO recognizes the 
professional expertise of the library's catalogers.

            Offsite Storage and Collection Maintenance
    A warehouse facility, scheduled for completion in 2005, will 
provide the Senate with permanent, well-designed offsite storage. The 
facility will meet the library's long-term need to preserve the 
Senate's archival collections. The warehouse will provide storage for 
50,000 volumes, security and fire suppression, museum-standard humidity 
and temperature control, and air filtration. An archive of 20,000 
historic and rare congressional documents is scheduled for the initial 
transfer to the warehouse. To meet Continuity of Operations Plan (COOP) 
requirements, the warehouse will have access to the Senate network and 
telecommunications systems. Space for collections and equipment 
belonging to the Historical Office and Office of Conservation and 
Preservation will also be provided.
    An important preservation project in 2004 involved 19th century 
editions of the Annals of Congress--the official record of 
congressional debate from 1789-1824. Multiple sets were carefully 
examined to identify the best candidates for preservation. The selected 
sets were cleaned, wrapped, boxed, and labeled for eventual rebinding. 
Another aspect of collection maintenance is binding contemporary 
materials for permanent retention. These materials include the 
Congressional Record, Federal Register, and committee publications. In 
2004, five shipments of 685 volumes were processed for binding at GPO.
Administrative

            Budget
    Budget reductions in 2004 totaled $11,009.52. Eight years of 
aggressive budget monitoring has resulted in reductions totaling 
$70,940.37. Continual review of purchases has eliminated materials that 
do not meet the Senate's current information needs. This oversight is 
also critical in offsetting cost increases for core materials and for 
acquiring new materials. The goal is to provide the highest service 
level using the latest technologies and best resources in the most 
cost-effective way.

            Professional Staff Development
    During 2004, Library staff participated in 124 training sessions, 
workshops, conferences, tours, and professional development seminars. 
The emphasis on continuing education and training is necessary to 
maintain and upgrade skill levels, particularly in the ever-changing 
field of technology. In addition to classes on news and legal 
databases, staff attended technical training sessions that included Web 
design, Internet research, taxonomy construction, cataloging 
techniques, and book preservation. Senior staff also conducted several 
review sessions on the application of cataloging rules.
    Library staff toured the Senate Page School, the National Archives, 
and several Library of Congress divisions including Maps, Photographs 
and Prints, Loan, and Recorded Sound. Staff also attended several 
professional conferences including Computers in Libraries, Federal 
Depository Library, and the American Association of Law Libraries.

            Unum, Newsletter of the Office of the Secretary of the 
                    Senate
    Unum staff coordinated a photo of the entire Secretary's staff, the 
first since April 1994. The photo was published in the Autumn 2004 
issue. The Secretary's quarterly newsletter, produced by Senate Library 
staff since May 2000, is a continued success. With distribution to 
approximately 1,200 readers, Unum serves as an historic record of 
accomplishments, events, and personnel in the Office of the Secretary 
of the Senate.
Major Library Goals for 2005
    Acquire an XML editing tool for Web publishing.
    Implement an organizational structure for the library's home page 
on Webster.
    Complete integration of library resources onto the Secretary's 
network.
    Implement an LIS standard for committee hearing data entry.
    Transfer 20,000 volumes to the new warehouse.

                                             SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2004--ACQUISITIONS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                               Books         Government Documents          Congressional Publications
                                                      ----------------------------------------------------------------------------------------
                                                                                                                                     Reports/    Total
                                                        Ordered    Received    Paper      Fiche     Hearings    Prints     Bylaw       Docs
--------------------------------------------------------------------------------------------------------------------------------------------------------
January..............................................         25         67        275        103        192         15         74        113        839
February.............................................          5         30        176         76        204         14         68        112        680
March................................................         20         69        243        103        313         25        208        202      1,163
                                                      --------------------------------------------------------------------------------------------------
      1st Quarter....................................         50        166        694        282        709         54        350        427      2,682
                                                      ==================================================================================================
April................................................         14         70        171         56        212         15        138        292        954
May..................................................         33         75        167          0        334         27         88        158        849
June.................................................         18         51        151          6        331         20        119        192        870
                                                      --------------------------------------------------------------------------------------------------
      2nd Quarter....................................         65        196        489         62        877         62        345        642      2,673
                                                      ==================================================================================================
July.................................................         16         62        237          0        281         32         77        295        984
August...............................................         12         37        134        166        392         23         80        316      1,148
September............................................         15         42        222        242        233         14         61        354      1,168
                                                      --------------------------------------------------------------------------------------------------
      3rd Quarter....................................         43        141        593        408        906         69        218        965      3,300
                                                      ==================================================================================================
October..............................................         15         90        160         43        203         10        115        289        910
November.............................................         30         66        173         80        252         16         75        343      1,005
December.............................................         22         57        220        110        233          6         68        289        983
                                                      --------------------------------------------------------------------------------------------------
      4th Quarter....................................         67        213        553        233        688         32        258        921      2,898
                                                      ==================================================================================================
      2004 Total.....................................        225        716      2,329        985      3,180        217      1,171      2,955     11,553
      2003 Total.....................................        355      1,034      2,484        992      3,171        266        596      3,155     11,698
                                                      ==================================================================================================
Percent Change.......................................     -36.62     -30.75      -6.24      -0.71      +0.28     -18.42     +96.48      -6.34      -1.24
--------------------------------------------------------------------------------------------------------------------------------------------------------


                                              SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2004--CATALOGING
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                              Bibliographic Records Cataloged
                                                                      S.    ------------------------------------------------------------------
                                                                   Hearing              Government Documents     Congressional Publications      Total
                                                                   Numbers             -------------------------------------------------------  Records
                                                                   Added to    Books                                                  Docs./   Cataloged
                                                                     LIS                  Paper      Fiche     Hearings    Prints     Pubs.
--------------------------------------------------------------------------------------------------------------------------------------------------------
January.........................................................         21         97          5          0        327          7         20        456
February........................................................         39         16          1          0        188        108         60        373
March...........................................................         12         22          5          0        393          2         60        482
                                                                 ---------------------------------------------------------------------------------------
      1st Quarter...............................................         72        135         11          0        908        117        140      1,311
                                                                 =======================================================================================
April...........................................................          2         32          6          1        221          6         45        311
May.............................................................         15         30          4          0        267          0         65        366
June............................................................          5         33          2          0        284         19         65        403
                                                                 ---------------------------------------------------------------------------------------
      2nd Quarter...............................................         22         95         12          1        772         25        175      1,080
                                                                 =======================================================================================
July............................................................          3         24          8          0        338          2         35        407
August..........................................................         26         28          5          8        187          6         21        255
September.......................................................         24         81          5          0        277          4         75        442
                                                                 ---------------------------------------------------------------------------------------
      3rd Quarter...............................................         53        133         18          8        802         12        131      1,104
                                                                 =======================================================================================
October.........................................................         17         23          9          9        385          0         60        486
November........................................................         67         21         28          7        186          7         69        318
December........................................................          9         18         10         16        276          3         87        410
                                                                 ---------------------------------------------------------------------------------------
      4th Quarter...............................................         93         62         47         32        847         10        216      1,214
                                                                 =======================================================================================
      2004 Total................................................        240        425         88         41      3,329        164        662      4,709
      2003 Total                                                        221        618        159         81      2,713        490        294      4,355
                                                                 =======================================================================================
Percent Change..................................................      +8.60     -31.23     -44.65     -49.38     +22.71     -66.53    +125.17      +8.13
--------------------------------------------------------------------------------------------------------------------------------------------------------


                       SENATE LIBRARY STATISTICS FOR CALENDAR YEAR 2004--DOCUMENT DELIVERY
----------------------------------------------------------------------------------------------------------------
                                                                                     Micrographics  Photocopiers
                                                     Volumes  Materials  Facsimiles   Center Pages      Pages
                                                     Loaned   Delivered                 Printed        Printed
----------------------------------------------------------------------------------------------------------------
January...........................................       125        219        173           523         5,128
February..........................................       148        227         81           421         6,320
March.............................................       222        376        260           599         9,834
                                                   -------------------------------------------------------------
      1st Quarter.................................       495        822        514         1,543        21,282
                                                   =============================================================
April.............................................       152        288        160           318        11,705
May...............................................       210        283        158           143         8,444
June..............................................       195        308        208           707        12,818
                                                   -------------------------------------------------------------
      2nd Quarter.................................       557        879        526         1,168        32,967
                                                   -------------------------------------------------------------
July..............................................       193        322        235           640         5,435
August............................................       179        260        112           275         9,588
September                                                215        240        175           225         8,009
                                                   -------------------------------------------------------------
      3rd Quarter.................................       587        822        522         1,140        23,032
                                                   =============================================================
October...........................................       220        241        112           146         7,983
November..........................................       168        259        112           323         7,250
December..........................................       138        242        118           202         7,122
                                                   -------------------------------------------------------------
      4th Quarter.................................       526        742        342           671        22,355
                                                   =============================================================
      2004 Total..................................     2,165      3,265      1,904         4,522        99,636
      2003 Total..................................     1,664      4,078      2,747         6,945       156,891
                                                   =============================================================
Percent Change....................................    +30.11     -19.94     -30.69        -34.89        -36.49
----------------------------------------------------------------------------------------------------------------

                         11. SENATE PAGE SCHOOL

    The United States Senate Page School exists to provide a smooth 
transition from and to the students' home schools, providing those 
students with as sound a program, both academically and experientially, 
as possible during their stay in the nation's capital, within the 
limits of the constraints imposed by the work situation.

Summary of Accomplishments
    Accreditation by the Middle States Commission on Secondary Schools 
continues until December 31, 2008.
    Two page classes successfully completed their semester curriculum. 
Closing ceremonies were conducted on June 4, 2004, and January 14, 
2005, the last day of school for each semester.
    Orientation and course scheduling for the Spring 2004 and Fall 2004 
pages were successfully completed. Needs of incoming students 
determined the semester schedules.
    Extended educational experiences were provided to pages. Twenty-one 
field trips, two guest speakers, opportunities to compete in writing 
and speaking contests, to play musical instruments and vocalize, and to 
continue foreign language study with the aid of tutors of four 
languages were all afforded pages. Nine field trips to educational 
sites were provided for summer pages as an extension of the page 
experience. National tests were administered for qualification in 
scholarship programs as well.
    Effective and efficient communication and coordination among SAA, 
Secretary, Party Secretaries, Page Program, and Page School continues.
    The community service project embraced by pages and staff in 2002 
continues. Items for gift packages were collected, assembled, and 
shipped to military personnel in Afghanistan, Iraq, and the USO in 
Frankfurt, Germany where distribution of the boxes to troops en route 
to war zones take place. Pages included letters of support to the 
troops serving in Operation Enduring Freedom. Several recipients of 
gift packages wrote letters to Pages expressing appreciation.
    The evacuation and COOP plans have been reviewed and updated. Pages 
and staff continue to practice evacuating to primary and secondary 
sites.
    Staff and pages participated in escape hood training.
    Tutors were trained in evacuation procedures.
    Updated materials/equipment were purchased. These included math 
software, ten graphing calculators, supplemental English textbooks, a 
chemistry textbook, and three pieces of equipment to provide for 
computer experiments in science.
    Faculty have pursued learning opportunities. The entire faculty and 
principal attended a Learning and the Brain conference. Michael Bowers, 
history instructor, participated in a seminar conducted in 
Williamsburg, VA: ``The Unpleasantness in the Colonies: The American 
Revolution From A British Perspective.'' Raymond Cwalina, math 
instructor, completed three graduate courses in mathematics and 
attended an Advanced Placement calculus seminar. He also attended the 
regional and national conventions of the National Council of Teachers 
of Mathematics.
    Facility re-design to maximize space was completed.
    Upgrading science laboratory equipment was accomplished which 
allows computer labs to be performed and reduces quantities of supplies 
used.
Summary of Plans
    Our goals include:
  --Individualized small group instruction and tutoring by teachers on 
        an as-needed basis will continue to be offered.
  --Foreign language tutors will provide instruction in French, 
        Spanish, German, and Latin.
  --The focus of field trips will be sites of historic, political, and 
        scientific importance which complement the curriculum.
  --Staff development options will include attendance at a technology 
        conference, seminars conducted by the Joint Office of Education 
        and Training, and subject matter conferences conducted by 
        national organizations.
  --The community service project will continue.

                   12. PRINTING AND DOCUMENT SERVICES

    The Office of Printing and Document Services (OPDS) serves as 
liaison to the Government Printing Office (GPO) for the Senate's 
official printing, ensuring that all Senate printing is in compliance 
with Title 44, U.S. Code as it relates to Senate documents, hearings, 
committee prints and other official publications. The office assists 
the Senate by coordinating, scheduling, delivering and preparing Senate 
legislation, hearings, documents, committee prints and miscellaneous 
publications for printing, and provides printed copies of all 
legislation and public laws to the Senate and the public. In addition, 
the office assigns publication numbers to all hearings, committee 
prints, documents and other publications; orders all blank paper, 
envelopes and letterhead for the Senate; and prepares page counts of 
all Senate hearings in order to compensate commercial reporting 
companies for the preparation of hearings.

Printing Services
    During fiscal year 2004, the OPDS prepared 4,515 printing and 
binding requisitions authorizing the GPO to print and bind the Senate's 
work, exclusive of legislation and the Congressional Record. Since the 
requisitioning done by the OPDS is central to the Senate's printing, 
the office is uniquely suited to perform invoice and bid reviewing 
responsibilities for Senate printing. As a result of this office's cost 
accounting duties, OPDS reviews and assures accurate GPO invoicing and 
plays an active role in providing the best possible bidding scenario 
for Senate publications.
    In addition to processing requisitions, the Printing Services 
Section coordinates proof handling and job scheduling and tracking for 
stationery products, Senate hearings, Senate publications and other 
miscellaneous printed products, as well as monitoring blank paper and 
stationery quotas for each Senate office and committee. The OPDS also 
coordinates a number of publications for other Senate offices, from the 
Curator, Historian, Disbursing, Legislative Clerk, and Senate Library 
to the U.S. Botanic Garden, U.S. Capitol Police and Architect of the 
Capitol. These tasks include providing guidance for design, paper 
selection, and specifications for quotations, monitoring print quality 
and distribution. Last year's major printing projects included the 
Report of the Secretary of the Senate, the Semiannual Report of the 
Architect of the Capitol and a variety of printed materials required 
for the Presidential Inauguration including invitations, parking 
passes, maps, tickets and signage. The office also provided guidance 
and informational packets for new Senate office staff. Current major 
projects for the office include a full color version of the ``History 
of the U.S. Botanic Garden 1861-1991'' and the ``U.S. Senate Catalogue 
of Graphic Art'' a companion volume to the fine art catalogue produced 
by the Senate Curator's office in 2003.

Hearing Billing Verification
    Senate committees often use outside reporting companies to 
transcribe their hearings, both in-house and in the field. The OPDS 
processes billing verifications for these transcription services 
ensuring that costs billed to the Senate are accurate.
    During 2004, OPDS provided commercial reporting companies and 
corresponding Senate committees a total of 787 billing verifications of 
Senate hearings and business meetings. This translated to an average of 
41.4 hearings/meetings per committee, an eight percent decrease from 
2003, typical of an election year. Over 56,000 transcribed pages were 
processed at a total billing cost of approximately $367,000.
    The OPDS utilizes a program developed in conjunction with the 
Senate Sergeant at Arms Computer Division that provides more billing 
accuracy and greater information gathering capacity, and adheres to the 
guidelines established by the Senate Committee on Rules and 
Administration for commercial reporting companies to bill the Senate 
for transcription services. During 2004 the office reached its goal of 
increasing efficiency and accuracy by processing all file transfers 
between committees and reporting companies electronically. Department 
staff continue training to apply today's expanding digital technology 
to improve performance and services.

                                  HEARING TRANSCRIPT AND BILLING VERIFICATIONS
----------------------------------------------------------------------------------------------------------------
                                                                                                  Percent change
                                                       2002            2003            2004          2004/2003
----------------------------------------------------------------------------------------------------------------
Billing Verifications...........................             953             975             787            -8.0
Average per Committee...........................              50            51.3            41.4            -8.0
Total Transcribed Pages.........................          71,558          70,532          56,262            -8.0
Average Pages/Committee.........................           3,766           3,712           2,961            -8.0
Transcribed Pages Cost..........................        $471,807        $461,807        $366,904            -8.0
Average Cost/Committee..........................         $24,832         $24,288         $19,311            -8.0
----------------------------------------------------------------------------------------------------------------

    Additionally, the Service Center within the OPDS is staffed by 
experienced GPO detailees that provide Senate committees and the 
Secretary of the Senate's Office with complete publishing services for 
hearings, committee prints, and the preparation of the Congressional 
Record. These services include keyboarding, proofreading, scanning, and 
composition. The Service Center provides the best management of funds 
available through the Congressional Printing and Binding Appropriation 
because committees have been able to decrease or eliminate additional 
overtime costs associated with the preparation of hearings.

Document Services Distribution, Inventory & On Demand Publication
    The Document Services Section coordinates requests for printed 
legislation and miscellaneous publications with other departments 
within the Secretary's Office, Senate committees, and the GPO. This 
section ensures that the most current version of all material is 
available, and that sufficient quantities are available to meet 
projected demands. The Congressional Record, a printed record of Senate 
and House floor proceedings, Extension of Remarks, Daily Digest and 
miscellaneous pages, is one of the many printed documents provided by 
the office on a daily basis.

                                         CONGRESSIONAL RECORD STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                                       2002            2003            2004
----------------------------------------------------------------------------------------------------------------
Pages Printed:
    For the Senate..............................................          14,489          16,835          12,642
    For the House...............................................          15,201          16,259          14,243
                                                                 -----------------------------------------------
      Total Pages Printed.......................................          29,690          33,094          26,885
                                                                 ===============================================
Copies Printed & Distributed:
    To the Senate...............................................         439,953         307,917         227,192
    To the House................................................         301,383         441,735         331,165
    To the Executive Branch and the Public......................         532,813         449,750         323,957
                                                                 -----------------------------------------------
      Total Copies Printed & Distributed........................       1,268,603       1,199,402         882,314
                                                                 ===============================================
Production Costs:
    Senate Costs................................................      $6,339,539      $9,886,805      $7,961,741
    House Costs.................................................      $6,609,307      $9,563,592      $9,026,893
    Other.......................................................        $539,535        $693,141        $555,010
                                                                 -----------------------------------------------
      Total Production Costs....................................     $13,488,381     $20,143,538     $17,543,644
                                                                 ===============================================
Costs Per Copy Cost.............................................          $12.14          $16.79          $19.88
----------------------------------------------------------------------------------------------------------------

    Although accessing legislative documents through the Internet is 
popular, there is still a strong need for printed documents, especially 
for larger sized legislation like the omnibus conference reports. The 
OPDS continually tracks demand for all classifications of congressional 
legislation and twice yearly adjusts the number of documents ordered in 
each category to closely match demand. Document waste has decreased 
significantly over the past several years.
    The office supplements depleted legislative documents where needed 
by producing additional copies in the DocuTech Service Center which is 
staffed by experienced GPO detailees that provide Member offices and 
Senate committees with on-demand printing and binding of bills and 
reports. In March 2004, the office coordinated the installation of a 
new and improved DocuTech high speed digital copier and production 
publisher. This machine helps to decrease the quantities of documents 
printed directly from GPO and increases the ability to reprint 
documents on-demand on a larger scale. In 2004, the DocuTech Center 
produced 471 tasks for a total of 660,554 printed pages. The DocuTech 
is networked with GPO allowing print files to be sent back and forth 
electronically, which provides an advantage of quickly printing 
necessary legislation for the Senate floor and other offices in the 
event of a GPO COOP situation.
    The primary responsibility of the Documents Services Section is to 
provide services to the Senate. However, the responsibility and this 
office's dedication and assistance to the general public, the press, 
and other government agencies is virtually indistinguishable from the 
services provided to the Senate. Requests for material are received at 
the walk-in counter, through the mail, by fax, and online. In addition, 
the office handled over 20,000 phone calls in 2004 pertaining to 
document requests and legislative questions. Recorded messages, fax, 
and e-mail operate around the clock and are processed as they are 
received along with mail requests. The office stresses prompt, 
courteous and accurate answers to the various public and Senate 
requests.

                                  SUMMARY OF ANNUAL CUSTOMER SERVICE STATISTICS
----------------------------------------------------------------------------------------------------------------
                                                           Congress/    Public      FAX                 Counter
                      Calendar year                         session      mail     request     E-mail    request
----------------------------------------------------------------------------------------------------------------
2002.....................................................    107/2nd      3,637      1,866        662     55,930
2003.....................................................    108/1st      1,469      2,596        735     53,040
2004.....................................................    108/2nd      1,137      2,229        564     36,780
----------------------------------------------------------------------------------------------------------------

On-line Ordering
    The past year has brought significant changes in providing new 
services and improving existing ones. In 2004 many more Senate offices 
have taken advantage of the on-line blank paper ordering system 
implemented in 2003. With help from the Secretary's Office of Web 
Technology Department, OPDS expanded its content on senate.gov 
including new links to other sources of legislative information. The 
ability to order documents on-line, once reserved for staff only, has 
been opened for public use. The Legislative Hot List Link, where 
Members and staff can confirm arrival of printed copies of the most 
sought after legislative documents is still very popular. The site is 
updated several times daily--each time new documents arrive from GPO in 
the Document Room. The Office of Printing and Document Services 
continues to seek new ways to use technology to assist Members and 
staff with added services and improved access to information.

                      13. OFFICE OF PUBLIC RECORDS

    The Office of Public Records receives, processes, and maintains 
records, reports, and other documents filed with the Secretary of the 
Senate involving the Federal Election Campaign Act, as amended; the 
Lobbying Disclosure Act of 1995; the Senate Code of Official Conduct: 
Rule 34, Public Financial Disclosure; Rule 35, Senate Gift Rule 
filings; Rule 40, Registration of Mass Mailing; Rule 41, Political Fund 
Designees; and Rule 41(6), Supervisor's Reports on Individuals 
Performing Senate Services; and Foreign Travel Reports.
    The office provides for the inspection, review, and reproduction of 
these documents. From October 2003, through September 2004, the Public 
Records office staff assisted more than 2,000 individuals seeking 
information from reports filed with the office. Additional assistance 
was provided by telephone, and given to lobbyists attempting to comply 
with the provisions of the Lobbying Disclosure Act of 1995. A total of 
93,655 photocopies was sold in the period. In addition, the office 
works closely with the Federal Election Commission, the Senate Select 
Committee on Ethics and the Clerk of the U.S. House of Representatives 
concerning filing requirements.

Fiscal Year 2004 Accomplishments
    The Public Records office revised and improved the lobbying pages 
on senate.gov based upon recommendations of an independent survey of 
North American disclosure web sites. The office also completed 
transition to the next generation of server hardware. During the ricin 
incident, the office COOP plan was activated and operational in three 
hours.

Plans for Fiscal Year 2005
    The office intends to develop on-site redundancy in conjuncture 
with other offices under the Office of the Secretary that have scanning 
functions. The office also plans to modernize the on-site public access 
software.

Automation Activities
    During fiscal year 2004, the Senate Office of Public Records 
automated the Foreign Travel Reports filed under the Mutual Security 
Act of 1954. This is the first time that these records have been 
automated. The value to the Senate is that in the event of a COOP 
activation, they become easily accessible off-site.

Federal Election Campaign Act, as Amended
    The Act requires Senate candidates to file quarterly reports, and 
pre and post election reports in the case of candidates running for 
office in 2004. Filings totaled 4,677 documents containing 290,592 
pages.

Lobbying Disclosure Act of 1995
    The Act requires semi-annual financial and lobbying activity 
reports. As of September 30, 2004, 6,231 registrants represented 19,758 
clients and employed 30,402 individuals who met the statutory 
definition of ``lobbyist.'' The total number of lobbying registrations 
and reports was 51,496.

Public Financial Disclosure
    The filing date for Public Financial Disclosure Reports was May 17, 
2004. The reports were available to the public and press by Friday, 
June 11th. Copies were provided to the Select Committee on Ethics and 
the appropriate state officials. A total of 2,692 reports and 
amendments were filed containing 15,695 pages. There were 328 requests 
to review or receive copies of the documents.

Senate Rule 35 (Gift Rule)
    The Senate Office of Public Records has received over 1,392 reports 
during fiscal year 2004.

Registration of Mass Mailing
    Senators are required to file mass mailings on a quarterly basis. 
The number of pages was 519.

                          14. SENATE SECURITY

Introduction
    The Office of Senate Security (OSS) was established under the 
Secretary of the Senate by Senate Resolution 243 (100th Congress, 1st 
Session). The Office is responsible for the administration of 
classified information security programs in Senate offices and 
committees. In addition, OSS serves as the Senate's liaison to the 
Executive Branch in matters relating to the security of classified 
information in the Senate.

Personnel Security
    Five hundred twenty-three Senate employees held one or more 
security clearances at the end of 2004. This number does not include 
clearances for employees of the Architect of the Capitol nor does it 
include clearances for Congressional Fellows assigned to Senate 
offices. OSS also processes these clearances.
    In the past year, OSS processed 1,904 personnel security actions, a 
21.3 percent decrease from 2003. One hundred twenty-two investigations 
for new security clearances were initiated last year, and 61 security 
clearances were transferred from other agencies. Senate regulations, as 
well as some Executive Branch regulations, require that individuals 
granted Top Secret security clearances be reinvestigated at least every 
five years. Staff holding Secret security clearances are reinvestigated 
every ten years. During the past year, reinvestigations were initiated 
on 62 Senate employees. OSS processed 137 routine terminations of 
security clearances during the reporting period and transmitted 310 
outgoing visit requests. The remainder of the personnel security 
actions consisted of updating access authorizations and compartments.
    The length of time required for the Department of Defense (DOD) and 
the Federal Bureau of Investigation (FBI) to process Senate staff for 
security clearances has increased from 207 days to 260 days. The 
average time for investigations has increased by 25.6 percent relative 
to 2003. Since the previous increase for 2002 to 2003 was 66.7 percent, 
this represents a very significant increase in the last two years. The 
average time for an initial investigation conducted and adjudicated by 
the Department of Defense (DOD) is 256 days from the date that OSS 
requests the investigation until the letter from DOD granting the 
clearance is received in Senate Security. The average time for DOD 
initial investigations increased 30.6 percent. The periodic 
reinvestigation process averages 270 days, a increase of 2.7 percent 
relative to 2003. The average time for an initial investigation 
conducted by the Federal Bureau of Investigation (FBI) and adjudicated 
by DOD is 252 days while the periodic reinvestigation process averages 
264 days. The FBI times represent an decrease of 5.6 percent and 29.0 
percent respectively.
    Two hundred seven records checks were conducted at the request of 
the FBI. This represents a 4.0 percent increase in records checks 
completed by OSS.

Security Awareness
    OSS conducted or hosted 63 security briefings for Senate staff. 
Topics included information security, counterintelligence, foreign 
travel, security managers' responsibilities, office security 
management, and introductory security briefings. This represents a 20.3 
percent decrease from 2003.

Document Control
    OSS received or generated 2,802 classified documents consisting of 
86,109 pages during calendar year 2003. This is a 5.0 percent increase 
in the number of documents received or generated in 2003. Additionally, 
63,750 pages from 2,670 classified documents no longer required for the 
conduct of official Senate business were destroyed. This represents an 
18.2 percent decrease in destruction. OSS transferred 1,185 documents 
consisting of 43,970 pages to Senate offices or external agencies, up 
57.2 percent from 2003. These figures do not include classified 
documents received directly by the Appropriations Committee, Armed 
Services Committee, Foreign Relations Committee, and Select Committee 
on Intelligence, in accordance with agreements between OSS and those 
Committees. Overall, Senate Security completed 6,657 document 
transactions and handled over 193,829 pages of classified material in 
2004, a decrease of 0.4 percent.
    Secure storage of classified material in the OSS vault was provided 
for 107 Senators, committees, and support offices. This arrangement 
minimizes the number of multiple storage areas throughout the Capitol 
and Senate office buildings, thereby affording greater security for 
classified material.

Secure Meeting Facilities
    OSS secure conference facilities were utilized on 1,145 occasions 
during 2004. Use of OSS conference facilities decreased 16.7 percent 
from 2003 levels. Six hundred seventy-three meetings, briefings, or 
hearings were conducted in OSS' three conference rooms. Of those, nine 
were ``All Senators'' briefings and five were hearings. OSS also 
provided to Senators and staff secure telephones, secure computers, 
secure facsimile machine, and secure areas for reading and production 
of classified material on 472 occasions.

                          15. STATIONERY ROOM

    The mission of the Keeper of the Stationery is:
  --To sell stationery items for use by Senate offices and other 
        authorized legislative organizations.
  --To select a variety of stationery items to meet the needs of the 
        Senate on a day-to-day basis and maintain a sufficient 
        inventory of these items.
  --To purchase supplies utilizing open market procurement, competitive 
        bid and/or GSA Federal Supply Schedules.
  --To maintain individual official stationery expense accounts for 
        Senators, Committees, and Officers of the Senate.
  --To render monthly expense statements.
  --To insure receipt of reimbursements for all purchases by the client 
        base via direct payments or through the certification process.
  --To make payments to all vendors of record for supplies and services 
        in a timely manner and certify receipt of all supplies and 
        services.
  --To provide delivery of purchased supplies to the requesting 
        offices.

------------------------------------------------------------------------
                                            Fiscal Year     Fiscal Year
                                               2004            2003
                                            Statistical     Statistical
                                            Operations      Operations
------------------------------------------------------------------------
Gross Sales.............................      $4,740,221      $4,843,716
Sales Transactions......................          58,682          61,140
Purchase Orders Issued..................           6,741           7,545
Vouchers Processed......................           7,485           8,689
Metro Fare Media Sold...................          67,836          52,279
    $20.00 Media........................          60,564          46,260
    $10.00 Media........................           4,124           3,023
    $5.00 Media.........................           3,148           2,996
                                         ===============================
Full Time Employees (FTE)...............              13              13
------------------------------------------------------------------------

Fiscal Year 2004 Highlights and Projects
    Communications.--The Stationery Room stressed communication with 
the Administrative Managers Steering Group to keep in touch with the 
customers' needs.
    Flag Modernization Project.--The Stationery Room was tasked to 
serve on a committee with the other three business unit owners of the 
flag process. This effort was facilitated by staff of the Senate 
Sergeant at Arms and a consultant. The consultant was contracted by the 
SAA to outline all of the processes involved and to identify how each 
user of the process interacted with the other business unit owners. The 
consultant was also tasked to make recommendations to streamline the 
process.
    Mass Transit Electronic FORM.--During the first quarter of the 
fiscal year, the Stationery Room began a pilot project to expedite and 
streamline the purchase processes of the Mass Transit Subsidy Program. 
Evolving from the pilot, the concept was to develop a Web-based 
application that could provide the same functionality and ease of use 
by the Program Administrators, yet be supported within the Senate 
community. In cooperation with the SAA IT Development Group, the 
application was written as a Web-based product. This electronic version 
is now being deployed through the use of the Senate's intranet server.
    Computer Modernization Project.--During the first half of fiscal 
year 2004, Stationery Room staff spent considerable time working with a 
consultant to develop a requirements document, to outline the 
technological needs of the Department in order to move from technology 
now two decades old to a more robust application. As a result of the 
requirements document, in May 2004, Stationery Room staff began working 
with key staff members of the Secretary's Executive Office and the SAA 
Procurement staff to develop a ``Statement of Work'' to be used for the 
Request for Proposal phase and awarding of a contract. In September 
2004, a contract was executed to provide software tailored to the needs 
of the Senate Stationery Room.
    Warehouse Project.--The Senate Stationery Room has been involved in 
this long-term SAA project. The project mission was to determine the 
warehouse needs by each business user and then find a facility to meet 
those needs. Current usage, along with future requirements were 
determined with the assistance of SAA staff and consultants. 
Additionally, the Stationery Room took the opportunity to factor in 
COOP requirements that could support this department should a 
displacement occur.

                           16. WEB TECHNOLOGY

    The Office of Web Technology is responsible for web sites that fall 
under the purview of the Secretary of the Senate, including: the Senate 
Web site, www.senate.gov (except individual Senator and Committee 
pages); the Secretary web site on the Senate intranet, Webster; an 
intranet site currently used for file-sharing by Secretary staff only; 
and a LegBranch web server housing web sites and project materials 
which can be accessed by staff at other Legislative Branch agencies.
Senate Web Site (www.senate.gov)
    Senate Web site content is maintained by over 30 contributors from 
7 departments of the Secretary's Office and 3 departments of the 
Sergeant at Arms. Throughout 2004, senate.gov content providers focused 
on fine-tuning and reorganizing content for usability, based on 
personal experience and feedback from the public. Collaboration 
continued throughout the year resulting in the coordinated posting of 
monthly feature articles in the major areas of the site.
    Several new items were added to the site as well, including: A new 
subsection in the Reference Section called ``Statistics & Lists''; the 
Placement Office web page posting their brochure & employment bulletin; 
and a collection of several Classic Senate Speeches.
    Activities contemplated and/or underway at year's end include: A 
search feature, already available to Senate offices for use on their 
own sites; a redesign of the Homepage, bringing additional content up 
to the front page; several multimedia/animated presentations: The 
Political Cartoons of Puck--completed and soon to be posted; the 
Drawings of Lily Spandorf--75 percent complete; and Issac Bassett's 
papers Senate Desks Redesign and expansion of the Virtual Tour.
    The Senate Web site (www.senate.gov) content is managed using the 
Documentum Web Content Management System which allows content providers 
to create and post information to the web site without knowing the 
format language of the web, HTML. The Department of Web Site Technology 
completed several system-enhancing development projects in 2004.
  --Creation of a Java Servlet Page (JSP) Slideshow application
  --Development of templates for Statistical Tables
  --Authoring in XML--The Cloture Motions Project
  --Sending Graphic Art Prints Data to GPO
  --Upgrading Documentum 4i to Documentum 5i
  --Publishing to Webster from Documentum--the Library Catalogers 
        Project
    Below is a description of several projects and how specific 
problems were solved or the Documentum content management system was 
enhanced to provide more functionality for the content providers.

JSP Slideshow
    The Request: Several offices requested a slideshow application 
where images could be shown in an effective and interesting manner. The 
original template was designed for the Inaugural Print Objects the 
Curator's Office planned to exhibit for the inauguration.
    The Solution: All needed objects from the Curator's database were 
exported into an XML format. Then, using another style sheet, 
individual XML files and all associated files (five different-sized 
graphics for each print, and an XML file that contains descriptive 
information about the graphics and links the graphics to the CMS 
object) were created. This method was highly effective since it allows 
the Curator's Office to keep information only in one place and then 
offers unlimited repurposing of this information by sending the data in 
an XML format to the Content Management System.
    The Slideshow template makes an actual JSP, java servlet page, file 
that includes all necessary information about the slideshow. This 
project was the first time JSP technology was used on the Senate's 
central site, which was recently made possible through the upgrade of 
the Cold Fusion Application Server. Besides being able to offer users 
more interaction, and thus a more enjoyable web visit, using JSP 
technologies was also a proof of concept for using Java through Cold 
Fusion.
    Individual instances of the slideshow template were made for each 
inauguration in the exhibit, 1853-1905. The Curator's Office can easily 
modify the data in any part of the exhibit without knowledge of web 
technologies. The final aspect of this project was to make a slideshow 
of the slideshows, thus connecting each small slideshow into one large 
cohesive exhibit. This was done through the modification of the 
original slideshow template to allow seamless integration as users 
click through the exhibit.

            Moving Forward:
    The Curator's Office has already found other uses for the slideshow 
template, such as a timeline for the unveiling of two portraits in the 
Senate Reception Room and is now in the midst of an exhibit on Daniel 
Webster. The slideshow template has been enhanced in several different 
ways to allow for other purposes. The Historical Office used a simpler 
version for their Capitol Scenes: 1900-1950, on-line exhibit. The 
Historical Office also plans to use a slightly modified version of this 
same template for two upcoming online exhibits.
    Many more slideshows will be appearing on the Senate web site 
through the extension of the JSP Slideshow template.

            Examples:
    ``I Do Solemnly Swear'': A Half Century of Inaugural Images http://
www.senate.gov/artandhistory/art/common/image_collection/inauguration_
slideshow.htm
    Capitol Scenes: 1900-1950 RLINK"http://www.senate.gov/
artandhistory/history/common/slideshow/capitol_scenes.jsp" http://
www.senate.gov/artandhistory/history/common/slideshow/
capitol_scenes.jsp
    Vandenburg and Wagner Time Line http://www.senate.gov/
artandhistory/art/common/slideshow/vandenburg_wagner.jsp
    Daniel Webster Objects http://www.senate.gov/artandhistory/art/
common/slideshow/daniel_webster.jsp

Statistical Tables
    The Request: The Senate Library requested a way to post their 
statistical information online. None of the currently existing 
templates gave them the control they desired for their information.
    The Solution: New content templates were created specifically for 
tables. These ranged from two-column tables up to seven-column tables 
that offer controls to the content authors on how the information is 
displayed. For example, they can choose to have a print friendly 
version, if the information is applicable, or to include standard 
header information, which is encapsulated separately and thus reusable, 
or to display vertical lines to make the information more readable.
    This office worked very closely with the Senate Library to make 
these various table templates work for all their complex information 
needs. Through XML we are able to offer multiple renditions of the same 
information for different displays (i.e., viewing online, printing, or 
pdf formats). This solution greatly appealed to the librarians since it 
now enables them to update the information in just one file and have 
all the various presentations of this information updated automatically 
from their one source file.

            Moving Forward:
    The Senate Historical Office has plans to begin using these same 
templates to disseminate some of their data well suited for a table. 
Additionally, they would like to have more renditions made from the 
same data source, XML file, such as a rich text format (RTF) for 
internal use.
    The Senate Curator's Office has asked for the same abilities, 
arranging data in columns for some of their information. Pieces of the 
program for the original tables have been reused to accomplish their 
goals.

            Examples:
    Statistics & Lists Home Page (two-column) http://www.senate.gov/
pagelayout/reference/two_column_table/stats_and_lists.htm
    Measures Proposed to Amend the Constitution (three-column) http://
www.senate.gov/pagelayout/reference/three_column_table/
measures_proposed_ to_amend_constitution.htm
    Votes by Vice Presidents to Break Tie Votes in the Senate (four-
column) http://www.senate.gov/pagelayout/reference/four_column_table/
Tie_Votes.htm
    Sunday Sessions of the Senate (since 1861) (five-column) http://
www.senate.gov/pagelayout/reference/five_column_table/
Sunday_Sessions.htm
    George W. Bush Cabinet Nominations (six-column) http://
www.senate.gov/pagelayout/reference/six_column_table/Bush_cabinet.htm
    Inaugural Luncheons (Curator's Office) http://
wip.cmsprod.senate.gov/artandhistory/art/common/collection_list/
inaugural_luncheons.htm

Authoring in XML--The Cloture Motions Project:
    The Request: The Senate Library maintains statistical information 
on the various Cloture Motions filed during a Congress. This 
information is very complicated in terms of the special cases that 
occur with these proceedings. This statistical information is highly 
sought after and required in several different formats. Due to the 
complexity of this information none of the previously created table 
templates would suffice and a new solution was requested.
    The Solution: The seven-column table template was used as a base 
for the cloture motion tables. Using the advances made in the seven-
column table we were able to greatly reduce the development time of the 
cloture motion table template.
    One of the major obstacles to overcome was how to fit all the 
information within the normal width of the screen. We worked very 
closely with the Library Staff to find a solution acceptable to all. 
These solutions included using footnotes for certain sections, legends, 
hyperlinks to measures and bills, and customized codes for indenting 
and spacing issues. These are highly specialized tables that contain 
advanced business logic to most accurately display the information in a 
very useful manner.
    Since this information is so useful to a variety of organizations 
we also enabled the publishing of the XML document directly. This 
allows other groups to take the data maintained by the Senate 
librarians and to utilize the data in a manner most efficient for them 
(i.e., database querying and RSS feeds). Organizations can access this 
information online, so no files will need to be transferred through 
other means, and the most current information is always available.
    An additional advance accomplished through this project was the 
authoring of the XML data. Since many cloture motions may exist in a 
single Congress and each one can contain a great deal of information it 
became impractical to use the XML editor that came packaged with the 
Content Management System. We explored several other options for the 
librarians to edit the data and came up with two solutions that are 
acceptable to all offices involved.

            Moving Forward:
    Information that changes often, is displayed in several different 
formats, and that could possibly be used by other organizations is an 
excellent candidate for XML technologies. Creating the XML application 
that delivers Active Legislation/Hot Bills information to 
www.senate.gov and INK"http://webster"http://webster was a springboard 
for this application. As content authors experience the reduction of 
tedious work, updating the same information in many files, more and 
more of these types of XML applications will prove themselves 
invaluable. The Library is always adding additional categories of 
information they maintain that would be enhanced through these 
applications. Additionally, the Historical Office would like to keep 
similar information in a rich text format (RTF) to be used by word 
processors. This is a relatively simple extension of the already 
existing application.

            Examples:
    Cloture Motions--108th Congress http://wip.cmsprod.senate.gov/
pagelayout/reference/cloture_motions/test_108_2.htm
    Cloture Motions--108th Congress (Print Version) http://
wip.cmsprod.senate.gov/pagelayout/reference/cloture_motions/
test_108_2.shtml
    Cloture Motions--108th Congress (Raw XML Data) http://
wip.cmsprod.senate.gov/pagelayout/reference/cloture_motions/
test_108_2.xml

Graphic Art Prints to GPO
    The Request: The Curator's Office needed to provide to the 
Government Printing Office the information about their graphic art 
prints for the Senate Graphic Art Catalogue. All information about the 
graphic art objects is currently maintained in their database. The 
titles of each one of these objects are very specific and have many 
styles applied to them inside the database to ensure their proper 
presentation. Upon exporting this information all the style information 
was lost and would have needed to be reentered. This opened up the 
possibility of unnecessary additional work for the Curator.
    The Solution: An XML application was developed that was able to 
preserve the styles of the data, along with all other relevant 
information. The first step was to export the data into XML. Then, 
using FileMaker Pro's built-in website functionality, a web page 
displaying only the object titles was created. Using a product that 
automates computer keystrokes, a program was written to cycle through 
each title on the generated website, copying each title to a Word 
document (still preserving style data), advancing one record, and 
repeating the process until it traversed through all 1,000 Graphic 
Print Objects. The Word document containing the titles was converted to 
an XML file using a third-party product and was merged with the 
original XML data export, thus producing one XML file with all the 
style information preserved.
    The final XML file was transformed into a word document and a PDF 
file sent to GPO. Development of this automated conversion process 
greatly reduced the amount of work that needed to be performed, 
decreasing the time required to generate the necessary data and 
improving the quality of the data sent to GPO.

            Moving Forward:
    Since the Curator's Office uses a FileMaker Pro database, which 
produces XML reports, this was a great proof of concept of how we can 
manipulate the data into necessary forms. Some third party software was 
used due to the complexity of the project, but the knowledge gained of 
these add-on XML tools will assist toward solving complex formatting 
and printing needs in the future.

Library Catalogers Publishing to Webster
    The Request: The cataloging group in the Senate Library wished to 
have certain pdf files and graphics of book covers available to the 
Senate Community. They wanted something that was easy to use and thus 
did not require much training.
    The Solution: We added a new cabinet to the Content Management 
System just to be used by the catalogers. Next, we created a new web 
publishing configuration to push the content from the newly created 
cabinet to the Secretary's portion of http://webster. This required the 
installation of software on the Webster Server, which we accomplished 
by working closely with the developers and administrators of that 
server.

            Moving Forward:
    Establishing this link between http://webster and our Documentum 
Content Management System opens up many possibilities for the future. 
We now could utilize the same system to manage the Secretary's portion 
of Webster. This would enable non-technical employees to control the 
information disseminated to Senate Staff without involving a 
programmer. Additionally we can add more complexity for the catalogers 
as their needs grow.

Web Site Activity Statistics
            Senate Web Site Statistics
    In 2003, only 24 percent of visitors to the site saw the main 
Senate Homepage, the majority coming to the site via a bookmarked page 
(possibly directly to their Senator's site) or to a specific page from 
a search engine. That figure rose to 35 percent in 2004, as more people 
found the main Senate Homepage. Statistics on individual page activity 
show substantial increases in all areas of the main Senate site.
    In 2004 the number of visitors to the entire web site (Senators' 
and Committees' sites included) increased about 9 percent, however, the 
number of visitors to the Senate Homepage increased by 57 percent.

----------------------------------------------------------------------------------------------------------------
                                                                  2003 Visitors/  2004 Visitors/      Percent
                        Title of Web Page                              Month           Month         Increase
----------------------------------------------------------------------------------------------------------------
Visits--Entire Site.............................................       3,029,666       3,293,721               9
Senate Homepage.................................................         734,094       1,152,367              57
Senators Home...................................................         264,190         273,841               4
Legislation & Records Home......................................          65,904          84,765              29
Committees Home.................................................          60,747          73,147              20
Reference Home..................................................          20,593          23,486              14
Art & History Home..............................................          14,807          20,413              38
Visitors Home...................................................          12,095          16,123              33
----------------------------------------------------------------------------------------------------------------

    Reviewing statistics on web page usage help the content providers 
better understand what information the public is seeking and how best 
to improve the presentation of that data. The main Senate homepage and 
the homepages of the six subject areas (buckets) receive the most 
visits as people navigate around the site (see chart above). Within the 
buckets we find that visitors are consistently drawn to the following 
content items, listed in order of popularity.

----------------------------------------------------------------------------------------------------------------
                                                                                                      Percent
                          2004 Top Pages                          2003 Visitors/  2004 Visitors/  increase 2003-
                                                                       Month           Month           2004
----------------------------------------------------------------------------------------------------------------
Roll Call Votes.................................................          34,860          39,408              13
Leadership Page.................................................          12,789          17,469              37
Active Legislation List.........................................          12,311          17,751              44
Session Schedule for 2004.......................................          10,121          15,219              50
Organization Chart..............................................          11,405          14,140              24
Committee Hearing Schedule......................................          10,552          13,318              26
Bill and Resolutions Page.......................................           7,289          12,806              76
Statistics & Lists..............................................  ..............          12,005         ( \1\ )
Congressional Record Page.......................................           5,247          11,899             127
Virtual Tour of the Capitol.....................................           7,335          11,052              51
Individual States Page..........................................           5,437          10,139              86
Calendars & Schedules...........................................           7,425          10,081              36
Historical Office Page..........................................           5,341           9,608              80
Nominations Page................................................           6,682           8,813              32
Virtual Reference Desk..........................................           4,561           7,182              57
----------------------------------------------------------------------------------------------------------------
\1\ New in 2004.

Webster Statistics
    Statistics for the Secretary's web site on Webster, the Senate 
Intranet, show that the vast majority of visitors go directly to the 
Disbursing Office section. This section contains information on 
Employee Benefits (insurance, retirement, payroll, etc.) and provides 
access to the many forms employees need to complete to obtain or modify 
these benefits. Other popular items include the Office of Printing and 
Document Services Document Order and Print Order Forms, and the page 
that lists all Secretary of the Senate services.

E-Mail to the Webmaster
    The nature of e-mail to the webmaster has changed over the past two 
years. The improved site navigation has reduced, to only one or two a 
day, the number of questions regarding how to find information on the 
main site. In late 2003 improved error-handling was added to the site 
to prevent a visitor from getting the standard ``page not found'' error 
when a broken link was encountered. A message is now displayed that 
provides the Webmaster's e-mail address and the visitor is 
automatically directed back to the main Senate Homepage or the 
Senator's Homepage, depending on where the error occurred. Many 
visitors take the opportunity to write the Webmaster alerting us to 
broken links. This, in turn, has fostered more communication between 
this office and Senators' System Administrators as we work together to 
clean up the broken links on the entire site.

Search Engine Implementation
    In 2003 a search engine was installed, configured, and tested for 
senate.gov. In 2004 testing has continued, focusing on how to improve 
the search results by adding or editing metadata associated with the 
content items. It was hoped that more relevant and standardized 
keywords, and better descriptions and titles would improve the 
relevance ranking of the search results. Further research and 
investigation is required as to how to configure the search engine for 
best results. Meanwhile, the search engine has been made available to 
Senate offices for use on their own web sites.

Training
    In December 2004 the Web Site Technology staff and several content 
providers in the Secretary's office joined SAA staff in an onsite three 
day XML class. In addition to teaching valuable technical skills and 
familiarizing staff with XML tools, this class gave content providers a 
good understanding of the power and scope of XML.

              LEGISLATIVE INFORMATION SYSTEM (LIS) PROJECT

    The Legislative Information System (LIS) is a mandated system 
(Section 8 of the 1997 Legislative Branch Appropriations Act, 2 U.S.C. 
123e) that provides desktop access to the content and status of 
legislative information and supporting documents. The 1997 Legislative 
Branch Appropriations Act (2 U.S.C. 181) also established a program for 
providing the widest possible exchange of information among legislative 
branch agencies. The long-range goal of the LIS Project is to provide a 
``comprehensive Senate Legislative Information System'' to capture, 
store, manage, and distribute Senate documents. Several components of 
the LIS have been implemented, and the project is currently focused on 
a Senate-wide implementation and transition to a standard system for 
the authoring and exchange of legislative documents that will greatly 
enhance the availability and re-use of legislative documents within the 
Senate and with other legislative branch agencies. The LIS Project 
Office manages the project.

Background: LISAP
    An April 1997 joint Senate and House report recommended 
establishment of a data standards program, and in December 2000, the 
Senate Committee on Rules and Administration and the Committee on House 
Administration jointly accepted the Extensible Markup Language (XML) as 
the primary data standard to be used for the exchange of legislative 
documents and information.
    Following the implementation of the Legislative Information System 
(LIS) in January, 2000, the LIS Project Office shifted its focus to the 
data standards program and established the LIS Augmentation Project 
(LISAP). The over-arching goal of the LISAP is to provide a Senate-wide 
implementation and transition to XML for the authoring and exchange of 
legislative documents.
    The current focus for the LISAP is the development and 
implementation of an XML authoring system for legislative documents 
produced by the Office of the Senate Legislative Counsel (SLC) and the 
Office of the Enrolling Clerk. The XML authoring application is called 
LEXA, an acronym for the Legislative Editing in XML Application. LEXA 
features many automated functions that provide a more efficient and 
consistent document authoring process. The LIS Project Office has 
worked very closely with the SLC to create an application that meets 
the needs for legislative drafting.
    In early January 2004, LEXA was installed throughout the SLC, and 
the 40-member office of attorneys and staff assistants participated in 
a two-day training course, designed by a contractor, to transition from 
XyWrite to LEXA and from locator codes to XML. It takes several months 
for a drafter to learn to use XyWrite and the locator formatting codes. 
Following the two-day LEXA training course, SLC staff immediately began 
producing XML documents using LEXA, and the first XML draft to become a 
bill was introduced on January 22, 2004. The SLC first used LEXA to 
draft short and simple bills and resolutions, gradually adding longer, 
more complex documents. The SLC also offered valuable feedback 
throughout the year regarding LEXA's continued development as existing 
features were enhanced and additional document types, such as 
amendments and reported bills, were added to LEXA. Following the 
January training course, the contractor also created a reference 
manual. As new features were added to LEXA, the LIS Project Office 
continued to update the manual. The updated, comprehensive manual was 
distributed in January 2005. The manual provides screen shots and step-
by-step instructions for all LEXA features. The Office also developed 
additional training materials and provided a one day training session 
in December for all SLC staff on new LEXA features, including a one-
click process to change a document prepared for the 108th Congress to 
one for the 109th Congress. The SLC intends to use LEXA for as many 
drafts as possible and will gradually increase the number throughout 
2005. Through April 1, 2005, 75 percent of the 770 introduced and 
reported bills and resolutions for the 109th Congress have been created 
as XML documents.
    The LIS Project Office worked closely with several key House, 
Library of Congress, and Government Printing Office (GPO) groups 
involved in the XML project to ensure that changes to the House and 
Senate XML authoring applications do not adversely affect the exchange 
of electronic documents among all organizations processing the 
documents. A new document type definition (DTD) change and approval 
process was developed so that all parties have an opportunity to test 
and comment on all proposed changes to the exchange DTDs before changes 
are made and distributed.
    Another important joint project of Senate and House offices 
involves the conversion of locator documents to XML. The locator 
conversion software was recently updated to provide a more robust tool, 
and a joint project is underway to convert the compilations of current 
law to an XML format. The compilations are updated by both the House 
and Senate Legislative Counsel Offices and are used as the basis for 
many legislative drafts. The compilations conversion project will be 
completed by July 2005.
    As LEXA becomes more widely used in the SLC and other offices, 
support of the application becomes increasingly important. The 2004 
Legislative Branch Appropriations Act directed the GPO to provide 
support for LEXA much as they have for XyWrite for many years, and GPO 
has made steps toward providing that support. GPO purchased Xmetal, the 
base software, and installed LEXA in late July. In August, the LIS 
Project Office conducted two evenings of LEXA training for the second 
shift of GPO staff who support the bill printing process. GPO now uses 
LEXA to update XML documents as requested via the Senate Bill Clerk, 
and the XML drafts are used to create the printed and locator versions 
of bills. In October, GPO took over maintenance and support of the 
coding and style sheet portion of LEXA that converts an XML document to 
locator for printing through Microcomp. GPO has also developed a style 
sheet that is used to display XML documents on the LIS website 
(www.congress.gov) and on thomas.loc.gov. The XML display more closely 
resembles the printed version (without page and line numbers). House 
XML bills are currently being tested, and once a majority of Senate 
bills are available in XML, the Senate XML versions will be posted on 
LIS as well.
    The LIS Project Office provides support for LEXA via the LEXA 
HelpLine and LEXA web site. The HelpLine is provided through a single 
phone number that rings on all the phones in the office, and the 
website is located on a server accessible by the legislative branch. 
The website, legbranch.senate.gov/lis/lexa, is used to distribute 
updates of the application to GPO and provides access to release notes, 
the reference manual, and other user aids.
    The document management system (DMS) for the SLC will be 
implemented once the SLC has completed the transition from XyWrite to 
LEXA and a substantial number of drafts are created in XML. Since mid-
2004, the Systems Development Services group of the Office of the 
Sergeant at Arms has been working on updating the DMS to the most 
recent release of Documentum which was a major change for the base 
software of the DMS. The Systems Development Services group provides 
support and maintenance for the LIS/DMS, and that group will also 
support the DMS for the SLC once it is deployed. The LIS Project Office 
has been monitoring the upgrade effort and will contract for transition 
training to be developed and delivered prior to implementation. The DMS 
will be integrated with LEXA and will provide a powerful tracking, 
management, and delivery tool.
    The LIS Project Office will continue to work with the SLC to refine 
and enhance LEXA, including developing software to create and print 
conference reports and to use and update the XML versions of the 
compilations of current law. The team will next address the specific 
needs of the Office of the Enrolling Clerk. Additional functionality to 
produce engrossed bills and amendments and enrolled bills will be added 
to LEXA, and that office will receive training. Other Senate offices 
that do drafting with XyWrite may follow, including the Committee on 
Appropriations.
    The legislative process yields other types of documents such as the 
Senate and Executive Journals and the Legislative and Executive 
Calendars. Much of the data and information included in these documents 
is already captured in and distributed through the LIS/DMS database 
used by the clerks in the Office of the Secretary. The LIS/DMS captures 
data that relates to legislation including bill and resolution numbers, 
amendment numbers, sponsors, co-sponsors, and committees of referral. 
This information is currently entered into the database and verified by 
the clerks and then keyed into the respective documents and reverified 
at GPO before printing. An interface between this database and the 
electronic documents could mutually exchange data. For example, the 
LIS/DMS database could insert the bill number, additional co-sponsors, 
and committee of referral into an introduced bill while the bill draft 
document could supply the official and short titles of the bill to the 
database.
    The Congressional Record, like the Journals and Calendars, includes 
data that is contained in and reported by the LIS/DMS database. 
Preliminary DTDs have been designed for these documents, and 
applications could be built to construct XML document components by 
extracting and tagging the LIS/DMS data. These applications would 
provide a faster, more consistent assembly of these documents and would 
enhance the ability to index and search their contents. The LIS Project 
Office will coordinate with the Systems Development Services Branch of 
the Office of the Sergeant at Arms to begin design and development of 
XML applications and interfaces for the LIS/DMS and legislative 
documents. As more and more legislative data and documents are provided 
in XML formats that use common elements across all document types, the 
Library of Congress will be able to expand the LIS Retrieval System to 
provide more content-specific searches.

                        ARCHITECT OF THE CAPITOL

STATEMENT OF ALAN HANTMAN, ARCHITECT OF THE CAPITOL
    Senator Allard. I think we'll start, Mr. Hantman, with your 
testimony, and we may have to interrupt it shortly, but let's 
go ahead and see.
    Mr. Hantman. Thank you, Mr. Chairman. I, too, look forward 
to working with you as the new Chair of the subcommittee. 
There's an awful lot for us to talk about, and I certainly look 
forward to that opportunity to do so.
    I want to thank the subcommittee for its support in the 
past, without which we could not have completed many critical 
projects, continued to provide exemplary services, and assured 
continuity of operations in the U.S. Capitol, Senate office 
buildings, and throughout the Capitol complex.
    Mr. Chairman, the AOC has served Congress since 1793, the 
year President Washington helped lower the cornerstone into 
place and construction of the Capitol began. Today, the AOC's 
responsibilities include the care and maintenance of nearly 300 
acres and approximately 15 million square feet of historic 
buildings, which will soon include the Capitol Visitor Center.

                ARCHITECT OF THE CAPITOL STRATEGIC PLAN

    When we implemented our strategic plan 2 years ago, we 
developed four goals that guide us in setting priorities when 
submitting budget requests, balancing our workload, and 
assessing and measuring our accomplishments. As we work to 
achieve these goals, we evaluate our efforts to improve and 
excel in growing as an organization; thereby, meeting and 
exceeding customer expectations. Accordingly, we're requesting 
$506 million across all AOC-managed appropriations to provide 
operations and renovation activities, while also focusing on 
security, upgrading fire and life-safety elements, and 
addressing customers' requests and priorities.

                    FISCAL YEAR 2006 MAJOR PROJECTS

    Major capital projects included in this budget are the 
construction of Library of Congress storage modules 3 and 4 
that you mentioned, the planned construction of the U.S. 
Capitol Police offsite delivery center, the installation 
upgrade of fire and life-safety and security measures, 
completion of additional fire egress and protection projects, 
and a variety of other renovations and upgrades throughout the 
Capitol complex.
    Noteworthy, of course, is the Capitol Visitor Center 
project, which is the largest addition to the U.S. Capitol in 
its history, increasing the size of the existing building by 
some 70 percent. Included in the 580,000 square foot center is 
the construction of 170,000 square feet of expansion space for 
the Senate and House. Construction completion of the visitor 
center portion of the project is scheduled for September 2006.
    With regard to the Senate office buildings, in fiscal year 
2004 we completed 45,892 work orders requested by Senators and 
their staffs. So far this fiscal year, we have completed some 
22,250 Senate work orders to date. In addition, we've been 
working on a number of priority projects, including modernizing 
elevators, upgrading public restrooms, opening and maintaining 
the Senate staff exercise facility, completing election year 
moves in record time, and renovating, restoring, and upgrading 
several committee rooms to accommodate state-of-the-art 
equipment.
    With the increased need for perimeter security measures, 
we're installing new security features throughout Capitol Hill. 
In addition to bollards and other features compatible with 
Senate building design installed to date along Constitution 
Avenue, we anticipate similar installations to complete the 
outer Senate perimeter over the next 2\1/2\ years.

                       EMPLOYEE FEEDBACK PROGRAM

    Our strategic plan contains two goals which focus on our 
employees, while providing the highest-quality services. One of 
our objectives was to develop a comprehensive employee feedback 
program. Accordingly, in September 2004, I invited more than 
300 employees from across the AOC to participate in 25 focus 
group sessions. We asked them to identify problems and 
challenges, to help us find ways to solve them, and to make 
improvements within the organization. In October 2004, the 
Human Resources Management Division surveyed all employees, 
asking them to pinpoint specific areas where we needed to 
improve customer satisfaction. Our employees spoke, and we are 
listening.
    Over the next several months, we will be rolling out action 
plans, meeting with our employees to address the issues they 
raised, and share concerns, ideas, and suggested solutions with 
one another to continuously improve the organization.
    In conclusion, over the past several years, the AOC has 
undergone significant change, and we have reaffirmed our 
commitment to providing superior services for the Congress and 
the American people. My team of 2,000 dedicated employees and I 
are committed to fulfilling our objective, to ensure our 
continuous improvement across all of our areas of 
responsibility.
    Our request for funds for fiscal year 2006 supports our 
activities as good stewards to maintain and preserve the 
national treasures under our care, as well as to respond to our 
customers' requests for priority projects and programs. In 
addition, we continue to strive to achieve the level of safety, 
security, preservation, and cleanliness expected across the 
Capitol complex.
    We have completed tens of thousands of work orders, to our 
clients' satisfaction, and have achieved many of our goals due 
to the hard work and dedication of AOC employees. I am very 
privileged and honored to lead such a professional team. The 
subcommittee's support in helping us achieve these goals is 
greatly appreciated.

                           PREPARED STATEMENT

    Once again, I thank you for this opportunity to testify 
today. I'd be happy to answer any questions you might have. And 
good morning, Senator Durbin. Thank you for your support.
    [The statement follows:]
              Prepared Statement of Alan M. Hantman, FAIA
    Mr. Chairman, Senator Durbin, members of the Committee, thank you 
for this opportunity to testify today. I want to thank the Committee 
for its support, without which we could not have completed many 
critical projects, continued to provide exemplary services, and assured 
continuity of operations in the U.S. Capitol, in the Senate Office 
Buildings, and throughout the Capitol complex.
    The Office of the Architect of the Capitol (AOC) has served 
Congress since 1793--the year President George Washington helped 
tradesmen lower the cornerstone into place and construction of the U.S. 
Capitol began. Since that time, the men and women who make up the AOC's 
workforce have focused on preserving, maintaining, and enhancing the 
national treasures entrusted to us. Today our responsibilities include 
the care and maintenance of approximately 300 acres and nearly 15 
million square feet of historic buildings, with the newest increment of 
growth being the upcoming Capitol Visitor Center (CVC).

                           STRATEGIC PLANNING

    When we implemented our Strategic Plan two years ago, we developed 
four goals that encompass the primary responsibilities of our 
organization. They are: Facilities Management, Project Management, 
Human Capital, and Organizational Excellence. These goals drive our 
day-to-day activities. They guide us in setting priorities with regard 
to submitting budget requests, balancing our workload, and assessing 
and measuring our accomplishments. As we work to achieve these goals, 
we evaluate our efforts so we continue to excel, meet and exceed 
expectations, and grow as an organization.

                       OVERVIEW OF BUDGET REQUEST

    The AOC fiscal year 2006 budget incorporates the needs of our 
clients, including the Library of Congress and the U.S. Capitol Police. 
We believe we have met the challenge of building a budget that supports 
stewardship of our national treasures, while balancing fiscal 
responsibility and the needs of the Congress. Our fiscal year 2006 
budget was developed to continue to provide routine operations and 
renovation activities while also focusing on security, upgrading fire 
and life-safety elements, addressing clients' requests and priorities, 
and identifying operational, transitional, and cost-to-complete needs 
associated with the CVC.
    Accordingly, we are requesting $506 million across all AOC managed 
appropriations ($438 million not including items specific to the House) 
for fiscal year 2006 to support the maintenance, care, and operations 
of the buildings and grounds of the Capitol complex, which consists 
primarily of the Capitol, Senate and House Office Buildings, Library of 
Congress, U.S. Capitol Police headquarters, Botanic Garden, and Capitol 
Power Plant. This includes a request for an operating budget of $280 
million ($242 million not including operations specific to the House), 
$17 million for annually funded projects, $137 million for capital 
projects ($107 million not including items specific to the House), $37 
million for the completion of the construction of the CVC, and $35 
million to transition to operating the CVC.

                            OPERATING BUDGET

    The request for an operating budget of $280 million (less CVC 
operations) includes mandatory payroll increases; price level 
inflationary increases for materials, services, and utilities, and 
other general operations increases. Additional increases in our 
operating budget incorporate client-driven requirements for leases of 
facilities and related operations and maintenance costs.

                         ANNUAL PROJECTS BUDGET

    The fiscal year 2006 budget for annually funded projects totals $17 
million. Noteworthy proposed annual projects include: Copyright Office 
Move/Reconfiguration for the Library of Congress Buildings ($5.5 
million); Conservatory Claim for the Botanic Garden ($3.5 million); 
Restoration of East Front Bronze Doors for the Capitol Building 
($702,000); and the Upgrade Filtration Efficiency Project for the 
Library of Congress Buildings ($700,000).

                        CAPITAL PROJECTS BUDGET

    Two key elements used in preparing our capital budget are the 
Capitol Complex Master Plan and the Facility Condition Assessments 
(FCAs). The Capitol Complex Master Plan identifies preservation and 
maintenance requirements for proposed new facilities, while FCAs 
determine preservation and maintenance requirements for existing 
facilities. Based on the Capitol Complex Master Plan and FCAs, all 
proposed and existing facility requirements feed into the Capital 
Improvement Plan (CIP) which prioritizes and incorporates project needs 
over a five-year period (fiscal year 2006 through fiscal year 2010).
    Accordingly, the CIP process was utilized in determining the fiscal 
year 2006 Capital Projects multi-year request of $122 million, $72 
million of which directly addresses specific client needs. Noteworthy 
proposed capital projects include:
  --The Library of Congress Modules 3 & 4 ($40.7 million) entailing the 
        construction of two environmentally-controlled storage 
        buildings to be located in Fort Meade for the storage of 
        Library of Congress collections.
  --The U.S. Capitol Police Off-Site Delivery Center ($23 million) 
        which includes the acquisition of land, design, and 
        construction of an off-site delivery facility.
  --Life-safety and security projects ($14.5 million) which include 
        requirements for emergency exit signs and lighting upgrades, 
        upgrades to air filtration systems, and building upgrades to 
        address other life-safety issues.
  --Fire egress and protection projects ($12.6 million) which address 
        deficiencies in egress from buildings, stairwells, and fire 
        wall boundary protection.
  --Renovation projects ($24.7 million) to include renovations in 
        emergency electrical service, refinishing historic woodwork, 
        legislative call system upgrades, restroom upgrades, high-
        voltage switchgear replacement, and heating ventilation/air 
        conditioning replacement.

                     CAPITOL VISITOR CENTER BUDGET

    The CVC project is the largest addition to the U.S. Capitol in its 
history. Included in the 580,000 square foot Visitor Center is the 
construction of 170,000 square feet of expansion space for the Senate 
and House. Building a major underground three-story facility, adjacent 
to the world's most recognizable symbol of democracy, which is a fully 
functioning office building, conference center, and museum, is truly a 
significant challenge. The project is now 55 percent done and scheduled 
for completion in fall 2006.
    Many obstacles have been faced since we broke ground in 2000. Yet, 
despite these challenges, our project team recently met a critical, 
major milestone. On January 20, 2005, President Bush exited the Capitol 
onto the Rotunda steps where he reviewed the troops marching across the 
new granite pavers installed across the East Front Plaza, thereby 
continuing an Inaugural tradition.
    The Sequence 1 contractor responsible for excavation and structural 
work has essentially completed its tasks. The Sequence 2 contractor has 
been working to install fireproofing, masonry block, interior wall 
stone, mechanical ductwork, and piping. The award of construction 
contracts is imminent for the exhibit space and the Senate expansion 
space.
    My budget request for the CVC consists of several major components, 
the most significant being the construction cost-to-complete of $36.9 
million. While no Congressional decision has been made regarding 
governance, startup and operational costs of $15.3 million are 
anticipated. Therefore, until such decision is reached, the AOC has 
included these expenses in its budget submission. This incorporates 
initial estimated costs associated with the daily care, maintenance 
activities, operation of the facility, and associated payroll and 
benefits costs. Additionally, the multi-year project budget of $20 
million supports the required activities and programs for the 
transitional and start-up costs for visitor services, exhibits, food 
services, gift shops, telecommunications, and information technology 
infrastructure support.
    Mr. Chairman, the progress made on the CVC in just the past 12 
months has been remarkable. At the same time, the Capitol building has 
been open, fully functional, and accommodating of Members and staff, as 
well as the visiting public throughout construction and during these 
times of heightened security. When the CVC opens, it will complement 
and support the U.S. Capitol as the ``People's House,'' offering free 
and open access for all people so they may learn about, and experience, 
our legislative process.

                  SENATE OFFICE BUILDING IMPROVEMENTS

    In fiscal year 2004, we completed 45,892 work orders in the Senate 
Office Buildings. To date, we have completed nearly 22,250 work orders 
in fiscal year 2005. In addition, we have been working on a number of 
important projects including:
  --Modernizing elevators.--The Hart Office Building Elevator 
        Modernization Project was completed in December 2004, six 
        months ahead of schedule and on budget. The Russell Office 
        Building elevators have been completely modernized. The Dirksen 
        Office Building Elevators Cab Modernization Project will begin 
        this summer.
  --Upgrading public restrooms.--The Hart Office Building northwest 
        restroom stack and the Dirksen Office Building north stack was 
        completed last year. Currently, the Dirksen Office Building 
        basement level restrooms are under construction, which will be 
        followed by the ground floor restrooms, which will complete the 
        renovations in that building. There are two remaining stacks to 
        be completed in the Hart Office Building, which will begin this 
        year and be completed in fiscal year 2006.
  --Staff Exercise Facility.--In May 2004, our office opened the Senate 
        Staff Exercise facility.
  --Russell Office Building Basement Corridor Renovation.--The 
        renovation of the C Street corridor of the Russell Office 
        Building was completed and the Delaware Avenue corridor is 
        currently being renovated.
  --Renovation of the Dirksen Swing Suite Space.--The renovation of 
        this space provides for the consolidation of support functions 
        and adds two swing suite spaces thus improving the temporary 
        office conditions for newly-elected Senators and speeding the 
        Senate move process.
  --Election Year Moves.--Election year moves were completed on 
        February 26--the earliest we have ever accomplished this task.
  --Committee Room Renovations.--Room 106 in the Dirksen Building and 
        Agriculture Committee Hearing Room were completely renovated to 
        upgrade the infrastructure, and add state-of-the-art sound and 
        video capabilities, while at the same time, preserving the 
        historic architecture of the rooms. In fiscal year 2005, five 
        committee rooms will be renovated, followed by an additional 
        five in fiscal year 2006.

                            CAPITOL BUILDING

    The U.S. Capitol has been the stage for several high-profile events 
this past year. In June 2004, the world's eyes turned to us as we bid 
farewell to President Ronald W. Reagan. Our employees, working together 
with Congressional leadership and other Legislative branch 
organizations, did a tremendous job to ready the building and grounds 
for the respectful and historic lying-in-state ceremonies.
    In January, the West Front of the Capitol was readied for the 55th 
Presidential Inaugural ceremony. Our team worked diligently to design, 
plan, and construct the platform; contract for the sound system, 
Jumbotron screens, and ramps and crossovers; install security fencing 
and crowd control features; set up 28,000 chairs; build the media 
platform; hang flags, draperies, and bunting; prepare Statuary Hall for 
the inaugural luncheon, and draft a contingency plan to move the 
ceremony to the Rotunda in case of inclement weather. Most importantly, 
on January 19, we worked throughout the night to remove all the snow 
from the Grounds, leaving a pristine setting for the Inaugural on the 
East and West Fronts of the Capitol.
    In fiscal year 2004, we completed more than 20,000 work orders in 
the Capitol Building. To date this fiscal year, we have completed more 
than 10,000.

                          CAPITOL POWER PLANT

    An on-going project, designed to meet the current and future needs 
of the Capitol complex, is the expansion of the West Refrigeration 
Plant at the Capitol Power Plant. This project addresses the advancing 
age of the East Refrigeration Plant, and the need to reliably meet 
future cooling requirements of the expanding Capitol complex. The 
chilled water capacity will be online by November 2005, with the 
overall project scheduled for completion in April 2006. When finished, 
the expanded facility will enable the Capitol Power Plant to reliably 
meet cooling requirements through 2025 and will significantly increase 
overall plant efficiency.
    In addition to addressing future energy needs, the Power Plant 
staff is also working to beautify the facility and the grounds 
surrounding it. This month, we began efforts to install 20-foot-wide, 
brick-paved sidewalks, which will be shaded by two rows of trees, 
alongside the Plant's newly-created park area. In addition, a 
decorative wrought iron fence will be erected to replace the security 
fence now surrounding the Power Plant. The AOC has been working closely 
with the Ward 6B Advisory Neighborhood Committee, the National Capital 
Planning Commission (NCPC), and other agencies to improve and transform 
the South Capitol Street corridor into a grand urban boulevard.

                           PERIMETER SECURITY

    With the increased need for permanent security measures throughout 
the Capitol complex, we are installing effective, aesthetically-
pleasing, perimeter security features on Capitol Hill. Senate perimeter 
security efforts completed over the last year include the installation 
of bollards along Constitution Avenue, extending from the Russell, 
Dirksen, and Hart Senate Office Buildings. We also installed 14 
hydraulic vehicle barriers stations in Constitution Avenue. Over the 
next year, we anticipate installing the remaining bollards and vehicle 
barriers that complete the outer Senate perimeter.

                            PROJECT DELIVERY

    We have taken several steps to improve our project delivery. Last 
September, we established a pilot Project Management organization 
comprised of project managers, construction managers, and construction 
inspectors. The proposed alignment establishes clear performance 
expectations for delivering projects on time and within budget now that 
the project and construction management functions reside, for the first 
time, within the same organization.
    A good design equals good construction. Construction management is 
intrinsically linked to project management. Through this new project 
management organization and process, we will ensure that the design and 
construction teams interact daily. This alignment is endorsed by the 
Government Accountability Office (GAO) to, ``align project management 
staff and resources with AOC's mission-critical goals.''
    In accordance with our Strategic Plan, an annual ``lessons 
learned'' exercise is conducted for projects identified by our clients. 
During this time a comprehensive assessment of each project is 
undertaken to apply lessons learned to future projects and facilitate 
continuous improvement.

                HUMAN CAPITAL/ORGANIZATIONAL EXCELLENCE

    Our Strategic Plan contains Human Capital and Organizational 
Excellence goals which focus on employees and providing the highest 
quality services to both our internal and external clients through 
improved business programs, processes, and systems.
    One of our objectives under the Human Capital Strategic Plan goal 
was to develop a comprehensive employee feedback program that will 
utilize focus groups, surveys, and other related mechanisms. In 
September 2004, I invited more than 300 employees from across the AOC--
all divisions, levels, and shifts--to participate in 25 focus group 
sessions. We asked them to identify problems, help us to find ways to 
solve them, and make improvements within the organization. In October, 
the Human Resources Management Division (HRMD) asked all employees to 
share their opinions in a customer satisfaction survey. The questions 
focused on the services HRMD provides and how well they deliver those 
services.
    By coupling the feedback and the survey results, we were able to 
pinpoint specific areas where we needed to take action. In other words, 
our employees spoke and we listened.
    They told us that we needed to do a better job communicating, that 
we needed to provide clearer, easier-to-understand information, and 
that we needed to better explain work processes, policies, and 
procedures. They also indicated that we needed to provide clearer 
direction with regard to expectations and job performance, and 
recognize employee accomplishments more often. These issues also 
applied to setting internal standards so our employees receive 
satisfactory customer support from our Human Resources, EEO, and other 
service organizations.
    Over the next several months, we will be rolling out action plans 
and meeting with employees to address the issues they raised. This 
effort will help us to continue to foster an environment where we can 
share concerns and ideas with one another to continue to improve the 
organization.

                            EMPLOYEE SAFETY

    One area we continue to make great strides in is our effort to 
reduce the injury and illness rate. I am pleased to report that for the 
fourth consecutive year, our rate decreased dramatically. During fiscal 
year 2004, we saw a 26 percent reduction in the injury and illness 
rate. Since fiscal year 2000, this rate has been reduced by 67 percent 
and is now below the Federal average.
    We attribute this reduction to a number of initiatives, including 
inspections of project worksites, daily safety discussions in our shops 
at the beginning of each shift, the posting of monthly safety messages 
throughout our shops and offices, active participation by employees in 
our Jurisdictional safety committees, and most importantly, to the 
constant diligence of each AOC employee and supervisor who is committed 
to doing their job safely and correctly. To assure that our employees 
have the requisite skills and equipment needed to do their jobs safely, 
I will continue to maintain robust training and safety budgets.
    While I am very proud of my workforce and our past accomplishments, 
I will not be satisfied until we achieve our ultimate goal of a 
workplace free of injury and illness. Toward this end, I have 
challenged my colleagues to reduce the injury rate by an additional 10 
percent. I look forward to reporting on our progress toward an injury- 
and illness-free workplace to this Committee next year.

                               CONCLUSION

    Over the past several years, the AOC has undergone significant 
change, and we have reaffirmed our commitment to providing high-quality 
service to Congress and the American people. In its August 2004 report 
to Congress, the GAO indicated that:
  --``AOC has made progress in preparing agency-wide financial 
        statements; supporting an audit of its September 30, 2003, 
        balance sheet; and establishing related internal control 
        policies and procedures.''
  --``. . . AOC has made progress addressing employee communications by 
        developing a number of policies and procedures, such as a 
        strategic communications plan, a draft employee feedback 
        manual, a customer satisfaction survey manual, and a focus 
        group guide.''
  --``Our January 2003 report provided AOC with recommendations for 
        establishing and implementing an effective information security 
        program. In our January 2004 report, we noted that AOC had made 
        progress toward implementing these recommendations.''
  --``AOC has fulfilled our worker safety recommendation by developing 
        performance measures to assess the long-term impacts and trends 
        of workers' compensation injuries and costs.''
  --``During the six-month review period, AOC took steps to develop the 
        Capitol Complex Master Plan.''
  --``AOC made progress in the development of its environmental program 
        and its movement toward a more strategic approach. In 
        particular, AOC has completed the baseline assessment as well 
        as the waste stream analysis for its facilities and 
        operations.''
    Although we still have much more to accomplish as outlined in our 
Strategic Plan, GAO has noted, ``organizational transformation does not 
come quickly or easily and the changes underway at the AOC would 
require a long-term, concerted effort.'' My team and I are committed to 
fulfilling our responsibilities over the long-term to ensure that our 
transformation continues as planned.
    Our request for funds for fiscal year 2006 is in direct response to 
our responsibility to maintain and preserve the facilities under our 
care, as well as to respond to our customers' requests for priority 
projects and programs. In addition, we continue to strive to achieve 
the level of safety, security, preservation, and cleanliness expected 
across the Capitol complex. We have completed tens of thousands of work 
orders to our clients' satisfaction and have achieved many of our goals 
due to the hard work and dedication of AOC employees. I am very 
privileged and honored to lead such a professional team.
    The Committee's support in helping us achieve these goals is 
greatly appreciated. Once again, thank you for this opportunity to 
testify today. I'd be happy to answer any questions you might have.

    Senator Allard. I'd like to also welcome Senator Durbin. I 
had indicated earlier, Senator Durbin, that, when you arrived, 
we'd give you an opportunity to make some opening comments if 
you wish. And then, also, I just wanted to thank both Ms. 
Reynolds and Mr. Hantman for taking the time to testify here 
before us today.
    We're ready to move to a question and response period, but 
I wanted to give you an opportunity to present your opening 
statement first. So why don't you proceed?

                 STATEMENT OF SENATOR RICHARD J. DURBIN

    Senator Durbin. Mr. Chairman, first let me welcome you to 
the subcommittee.
    Senator Allard. Thank you.
    Senator Durbin. It's an honor to serve with you. I think 
you are the third Chair that I've served with on this 
subcommittee, and I'm looking forward to working with you. And 
in the interest of time, let me put my statement in the record, 
and you can go straight to questions, and I'll follow you.
    [The statement follows:]

            Prepared Statement of Senator Richard J. Durbin

    Mr. Chairman, first of all I'd like to welcome you, 
Chairman Allard, to the Legislative Branch subcommittee. I had 
the pleasure of working with your former colleague from 
Colorado, Senator Campbell, as the last Chairman of this 
subcommittee and I look forward to working with you.
    Thank you, Mr. Chairman, for scheduling today's first 
budget oversight hearing of fiscal year 2006 where we will hear 
testimony on the budget requests of the Secretary of the Senate 
and the Architect of the Capitol.
    I want to join the Chairman in welcoming today's witnesses, 
Emily Reynolds, Secretary of the Senate, and Alan Hantman, 
Architect of the Capitol.
    Thanks to both of you for attending this morning.
    Ms. Reynolds, welcome back to the subcommittee for your 
third year as Secretary of the Senate. I think that you and 
your staff are doing a superb job and your budget request looks 
very straightforward.
    My staff and I greatly appreciate your guidance and 
leadership in the CVC decision-making progress. I realize that 
this is a long, difficult, and at times frustrating process. 
Your dedication and determination are very admirable.
    I would appreciate any comments you might wish to include 
with regard to the CVC.
    Mr. Hantman, good morning and welcome. Your budget request 
this year is $506 million, which is an increase of $156.5 
million or 44 percent over fiscal year 2005 enacted. I realize 
that a large portion of your request is for Library of Congress 
and Capitol Police project items. All in all, your operating 
budget request seems fairly straightforward.
    I was encouraged to read that the rate of accidents and 
injuries within the Architect's office continues to improve. 
This has been a major area of concern to me, as you know, and I 
am glad to see these numbers are coming down so dramatically.
    I hope you will talk a little about the Capitol Visitor 
Center project. I hope you will update the Subcommittee on when 
you believe the CVC will open and what the final cost will be. 
I realize that the project has grown in size and scope from the 
original design when we broke ground back in 2000, but I don't 
think those changes account for the magnitude of the delay and 
cost overruns.
    Last year, I asked you if you thought the spring 2006 
estimated completion date for the CVC was accurate. While I 
don't recall your answer off-hand, I think I know what your 
answer would be if I asked you the same question today. So now 
I'd like to ask you if you think the fall 2006 date is 
accurate. In your testimony you state that since breaking 
ground in 2000, the CVC is now 55 percent complete. I find it 
hard to believe that the remaining 45 percent of this project 
can be finished in the next 17 months.
    Mr. Hantman, as you know, this subcommittee is responsible 
for providing adequate funding to complete AOC projects such as 
the CVC. However, in order to do that, it is critical that we 
receive the most accurate information available from you and 
your staff. It appears that the Government Accountability 
Office has been far more effective than your office in 
providing accurate information to the members of this 
subcommittee and our staffs on your funding requests.
    I was very concerned to read a February 23, 2005 article 
from ``The Hill'' newspaper entitled, ``Fear and Loathing at 
the AOC,'' which addressed the results of a 22-page survey 
taken by 300 of your employees. I hope that you and your 
management team are making every effort to address the 
allegations of abuse and mismanagement alluded to by these 
employees. It troubles me that some long-standing issues at AOC 
continue to exist, such as poor communications and very low 
morale. You are responsible for 2,000 employees. It is critical 
that these employees feel they can trust you and your front 
office. Without the trust and confidence of your employees, you 
cannot effectively run this organization.
    Finally, Mr. Hantman, I'm eager for you to update the 
Subcommittee on your progress in making the Capitol complex a 
safer work environment.
    Thank you Mr. Chairman.

                       INAUGURAL ADDRESS EFFORTS

    Senator Allard. Very good, thank you.
    Ms. Reynolds, you did mention, in your testimony, that you 
did a lot of work on the inaugural, and I want to just thank 
you, your staff and the Architect of the Capitol, for your work 
during the Inaugural Address. I think it was a very successful 
effort, and I think most Members appreciate all the fine work 
that went into that. And I just think that's worth mentioning 
at this particular point in time.
    Which leads me into a question, Ms. Reynolds, what were all 
your responsibilities in coordinating that effort? I'd like to 
know some of the challenges you faced. We just had an election, 
and then we had the inaugural in January. And if you can share 
some challenges with us, we'd appreciate it, perhaps suggestion 
of what might be done differently at the next inaugural.
    Ms. Reynolds. No, I appreciate that. We certainly took our 
lead from the Joint Committee on the Inaugural, from Senator 
Lott and his team. And I think one thing that we found--
clearly, the Joint Committee did a beautiful job, and came, to 
us with the numerous things that were needed. I think, for us, 
one legacy I'd like to leave behind is a very distinct record 
of the precise things that the Secretary's office is involved 
with in that inaugural effort. For example, the official 
reporters of debates actually have a position on the platform 
so that they're there to transcribe the inaugural. For me, it's 
the first time I've been through that, while, again, the 
institutional memory, that important part of our staff that 
have been here for years, they know the things they do every 4 
years, but we found that it wasn't in our own operation in any 
sort of concise record.
    One thing I'd like to leave behind for the next Secretary 
is that concise record of exactly what expectations that a 
joint committee on the inaugural will have for us. The second 
piece of that is, we were delighted to work with the committee 
on the inaugural luncheon, which is staged in Statuary Hall. 
That was a huge effort on the part of our staff; again, taking 
the lead from Senator Lott and his team. But they did an 
extraordinary job in executing the lunch. And, most especially, 
the Curator's Office takes the lead in whichever historical 
painting is displayed at that luncheon, which is a reflection 
of the theme of the inaugural itself.
    So, we're involved in a variety of different levels, a 
variety of different ways. It was a learning experience for me, 
as well. And I would add, also, that many of our staff, and 
myself included, had the opportunity and the high honor to 
serve as escorts that day; again, assisting the Joint 
Committee.
    So, we play in this at a variety of different levels. Some, 
were well informed going in; others, learned along the way. But 
with the Joint Committee providing the leadership, I think 
we're even better prepared to step up to the plate in the next 
4 years and have that clear and concise knowledge, of precisely 
what our role is.

      CURATORIAL ADVISORY BOARD AND PRESERVATION BOARD OF TRUSTEES

    Senator Allard. You mentioned, in your testimony, the new 
boards, the Curatorial Advisory Board and the Preservation 
Board of Trustees. What, specifically, are you doing to promote 
the efforts to the Senate community and beyond that these two 
boards were set up to carry out?
    Ms. Reynolds. Thanks for asking that, because this is 
such--as I said, it's such an important initiative for all of 
us. And much of this really is an education process, it's a 
building process. The Curatorial Advisory Board, again, as I 
mentioned--12 really outstanding individuals, 13 counting our 
curator, who serves as its chair--they have already been a 
significant help to us in helping us identify possible 
acquisitions, in spreading the word, with all of them as 
professionals, whether it's from Monticello, Winterthur, the 
retired White House curator--their network of associates, 
people they've worked with through the years, has already been 
very helpful to us in identifying some possible acquisitions, 
and we've relied on their counsel very heavily already.
    The Preservation Board, which, as I said, will meet in 
May--I'm anxious for that meeting--again, an esteemed group of 
individuals, who will come at this from both a business 
perspective, a philanthropic perspective--so I'm interested in 
working with them, at their first meeting, to begin to paint 
that blank canvas, if you will, of what specific direction that 
board takes.
    Within our Senate community, we unveiled the Brumidi oil 
sketch that I mentioned, very recently, thanks to Senator 
Stevens, in the President pro tempore's office, and Roll Call 
covered that. We've done a feature in our Secretary newsletter 
of UNUM, which we do every quarter, and will continue to 
educate our own community about the efforts underway. And, 
again, through both of these boards, people who have a reach, 
not only within our Senate community, but certainly well 
beyond, I anticipate that we'll continue to see renewed 
interest in the possibility of both returning some historic 
artifacts to the Senate that perhaps we've lost through the 
years, and also pinpointing acquisitions that will reflect the 
history and the tradition of this institution.

                         CHANGING TECHNOLOGIES

    Senator Allard. Technology is changing all our lives 
rapidly, both at home and, I think, here in the Capitol. And 
I'll have to admit that I have a certain fixation for high 
technology, myself, and am not reluctant to step into some of 
the challenges of new technology in my own personal office. I'm 
curious to know how you stay on top of those advances, and 
then, once you decide to bring them in, how can we be assured 
that they're going to operate as advertised.
    Ms. Reynolds. Well, probably, to the latter portion of your 
question, the best way we're assured that they operate as 
advertised is the feedback from our own Senate community, and 
that's why having folks, for example, like the administrative 
managers involved with our FMIS, the various pilot projects 
that we roll out. Having folks involved early on to help us in 
knowing what works and what doesn't is key.
    But, quickly, I would say, in terms of how we stay abreast 
of technological developments, it's really threefold.
    First of all, we have, internally, a top-notch information 
systems department that's on the cutting edge and that helps 
us, across the board, in remaining there and providing that 
sort of service internally to the Secretary's office.
    Second of all, our department heads are all continually 
looking for better ways to do business, whether it's, as I 
said, working through the process of putting the library 
catalog online, to something as simple as providing an online 
service for individuals to order their paper through printing 
and document services, but, again, those simple things that now 
can be done with the click of button, if you will. And our 
department heads are very much involved in that process.
    And, finally, again, part of that collaborative effort, 
since our Sergeant at Arms takes the lead on technology in the 
Senate, we, again, work very closely with them on technological 
advances. They're a huge help to us in that regard.
    Senator Allard. Now I would like to go ahead and call on 
Senator Durbin. And Mr. Chairman, I'm glad that you're able to 
join us this morning, chairman of the Appropriations Committee, 
Senator Cochran.

                             SENATE CLERKS

    Senator Durbin. Thank you, Mr. Chairman.
    Ms. Reynolds, thank you for being here, and thank you for 
your service to the Senate.
    In your capacity, you're responsible for the professional 
staff that supports our legislative activity in the Senate. The 
clerks process the work we perform on the floor. What is the 
current status of that group, in terms of hires and 
qualifications and vacancies?
    Ms. Reynolds. Right now, we are fully staffed on that 
legislative team. And I appreciate you asking about them, 
because they are really, in so many ways, the quiet, unsung 
heroes of the Senate. You know, because you're there, the hours 
that they put in on a daily basis. And, at the end of the day, 
when the Senate adjourns, when those four bells go off, their 
work, in essence, really begins, in so many ways. They return 
to their offices to prepare the Calendar of Business, the 
Executive Calendar, to complete the transcriptions and send 
those to the Government Printing Office for the printing of the 
Congressional Record overnight, the completion of the Daily 
Digest, which, of course, is completed in that record. So it 
really is a remarkable team.
    But it's important, with that team, because of the 
importance of the Senate's constitutional responsibilities, to 
make sure that we have a balance of Senate professionals, many 
of whom have 20 plus years of experience in that team, and also 
constantly bring in fresh blood--younger people, if you will, 
folks who are here to serve the Senate in a nonpartisan way, 
and hopefully make it a career so that we have that continuity.
    It's so important on that team, when you look at--in the 
fact that, within the last two decades, there have been 11 
Secretaries, so you see the importance of that institutional 
memory, that constant learning process. For example, in one of 
our departments, where we knew we had a retirement coming in a 
very critical position, we began the transition process, if you 
will, the succession planning, 1 year in advance, so that we 
were assured, on the day that that individual departed, we 
weren't going to miss a beat; again, in that very critical 
service. So we try to look--we try to look to the future, we 
remain as constant as we possibly can; again, recognizing that 
your constitutional responsibilities are first and foremost in 
our minds.

                     STUDENT LOAN REPAYMENT PROGRAM

    Senator Durbin. And, of course, in addition to long hours 
and important job responsibilities, they face the cruel and 
unusual punishment of listening to our speeches all day, so 
they deserve some recognition and reward for that. How is the 
Student Loan Repayment Program coming along?
    Ms. Reynolds. It's coming along. It's growing.
    Senator Durbin. Tell me how you use it.
    Ms. Reynolds. The legislation specifies that the program be 
used for retention and recruitment; and, that, of course, is 
the byword for the Senate offices. As you well know, with each 
Member as his or her own employing office, it is up to each 
office, at the current time, to decide how they administer the 
program. And you and I have spoken about this before in--I 
think, at last year's hearing. We conducted a fairly in-depth 
survey now about 1 year ago. We had 60 something odd offices, 
out of the 140 in the Senate, respond. But we found, obviously, 
great support for the program. We found that folks--they set 
their parameters in different ways as to how they employ the 
program. Many require at least 6 months of service before the 
individual is eligible for the student loan. Some set various 
and different caps within the office as to how much they 
actually give for the loan. I think the amount is up to $500. 
But that will vary among offices. So the administration of it 
is actually driven by each individual office.
    What we are constantly looking for are ways to streamline 
the process, because it can be a cumbersome process. And, to be 
honest, you know, sometimes we're chasing up to as many as 100 
lenders, if you will, to make sure those payments are going to 
the right place. And, obviously, loans, of course, within the 
industry are constantly being sold and repackaged. That's a 
challenge for us. And within the course of the last few months, 
we've introduced a paperwork process that we hope will help 
both the disbursing office and the individual receiving the 
loan.
    We currently have just under 900 individuals participating 
in the program, at a cost of about just over $3 million to the 
Senate right now. And, at last report, Senator Durbin, we had 
about 126 offices participating. That's roughly the same number 
as the previous year.

                       RETENTION AND RECRUITMENT

    Senator Durbin. What has been your personal experience 
about the retention and recruitment angle? When I first brought 
this up, it was in the hopes that student loan repayment would 
be an incentive for good, talented graduates to come work here 
on Capitol Hill and not be discouraged by the, perhaps, lower 
startup pay than they might find in another place, or to retain 
those who enhance their education, and we'd like to keep on and 
use their talents. So what has your experience been in that?
    Ms. Reynolds. I think, again, I'm going to refer back to 
the surveys that we received, because that's one area that we 
specifically addressed in the surveys of the offices. Many 
offices--and, again, this is anecdotal evidence--but they 
mentioned to us instances where they wanted to hire--you know, 
an office wanted to hire a young lawyer, obviously who had 
significant bills from law school, and they said, frankly, that 
without the opportunity to use that as a recruitment tool, they 
might have lost that talent somewhere else; again, because of 
the pay structure here.
    So while much of this is anecdotal evidence, it was very 
strong anecdotal evidence that the offices take that retention 
and recruitment tool seriously, as do we in the Secretary's 
office, as well. So we employ the program, as well, and use it 
in the same ways.
    Statistical evidence, hard to come by on that; but the 
anecdotal evidence from the offices, very positive in using it 
as a tool.
    Senator Durbin. Mr. Chairman, I don't know, maybe it's been 
2 or 3 years since we've had this, and it kind of started in an 
odd way; let a thousand flowers bloom, we said to each office, 
``Here's what we're--here are the goals. See how they work with 
your policies, personnel policies.'' I'm hoping that we can 
gather this information and maybe harmonize some of this. I 
don't want a top-down rulemaking procedure, but if there are 
ways to put in some safeguards, to avoid abuses, to make sure 
there's no waste, to enhance the initial goals of the program, 
I'd like to do that, too.
    Thank you, Ms. Reynolds.
    Ms. Reynolds. We look forward to working with you on that. 
Thank you, sir.
    Senator Durbin. Thank you.
    Senator Allard. Well said. And I would note that we do have 
a lot of people here today that are part of the office of the 
secretary, the parliamentarian, enrolling clerk, Senate 
security, and they do a tremendous job. I don't know how they 
keep the place running sometimes, but they're able to do it, 
and with a good deal of grace and finesse, keeping a lot of big 
egos happy, and they're to be commended for their job.
    Mr. Chairman.
    Senator Cochran. Mr. Chairman, thank you very much. 
Congratulations to you are in order for----
    Senator Allard. Thank you.
    Senator Cochran [continuing]. Your assuming the 
chairmanship of this important subcommittee. We welcome you, 
not only to the Committee on Appropriations, but in your new 
undertaking as chairman of this subcommittee, and we look 
forward to working closely with you and trying to support you 
in every way.
    Senator Allard. Thank you.

          THE SENATE DISBURSING OFFICE, ``THE FRONT COUNTER''

    Senator Cochran. Welcome to the subcommittee, Ms. Reynolds 
and Mr. Hantman. We appreciate very much your cooperation with 
our Legislative Branch Appropriations Subcommittee and the good 
work that each of you do in carrying out your responsibilities.
    These are very important jobs. I am impressed. When I read 
the summary of your responsibilities, I always come across some 
item of information that surprises me. Today, for example--and 
I don't know why I had overlooked this in the past--I found out 
that the front counter is the place where the financial 
business of the Senate is handled, and that's under the 
jurisdiction of the Secretary. Could you tell us what the 
origin of the phrase ``the front counter'' is?
    Ms. Reynolds. That is a great question, and I'm going to 
defer to our financial clerk, Tim Wineman, to answer that.
    Mr. Wineman.
    Mr. Wineman. It is literally just that, a front counter. It 
kind of resembles an old banking organization. We used to be 
located in the second floor of the Capitol Building, right down 
from the Senate Chamber, and there was a huge counter that 
Senators and staff would come in to conduct daily business with 
the Disbursing Office, and we'd have staff behind the counter. 
And it's just evolved over the years as, kind of, the receiving 
point for the work that comes in from the Senate offices. 
General business is conducted there, inquiries, new staff are 
sworn in there, financial transactions, as far as issuing cash 
advances for travel. So it's kind of similar to a bank lobby 
atmosphere, and it literally is just that, there's a big 
counter there, and that's the term that's been used over the 
years.
    Senator Cochran. But it doesn't function as the House Bank 
used to.
    Mr. Wineman. No, sir.
    Senator Cochran. No.
    I just want to be sure that----
    Mr. Wineman. In fact, I'd like to be very clear on that.
    Having been here during that time, and there was a 
significant amount of publicity, no, it does not function as 
the House Bank.
    Senator Cochran. Right. Well, it is, obviously, an 
important responsibility, and the offices are physically 
located in the Hart Senate Office Building?
    Mr. Wineman. First floor of the Hart Building, yes, sir. We 
were asked to move a number of years ago, after spending a lot 
of time in the Capitol, when we--we literally outgrew the space 
that was in the Capitol building. And so, when the Hart 
Building was opened, in 1982, we moved over there and are 
located on the first floor, yes, sir.
    Senator Cochran. Well, we appreciate your good work in 
supervising that operation.
    Mr. Wineman. Thank you, sir.
    Senator Cochran. Is there sufficient request in the budget 
for the operation of the front counter?
    Mr. Wineman. Yes, sir. The Secretary has been very 
supportive of, not only the entire Disbursing Office, but our 
front-counter operation, as well.
    Senator Cochran. That's great. Well, we thank you for that 
explanation and information.
    Mr. Wineman. Yes, sir.
    Senator Cochran. Now, could I ask a question of the 
Architect?
    Senator Allard. You may, Mr.----
    Senator Durbin. Mr. Chairman, would you yield for a moment?
    Senator Cochran. Sure.
    Senator Durbin. I just wanted to make a record here that 
when I was elected to the Senate, in 1996, and came to sign up 
for my payroll, they said, ``You've worked here before,'' and I 
said, ``Yes, I was an intern here in 1966, 30 years ago.'' And 
they said, ``Yes, we kept your file,'' and they brought it out.
    So pretty good file work there.
    Senator Cochran. Very good, thank you.

                         CAPITOL VISITOR CENTER

    Mr. Hantman, thank you for being here and participating in 
this exercise, too. I think the biggest challenge you're facing 
is the new visitor center. I appreciate very much your taking 
time to take me on a tour recently and show me the work that 
was in progress. It is really quite an impressive undertaking. 
And, of course, it's very expensive, as well.
    What efforts are you making to try to hold down the costs? 
I hear rumors about overruns and schedule deadlines not being 
met. What are you personally trying to do to help get control 
over that project?
    Mr. Hantman. Mr. Chairman, it is, as you know, a very 
complex project. And perhaps what we can best explain it by 
using some things that I don't expect you to be able to 
visualize or see very clearly from the dais.
    If we could just set up a board or two over here.
    This project, as you know, Mr. Chairman, has evolved since 
its inception. The budget for the CVC was first set in 1998. We 
talked a little bit about the inaugural, with the Secretary a 
little while ago, and the inaugural that we just celebrated was 
really key to how the entire visitor center was framed.
    Before I get into that, if I may, I think I would be 
remiss, if I could----
    Senator Cochran. Well, I'd just rather for you to 
succinctly respond to the question that I asked, rather than go 
into the history and the description of the project in detail. 
That'll come later, I'm sure, when the chairman is asking 
questions.
    Mr. Hantman. Well, we have a full-time accountant on the 
job, Mr. Chairman. Every change order or any purchase order 
that comes on through is reviewed by our accounting group. Our 
project executive, Mr. Bob Hixon, who is behind me right now, 
reviews all of those, and we make sure that we pay only those 
that are really appropriate and that we authorized the work for 
in the first place.
    What we are trying to do is get the remaining contracts on 
the street and awarded as soon as we can, because the inflation 
rate continues to rise. And if we can award them, we can hold 
the rates that we currently have; otherwise, we might have to 
rebid areas such as the expansion spaces for the Senate, for 
the House, for the exhibition areas, for the tunnel under the 
House office--House Capitol side of the connector.
    So we're trying to move forward as quickly as we can to 
make sure that we lock in the prices and the bids that we have 
at this point in time, to make sure that the contractors 
understand that we're going to be holding them to their 
responsibilities, as well, and that we monitor that effectively 
on a day-to-day basis.
    Senator Cochran. Thank you very much.
    Thank you, Mr. Chairman, for the opportunity to be here and 
participate in the hearing.
    Senator Allard. Well, thank you, Mr. Chairman. And I 
appreciate you taking a personal interest in this. I had an 
opportunity to have a tour by Mr. Hantman.
    I thought it was a very good tour. I'm, like you, very 
impressed with the scope of the facility. I look forward as I 
think many members do, at getting into that facility. The 
sooner we can get there, the better I think everybody will 
feel.

           BUDGET AND CAPITAL IMPROVEMENTS PLAN (CIP) PROCESS

    I know that it's a particular challenge for you, Mr. 
Hantman. You are requesting a pretty sizeable increase--45 
percent--over the current budget. That type of increase does 
catch the attention of all of us. How have you scrubbed that 
budget? Have you tried to set priorities within the budget so 
that if we're unable to meet your request, where would you 
recommend that we make reductions?
    Mr. Hantman. Mr. Chairman, you alluded, in your opening 
statements, on the issues of project management and master 
planning, two very key areas, in terms of improving our control 
and our projections on what the costs will be going forward, 
not only on individual projects, but in budgets that we will be 
bringing forward to this subcommittee in years to come. So, we 
have a CIP process, which is a Capital Improvements Plan. In 
that process, we rank all of the proposed projects that come 
forward, on a strong basis. If we could put up that board, that 
would be pretty helpful, I think. But what we do is, first, we 
have to identify projects, we have to evaluate those projects, 
we have to rank them and rate them before going into the budget 
process. So this CIP process that we have used this year for 
the first time is something that gives us a prioritization of 
those projects based on fire and life-safety issues, based on 
physical security issues, historic preservation and stewardship 
issues, impact on our mission, and the economics of it. We rank 
all of these projects on a scale that gives a real value to 
each one of them as they relate to each other and to those five 
key areas.
    So, if we were told to cut back on our projects at this 
point, Mr. Chairman, what we would do is go back down to our 
list of elements we currently have been asking for, and start 
at the bottom. Those things that are ranked the lowest in the 
project budget, we would start eliminating, to the point at 
which you are willing to fund the rest of it.
    Senator Allard. And does our staff have this list and these 
rankings on these projects that we can look at, at some point 
in time?
    Mr. Hantman. We certainly could review all of those 
projects with a full background, in terms of how we prioritized 
them in the first place. And we'd be happy to sit down and 
review that. And certainly we wouldn't cut anything unless we 
specifically worked with you and your staff.
    Senator Allard. We could be facing a pretty tight budget 
here.
    Mr. Hantman. Yes.
    Senator Allard. And it would be nice if we could give it 
some thought ahead of time. And so, the sooner you could share 
where your priorities are with our staff, I think it would be 
very helpful to them, and helpful to members on this 
subcommittee, to see where you're thinking is on those 
reductions.
    Mr. Hantman. We have that prioritization, already, sir. 
It's how we established the budget request. We'd be more than 
happy to sit down and review it. We can start from the bottom 
up, and whatever we have to eliminate because of budget 
criteria, we'd be ready to do that.
    Senator Allard. Very good.
    [The information follows:]

                                   TABLE 2.--FISCAL YEAR 2006 LINE ITEM CONSTRUCTION PROGRAM SUBMITTED TO THE CONGRESS
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                                                                          PROJECT EVALUATION SCORING
 PROJECT     PROJECT TITLE      PROGRAM AREA     JURISDICTION        PROJECT       PROJECT COST  --------------------------------------------    NOTES
 NUMBER                                                              MANAGER           \1\          A      B      C      D      E     TOTAL
--------------------------------------------------------------------------------------------------------------------------------------------------------
             SECTION 1--
              PROJECTS
         (EXCLUDING SUPREME
         COURT) ATTAINING A
           SCORE OF 90 OR
         HIGHER IN AT LEAST
           ONE EVALUATION
            CATEGORY \2\

 000231D Smoke Detector      BIM-SER.......  LOC.............  PRichards.....      $3,700,000      80     90     80     80     20      350  ..........
          Upgrades, JAB
 000231E Smoke Detector      BIM-SER.......  LOC.............  PRichards.....       3,700,000      80     90     80     80     20      350  ..........
          Upgrades, JMMB
  020188 Emergency           BIM-SER.......  USC.............  JScuderi......       2,980,000      40     90     60     80     60      330  ..........
          Electrical
          Service Upgrade,
          USC
 970711D High Voltage        BIM-SER.......  SOB.............  ZBajbor.......         540,000   .....     90     80     70     40      280  ..........
          Switchgear
          Replacement, HSOB
 970711E High Voltage        BIM-SER.......  HOB.............  ZBajbor.......       2,120,000   .....     90     80     70     40      280  ( \3\ )
          Switchgear
          Replacement, FHOB
          & RHOB
             Ford House      ..............  ................  ..............      (1,070,000)  .....  .....  .....  .....  .....  .......  ..........
              Office
              Building
              (FHOB)
             Rayburn House   ..............  ................  ..............      (1,050,000)  .....  .....  .....  .....  .....  .......  ..........
              Office
              Building
              (RHOB)
 970711F High Voltage        BIM-SER.......  LOC.............  ZBajbor.......       2,270,000   .....     90     80     70     40      280  ( \3\ )
          Switchgear
          Replacement, TJB
          & JMMB
             Thomas          ..............  ................  ..............      (1,090,000)  .....  .....  .....  .....  .....  .......  ..........
              Jefferson
              Building
              (TJB)
             James Madison   ..............  ................  ..............      (1,180,000)  .....  .....  .....  .....  .....  .......  ..........
              Memorial
              Building
              (JMMB)
970269GA Compartment         BIM-GEN.......  USC.............  KSchonbgr.....       2,630,000      50     90     40     60     30      270  ..........
          Barriers and
          Horizontal Exits,
          USC
970269GB West Terrace        REG-FIR.......  USC.............  KSchonbgr.....       1,700,000   .....     90     10  .....     20      120  ..........
          Egress Doors and
          Stairs, USC

             SECTION 2--
         REMAINING PROJECTS
         (EXCLUDING SUPREME
               COURT)

  020238 Book Storage        BIM-GEN.......  LOC.............  MVarga........      40,700,000      80     40     80     70     10      280  ..........
          Modules 3 & 4,
          Fort Meade, LOC
 000018A Emergency Lighting  REG-FIR.......  HOB.............  SSethi........       4,790,000   .....     80     40     10     40      170  ..........
          Upgrade, RHOB
 000018C Emergency Lighting  REGFIR........  HOB.............  SSethi........       2,700,000   .....     80     40     10     40      170  ..........
          Upgrade, LHOB
 000018D Emergency Lighting  REG-FIR.......  HOB.............  SSethi........       1,030,000   .....     80     40     10     40      170  ..........
          Upgrade, FHOB
 000207B Emergency Lighting  REG-FIR.......  SOB.............  RSoriente.....       3,600,000   .....     80     40     10     40      170  ..........
          Upgrade, HSOB
 020202A Emergency Exit      BIM-SER.......  USC.............  JScuderi......       1,000,000   .....     80     40     10     20      150  ( \4\ )
          Signs and
          Lighting, USC
  030293 East Front          BIM-SIT.......  CG..............  ACoulson......         740,000      80  .....     60  .....  .....      140  ..........
          Plantings, CG
  030130 Window              BIM-SHL.......  HOB.............  RIngram.......       3,710,000   .....     30     20     60     20      130  ..........
          Replacement, FHOB
 930281D Public Restrooms    BIM-INT.......  SOB.............  KOlmsted......       2,400,000      10     20     40     20  .....       90  ..........
          Upgrade, South
          Stack, HSOB
 020100B Public Restrooms    BIM-INT.......  HOB.............  KOlmsted......       1,500,000      10     20     40     20  .....       90  ..........
          Upgrade, Phase I,
          FHOB
  960043 Off-Site Delivery/  BIM-GEN.......  USCP............  WPerlenfn.....      23,000,000   .....  .....  .....  .....  .....  .......
          Screening
          Facility, USCP
                            ----------------------------------------------------------------------------------------------------------------
               SUBTOTAL--Se  ..............  ................  ..............     104,810,000   .....  .....  .....  .....  .....  .......  ..........
                ctions 1
                and 2

         SECTION 3--SUPREME
         COURT PROJECTS \2\

  030302 Building Security   BIM-SEC.......  SC..............  ACopeland.....       1,800,000   .....     20     30     20     90      160  ( \5\ )
          Upgrade, SC
                            ----------------------------------------------------------------------------------------------------------------
               SUBTOTAL--Se  ..............  ................  ..............       1,800,000   .....  .....  .....  .....  .....  .......  ..........
                ction 3
                            ================================================================================================================
               TOTAL--Secti  ..............  ................  ..............     106,610,000   .....  .....  .....  .....  .....  .......  ..........
                ons 1, 2
                and 3
--------------------------------------------------------------------------------------------------------------------------------------------------------
         \1\ ``Project Costs'' shown represent funding as identified in the fiscal year 2006 Budget Request; with the exception of the last three
           projects in Section 2, ``Project Costs'' are ``Final Project Estimates'' as developed by the AOC's Cost Estimating Group based on completed
           drawings and a completed Project Check List.
         \2\ Projects receiving a score of ``90'' or higher in one or more of the Project Evaluation Categories are considered highly desirable for
           accomplishment within the fiscal year identified.
         \3\ Project Nos. 970711E and 970711F have been separated into two parts so as to accommodate notation of costs associated with each building
           comprising the project.
         \4\ Original funding request in fiscal year 2005 was $2 million; only $1 million was approved; this project covers the additional $1 million
           still needed to accomplish the project.
         \5\ This is the Second Phase of a 2-phase project; the 1st phase was approved in the fiscal year 2005 LICP of the Supreme Court.

    Senator Allard. Senator Durbin.
    Senator Durbin. Thank you, Mr. Hantman. And, being a 
liberal arts major, I don't have a clue what that chart means, 
so I'm just going to ask you some general questions here. 
What's the final cost of the Capitol Visitor Center?

                  CAPITOL VISITOR CENTER COST CHANGES

    Mr. Hantman. The final cost of the visitor center, as being 
projected by GAO right now, is $517 million.
    Senator Durbin. Can you recall the first estimated cost and 
what the difference might be?
    Mr. Hantman. The original estimate for the visitor center, 
set back in 1998, was $265 million.
    Senator Durbin. And if you were asked, and you're about to 
be, how would you explain the difference?
    Mr. Hantman. I think that one of the charts we can put up 
right now is one--as the chairman mentioned earlier, the 
Government Accountability Office has been sitting with us since 
the inception of the job. This is basically, a report that they 
are just putting out right now, which talks about the summary 
of the construction cost increases.
    The first bullet talks about three-quarters of the $250 
million increase is due to ``factors beyond, or largely beyond, 
the AOC's control.'' Scope additions is the first item. The 
first is the House and the Senate expansion space. When the 
original project was designed, Mr. Durbin, we were going to be 
designing just shells, just the concrete floors, no electrical, 
no mechanical systems. There was no program to tell us what the 
Senate space might ultimately be, what the House space might 
ultimately be. After 9/11, we were given $70 million to finish 
off those spaces. That was without a program, without a design. 
As the design evolved, as the House and the Senate approved the 
programs and we went out to bid on those, that $70 million was 
found to be low, in terms of the quality of materials and the 
type of program that we were directed to do. So even that $70 
million was not inadequate, but that essentially added to the 
base of $265 million. New scope of work.
    The next bullet item is the security and life-safety 
enhancements. Mr. Chairman, Mr. Durbin, Mr. Cochran, this 
project has really lived through the same type of loss of 
innocence, if you could say, that our country has, due to the 
9/11 attacks and the anthrax attack on the Senate office 
buildings. We have seen multiple infusions of new dollars for 
new criteria go into this project.
    Another one of the changes, certainly after the anthrax 
incident, was, to redesign our mechanical room once again to 
incorporate major filtration systems to take care of the type 
of threats that we were facing.
    Security threats throughout the history of this project 
have been added to its costs, just as Homeland Security has 
been adding to their responsibilities. And the big challenge, 
Mr. Durbin, that we've had on this project has been that it's 
no longer the same project we started with. We're talking about 
adding $140 to $150 million of new work to the project that we 
had to do, while we were under contract. After the design was 
done, we had to try to get change orders and all of this new 
work incorporated and still try to meet a schedule for an 
inaugural in 2005. And that basically became fairly impossible 
to do with all the mechanical changes.
    So, these changes forced us, basically, to split what we 
anticipated originally as a single contract for the whole 
project into several pieces. First of all, we split it into a 
preconstruction contract so that our construction manager, 
Gilbane, could remove all of the utilities from inside the 
footprint of the project, so that we would not slow up the work 
of the major contractors, to come later. Then, because of the 
multiple redesigns of the mechanical spaces, we had to break 
out the excavation, the foundations, the structural work so 
that we could begin to work on that right away and try, still, 
to keep our schedule to complete this project within the 
parameters of the 2005 inaugural. So, that contract went ahead.
    In the next contract, which we were redesigning for the 
changed mechanical spaces, we gave a criteria to the bidders to 
meet the 2005 inaugural. Out of five bidders, three dropped 
out, saying that was impossible. And in order to change--to at 
least retain competitive bidding, we said, okay, we need to 
support the inaugural in 2005, we recognize we're not going to 
be finished, and we need to work on an extended schedule to be 
able to do that. And that's essentially what we did. We did a 
top-down construction, put on all the granite. The President 
actually stood on the central rotunda steps, as you know, and 
the troops passed in review. We got that work done.
    So the challenge has been----
    Senator Durbin. That was a pretty expensive review, wasn't 
it?
    Mr. Hantman. In terms----
    Senator Durbin. Never mind. We set that as your goal. And I 
know you were living up to it. And I'm glad we did it. It 
apparently called for additional work and expense. And you 
lived up to your responsibility there. The President--the 
inaugural went off, I think, flawlessly in that regard, except 
for the outcome of the election, which I won't get into.
    Let me ask you, when will the CVC be open to the public?
    Mr. Hantman. Our construction schedule calls for us to be 
completed in the fall of 2006. We're looking at--our contractor 
schedule talks about September 2006 right now.

                      CAPITOL VISITOR CENTER FTES

    Senator Durbin. So why would you have such a dramatic 
increase in a request for FTEs if we're--for this next fiscal 
year, when the CVC won't be open until the very end of that 
fiscal year?
    Mr. Hantman. We're actually phasing that in, Mr. Durbin. 
We're taking a look at--right now, our operations plan--and we 
have consultants, Zell Corporation, that came in, folks who are 
experts in visitor flow and operations of major spaces like 
this, and we've been meeting with Emily Reynolds and people 
from the Capitol Preservation Commission, 1\1/2\ years now, 
with the Zell group. What they're recommending is that we 
actually have an executive director for that group and a core 
staff. They should be onboard right now, basically, planning 
for the ultimate phasing in of the 260 people that Zell 
projects will need. And that executive director could certainly 
look at the Zell report and say that that number is off this 
way----
    Senator Durbin. These 260 are for the CVC exclusively.
    Mr. Hantman. That's correct.
    Senator Durbin. And you're asking for those FTEs in this 
year's fiscal appropriation, though the center will not be open 
until September of this next fiscal year?
    Mr. Hantman. We have authorization now, I believe, for 16 
of those 260 people. And of those 16, what we've started to do 
is actually hire--rather interview people--we can't hire them 
until we have an obligation plan signed for us--the people who 
are looking at the operations of the building. Potentially an 
assistant superintendent for the Capitol Building so that he or 
she could get together a staff that will make sure that the 
mechanical systems, the electrical systems, all of the things 
that are being installed correctly. They will be able to review 
that, be familiar with the systems when the building is 
essentially turned over. Those are the first people we want to 
bring on.

            CAPITOL VISITOR CENTER COMPLETION AND OPERATIONS

    Senator Durbin. Open to the public September 2006 is what 
you're saying?
    Mr. Hantman. From a construction perspective. From an 
operational perspective, Senator, the issue is, we have not yet 
hired that executive director. We've not been authorized to 
bring on any staff to do the operations side of it. We need 
that component, as well, so that whatever the operations group 
brings to the building, we'll be able to integrate it.
    And I don't know if, Ms. Reynolds, you have anything to say 
about that. We talked about this just this Monday evening.
    Senator Allard. If I might interrupt, Senator Durbin, and 
follow up on this, you're certain, from a construction aspect, 
that September 2006 would be when it's completed, open for 
occupancy.
    Mr. Hantman. That will depend, again, on the operations 
team, when they come on and what kind of work they can do early 
enough. In the best of all possible worlds, Mr. Chairman, this 
operations group would come on, and they would work in parallel 
with us, in terms of their programs--and the hiring that they 
need to do to get their staff together.

                         STRATEGIC PLAN NEEDED

    Senator Allard. Do you have a strategic plan in place 
where, when you reach this stage, we have some assurance that 
there's a step-by-step approach on how everybody's going to 
move into the offices and, a time schedule in which you 
anticipate that's going to happen? If you could elaborate 
further on whether you have the strategic plan.
    Mr. Hantman. Two points. First of all, let me clarify the 
September date again, in terms of construction. We have not 
gotten authority yet to award the expansion space for the 
House, for the Senate, for the exhibits.
    So I'm not sure. As soon as we can award that, we can 
assess what their completion date for those components of it 
will be. But in terms of the operations of the visitor center, 
the Congress has not yet determined who will be responsible for 
operating the visitor center, who they will report to, what 
committee they will report to; and, therefore, no decision has 
been made whether it will be an AOC responsibility or it will 
be another committee's responsibility, another group.
    Senator Allard. And why aren't those decisions being made?
    Ms. Reynolds. With your permission, let me just add a note 
here, Mr. Chairman.
    Those decisions have not been made. They are an ongoing 
discussion between Senate leadership, House leadership, and 
members of the Capitol Preservation Commission. They've been 
going on for several months now, most predominantly at the 
staff level, obviously with feedback to the respective members.
    I think, clearly, if we're looking at an 2006 opening date, 
clearly the need for those decisions is sooner, rather than 
later. Suffice it to say, we're working closely with the 
Architect on it, and it's--this is another one that's a team 
effort. We'd certainly appreciate your advice and counsel on 
this, as well, but, again, being done at the leadership level 
and with the Capitol Preservation Commission.
    Senator Durbin. Mr. Chairman, I just might say that we hold 
our witnesses and agencies accountable. Now we ought to hold 
ourselves accountable. I think the leadership on both sides of 
the Rotunda need to get together immediately and work this out. 
And I know it's contentious, and it hasn't been easy, but we 
can't blame them if the CVC doesn't open because we can't 
explain who's going to be in charge and make these key 
decisions. So, if you would like to reach out to Senator Frist, 
I'll reach out to Senator Reid, and let's see--Senator 
Cochran--maybe we can get some movement here on this.
    Senator Allard. I do think that we need to sit down with 
the leadership and put together some kind of strategic plan on 
how we're going to go through this and make these decisions, 
step by step. Has any kind of proposal been made to the 
leadership at all from your office? Have we suggested anything 
to them? Say, ``Look, we think this is realistic now. Can you 
agree to this?'' Have we taken that step?
    Ms. Reynolds. We took a step about 6 months ago, I think, 
and went back to the leadership with--not so much with an 
overall governance proposal, but we did provide to the 
leadership on both the Senate and the House side, really, more 
of an update, a working update, as a result of the operational 
meetings that have been held over the course of the last year 
with Zell, with this consultant, and really just looking 
broadly at the organization itself. As I said, the 
conversations have taken place over the last few months, with 
both Senate and House officers and staff. Obviously, this--
because it is an extension of the Capitol, this will be, 
presumably, a decision of the joint leadership and the CPC, of 
course, which has members from both sides.
    We've made progress. We are not yet prepared, I will say, 
at least at the staff level, with an overall recommendation. 
Again, we'd be--I'd love the opportunity to brief you all on 
the various and different proposals that have been made, the 
various and different discussions. And, you're absolutely 
right, this is one that needs our time and attention.

             CAPITOL VISITOR CENTER CONSTRUCTION MANAGEMENT

    Senator Allard. Mr. Hantman, I know when the project 
started out we had a couple of different contractors, and they 
didn't get along very well at the very start. Do we have an 
overall contractor that's in charge right now? It seems to me 
one of the things that needs to happen in a project, you need 
to have one contractor that's in charge, and you put incentives 
in place for them to perform and carry out what they say they 
will do. And it seems to me if we have one contractor who's in 
charge, he can be helpful to the staff in putting together some 
sort of strategy on how we can get this thing wrapped up in a 
timely manner, while holding down our costs.
    Mr. Hantman. Mr. Chairman, with the help of the General 
Services Administration, we conducted a nationwide search for a 
construction manager. We hired the Gilbane Corporation to be 
that construction manager and make sure that they coordinated 
the work of all of our contractors on the job. Our first-phase 
contractor for the excavation, for the structure, for all of 
that work, Centex Corporation, has completed their work. 
They're off the job. Our second-phase contractor, who is doing 
all the electro-mechanical and architectural finishes work, is 
Manhattan Corporation. And, in terms of coordination for the 
expansion spaces, to minimize complications, we're expecting 
that they, also, would be running the work, although we go for 
competitive bids on the expansion spaces, on the exhibit areas, 
things of that nature.
    So, yes, we do have people in place, both from Manhattan 
and the Gilbane side, and we are giving whatever advice that we 
possibly can to the Capitol Preservation Commission about 
what's going to be in place at what point in time, and how we 
can phase this work, so that we can get that center opened 
appropriately and in good order.
    Senator Allard. Well, then, who's ultimately accountable 
for getting this done on time? Is this Gilbane?
    Mr. Hantman. Our construction manager, Gilbane, is 
accountable to us. We have the fiduciary responsibility, 
certainly. And under our project executive, Bob Hixon, they 
report through to Bob Hixon, and Bob Hixon reports through to 
me.
    Senator Allard. Gilbane--are they doing their job? It seems 
to me this is their responsibility, to help you put together a 
strategic plan. Are they doing their job in that regard?
    Mr. Hantman. Well, in terms of strategic plan, relative to 
operations, that is not their responsibility. It is the 
construction side of it only, Mr. Chairman.
    Senator Allard. Go ahead, Senator Durbin.
    Senator Durbin. Are there any incentives or penalties in 
the contract with Gilbane, for performance?
    Mr. Hantman. For the contractors, we have liquidated 
damages. For Gilbane, they are a fee-based organization, and if 
they're not performing--it's up to us, basically, to make sure 
that they do perform or to take away work from them and give it 
to somebody else who can perform, when they don't.
    Senator Durbin. How much has Gilbane been paid?
    Mr. Hantman. I believe it's something like $15.5 million 
for the CVC Base and $2 million for the Senate shell.
    Senator Durbin. Okay.
    Mr. Hantman. I can verify that number.
    [The information follows:]

    As previously stated, I would like to verify the 
information referring to the amounts paid to Gilbane. In 
reference to the CVC base contract with Gilbane $15.5 million 
has been obligated and $13 million has been paid or expended. 
For the Senate shell space $2 million has been obligated and 
$1.6 million has been expended.

    Senator Durbin. But there are no incentives for them, as 
the management side of this. The incentives relate to the 
actual construction.
    Mr. Hantman. We have incentives for the contractors, in 
terms of--if they meet their schedules, they move ahead. We 
have awards for them, yes.
    Senator Allard. You know, it's not entirely clear to me who 
figures out the costs and the timeline schedule. Is that 
Gilbane, or is that your office or one of the contractors? Who 
puts that schedule together and says that it gets us to 
September, gets us to some kind of date after that, which we 
don't seem to be able to get specified.
    Mr. Hantman. Gilbane has the responsibilities for the 
master schedule. We have a schedule that came in from Manhattan 
Corporation, who is the contractor onsite now charged, 
basically, with all the work to finish the job. The issue, 
then, is--what Gilbane needs to do is take the schedules for 
the expansion space, for the exhibit areas, areas that we've 
not yet awarded, integrate them into a schedule, and make sure 
that we can all finish when we need to finish.
    Senator Allard. And why haven't those other spaces been 
awarded yet?
    Mr. Hantman. We need to have obligations plans signed by 
the House and the Senate to allow us to spend the dollars to do 
that, and we've not yet got those signatures.
    Senator Allard. I see. Okay.

                    CAPITOL VISITOR CENTER SCHEDULE

    Senator Durbin. Mr. Chairman?
    If I might ask Mr. Hantman--the GAO, when they took a look 
at this, agreed with your final cost figure, but disagreed with 
the occupancy--or maybe not disagreed, but said they felt that, 
by schedule, it wouldn't be completed until March 2007. Do you 
take issue with that date that they came up with?
    Mr. Hantman. Again, when we talk about the project, if we 
could define the nature of the project. The Capitol Visitor 
Center portion of it, the area that will welcome visitors, 
where people will walk down the entry ramps--and I'd welcome 
the opportunity to take you on a tour, Mr. Durbin--be screened, 
come into the great hall, go to the information booths, go see 
the orientation film, go on the tour, go to the cafeteria, go 
to the restrooms--all of that is projected in the current 
contracts that we have with Manhattan Corporation. The part 
that has not yet been awarded, and the part that will not be 
ready, at this point in time, in the fall of 2006, is, in fact, 
the expansion space, which has not yet been awarded. And that's 
where GAO is going and pushing that off. And until we get the 
contractor onboard and we work with them, we don't know what 
the schedule is for that work.
    Senator Durbin. And the contractor decision depends on 
leadership in Congress to decide responsibility----
    Mr. Hantman. We have bids on that now, Senator. The issue 
is--we can't award those bids, because we don't have the 
obligation plans signed to award them. Then we could move ahead 
and move with that contractor to nail down a completion time.
    Senator Durbin. Okay.

                CAPITOL VISITOR CENTER EXHIBITION SPACE

    Senator Allard. Well, are there other things, other than 
the expansion space, that could be causing a delay on this 
project?
    Mr. Hantman. The exhibit areas, Mr. Chairman. There's a 
wonderful exhibit area, which I showed you as we walked 
through--and, again, I'd welcome the opportunity for anybody 
who's not seen it, to take them through that again--we have not 
been able to award the contract for the construction of the 
exhibition areas. The Secretary of the Senate and the whole 
senior staff on the Capitol Preservation Commission, has the 
concern of, should we open the visitor center if the exhibition 
area is not ready to be opened, as well? And that's a debate 
that the Preservation Commission staff have been having. From 
my perspective, the best of all possible worlds, it should all 
be ready. We should be able to have full exhibits, have the 
air-conditioning system tested, so the original documents, 
amendments to the Declaration, amendments to the Constitution, 
all of those original documents that we're planning to put into 
the exhibition area, would safely be able to be installed 
there. We need to award the contract and move ahead and see 
just how we can shake it out. We still think we can make that.
    Senator Allard. I want to move on, but Ms. Reynolds, did 
you want to respond?
    Ms. Reynolds. I just wanted to add a word to what Mr. 
Hantman said, in terms of bringing the documents into the 
building and readying the exhibition space. And I certainly 
appreciate the commitment and the drive that the Architect has 
to get this facility up and running for all of us. It will be 
tremendous when it's done. But from an archival standpoint, 
both the Clerk of the House and I have the responsibility to 
work with the National Archives, who, of course, are the 
repository of the records of Congress. So one thing we would 
like very much to do--and I believe we have a meeting scheduled 
in this regard--is to have Mr. Hantman fully brief both the 
Archives and the Library of Congress, from whom we anticipate 
we will also borrow some documents, so that those 
preservationists, those archivists, can understand both the 
project in full, how the work will proceed, potentially, around 
the exhibition space, so that they have the assurance, before 
they loan precious documents to us, that they have the 
assurance and feel good about the prospect that those documents 
will be protected in this exhibition space if we still have 
ongoing work going on in other aspects of either the CVC or the 
expansion space itself.
    So, again, we'll keep you posted on that, but I think we 
have one additional important step to make, if you will, and I 
certainly didn't want to leave the impression that there's a 
delay, if you will, from our end. But we do have that 
responsibility, to protect the records of Congress, and need to 
make that one additional stop with those archival experts.
    Senator Allard. I think it would be helpful for this 
subcommittee if we can get some sort of timeline set down here 
with some estimated costs, and then we can check it off as we 
go along. And if for some reason AOC doesn't meet the timeline, 
we can ask why. And if you're under budget, we can have a 
celebration, when we reach those various milestones. I think a 
lot of Members in the Senate would feel more comfortable if we 
could have some sort of timeline out there to get things nailed 
down as best as we possibly can.
    Mr. Hantman. Absolutely.

                  ARCHITECT OF THE CAPITOL MANAGEMENT

    Senator Allard. I think it would make life much easier.
    The other thing that I would want to bring up, there's an 
article here about the AOC staff survey, and your staff 
expressed some dissatisfaction. I think you need to have 
workers that have bought into what you're doing. Noting some of 
the things several employees expressed concern about charges of 
favoritism and uneven and unfair work distribution, hire and 
promotions that were not necessarily based on qualifications 
and experience but based on personal connections. Those are the 
kind of comments that have been pulled out and that I have 
before me here. Is that a problem that you think truly exists? 
And even if it's a few employees, perhaps it is something to 
correct. I'd like to know what your suggestions are in that 
regard.
    Mr. Hantman. Mr. Chairman, we take those kind of charges 
very seriously, and we investigate every one of them. What we 
have tried to do, over the 8 years that I have been here, is to 
create a human resources division that is responsible, not only 
to external clients, but to internal clients. Our staff are the 
backbone of the agency. The AOC is a service agency, and the 
2,000 people we have essentially are our most valuable 
commodity. So, we are making sure that we have fair and open 
hiring practices, promotion practices, that we post jobs 
between jurisdictions, which never used to happen. Basically--
somebody who worked for the House office buildings wouldn't 
apply for a job in the Senate office buildings. They do that 
now. We make sure that the benefits are the same. If you're 
doing the same work, you get the same benefits. The 
classification of all jobs are just the same. So anytime that 
we hear something like that--and I hear it, I will talk to 
people, we will talk to our human resources folks and make sure 
that we get a full answer and that these people are treated as 
fairly as possible within the guidelines of the Federal 
Government-type regulations.
    Senator Allard. I do recognize there is a challenge----
    Mr. Hantman. There is.
    Senator Allard. But I'd encourage you to sit down and work 
with the employees and see if we can get it resolved. It sounds 
to me like maybe you've made some efforts in that regard, and I 
appreciate that.
    Mr. Hantman. If I could make a statement, Mr. Chairman, 
that was a very disturbing newspaper article. The headline was 
``Fear and Loathing in the AOC.'' Those are very, very heavy 
words. I had our folks go back to all the surveys. First of 
all, please be aware, we initiated 25 task groups; 300 people 
around our agency from all areas were invited in to talk, to 
give their points of view in an open manner, with an outside 
facilitator, impartial people, to talk about, what was wrong 
with their jobs. We wanted to know basically what the problems 
were, what the challenges were, how we can start addressing 
those challenges. We also conducted a survey that went across 
the entire agency, talking about the quality of services and 
how we can improve them.
    As a result of the surveys we've set up eight committees on 
communications--no question about that, we have to improve our 
communications--human resources, procurement, senior 
leadership, strategic planning, all of these issues. We have 
groups that have been set up to address these issues.
    But I think it's important to note that we went back to the 
surveys, and we studied these words that we saw. And the word 
``loathing,'' ``repercussions,'' ``payback,'' those with 
negative connotations did not appear in any of the surveys that 
came back from our employees. Ninety-six employees, out of 215 
participating, used the word ``fear.'' But the word ``fear'' 
was used regarding their concern about having their jobs 
outsourced following a study we're conducting as a 
congressional mandate. They did not use it in the context of 
fear in the workplace. I'm thinking that, clearly, there are 
some people who are not open enough or secure enough to express 
their opinions. We had a celebration for people who have 
Government service of, 30 to 35 years, last week. And I told 
the people in the labor division who were talking there that we 
want them to speak openly and talk about that. But I think it's 
important to note that that headline had nothing to do with 
what the surveys and the focus groups showed.
    So, basically, our conclusion really is, the journalist's 
choice of words were the journalist's choice of words. The fear 
was--related to outsourcing, not to the way people are treated. 
Most people stated that they liked their jobs. There was 
certainly room for improvement in communications and other 
areas, but it was a totally inappropriate headline.
    Senator Allard. I wanted to give you an opportunity to 
respond to that, because I think that you needed to have that 
opportunity.

     CAPITOL VISITOR CENTER GOVERNMENT ACCOUNTABILITY OFFICE REPORT

    Now, let me go on to the GAO report. And I know you have a 
chart over here. You just must be itching to use that chart.
    I want to give you an opportunity to respond to some of the 
criticism from the GAO report, and I think that's what that 
chart's all about. So why don't you go ahead and respond to 
those comments from the GAO report?
    Mr. Hantman. Mr. Chairman, the Capitol Visitor Center, I 
call it a magnificent challenge. It truly is that. As I 
indicated earlier Senator Durbin, the nature of the project has 
changed significantly since its inception, adding roughly $150 
million of new work to the project as it was under design and 
construction.
    If we could put the GAO summary of reasons back again, 
please.
    The GAO does talk about management. They talk about--we 
could have done a better job doing management. In retrospect, 
when you look at the issues that we have to deal with, managing 
all the changes, the multiple changes--from the security 
perspective, from the expansion perspective--we needed to 
manage them, and we could have managed them more effectively, 
but we have managed them very well right now.
    So where we talk about three-quarters of the $250 million 
increase due to factors, ``beyond, or largely beyond, AOC's 
control,'' that's GAO's language, ``77 percent of their $250 
million increase was beyond our control.'' The next line talks 
about design-to-budget items impacted by market conditions.
    The market volatility--since the budget for the House and 
the Senate expansion spaces was established in 2001, there have 
been material price increases. We have two estimates done for 
every piece of costs, Mr. Chairman. One of them is done by 
Gilbane, our construction manager; another is done by an 
outside firm, Hanscomb Corporation. We compared the two 
estimates for the work. With the escalating costs, the Hanscomb 
group indicates, in the Washington metropolitan area, some 22 
percent escalation has occurred within the last 12 months, 
alone. So when you've established a budget years ago, and you 
see that kind of escalation, the $35 million budget set for 
each of the expansion spaces for the House and the Senate did 
not conceive of that level of additional dollars. So that has 
impacted us tremendously.
    Limited competition due to a saturated construction market. 
You can see construction cranes all over the Washington 
metropolitan area. The pool of labor is down. The competitive 
bidding is down also, because there's enough work to go around, 
and contractors don't have to cut their prices; they can pick 
their jobs.
    Added costs to bidders due to security. As you know, Mr. 
Chairman, we have trucks being checked on The Mall. Thousands 
of trucks are being inspected by--and going through a big 
screening area--by the Capitol Police. They're double-checked 
when they come onto First Street, before they come on site. All 
of the workers that come onto our site are screened. They 
undergo retinal scans and police background checks. People in 
the construction industry who have a police record are not able 
to work on our job. That's a premium that contractors add to 
their contracts.
    Added--low estimates, and design not changed to meet the 
budget. When our numbers have come in higher than we 
anticipated, higher than our outside contractors and cost 
estimators have said, we come up with lists of things that 
could be eliminated from the project, could be changed. One of 
the things, which you may be aware of, we have a Buy America 
situation. If we had been able to bid our stone work on the 
international market, our contractors tell us, we could have 
saved $10 million. We have stone from Tennessee, from Ohio, 
from Pennsylvania. We fabricate in Wisconsin, in Vermont. All 
of this is American, and we're paying for that premium.
    So the issue is, we could cut out some of that stone, we 
can go to sheetrock, we can go to wood. What we're doing here, 
Mr. Chairman, is, we're building for the future. This is not a 
speculative office building. This is not a normal building. 
This is something that complements and supports the Capitol 
that's survived for 200 years; and, with the good Lord's grace, 
will survive for hundreds more. So this is a complement. It 
supplements what, in fact, is happening in the building. And 
the quality of the finishes--the stone, the bronze work, there 
is stone on the floor, there are quality woods, there are 
materials that make sense, and that your great-grandchildren 
will be proud to visit in future years. So, if we come up with 
lists of things to cut because our numbers come in high, we are 
told, no, we cannot cheapen the work. And I don't want to 
cheapen it, either.
    So the budget cannot be, as a normal job would be, one 
where you cut things out, you change it, you eliminate 
components of it. That is not an option open to us right now. 
So we are living with what the--essentially, the industry tells 
us the costs are going to be by those who choose to bid our 
projects.
    Senator Allard. Based on the GAO report and your experience 
up to this point, what have been your lessons learned? If you 
were to start back over with the project again, what would you 
do differently to make it a better project than what it is 
today?
    Mr. Hantman. Mr. Chairman, any architect or engineer who 
does a major project, and it's underway, under construction, 
has a tremendous fear of the words, ``While you're at it, why 
don't you''--add a piece to the exhibit areas, add new security 
criteria, change this, do a change order to your contract, 
because I don't like the way that's coming in. With the outside 
pressures we've had since 9/11, Mr. Chairman, nobody could have 
foreseen all the security issues that we have.
    As far as the expansion spaces are concerned, there's no 
doubt in my mind that those were meant to be future expansion 
spaces. When 9/11 hit, we got the money to finish them off, we 
made basic changes. We had to redesign our structure so that 
hearing rooms could have the long spans that they now have 
while they were under construction basically, this is in terms 
of the structure.
    So have your programs set on everything that you're going 
to do. Go to a single contractor--that was our original goal, 
but, because of the timeframe--and that was the timeframe that 
Senator Durbin referred to--we had this inaugural date to hit. 
It turned out to be impossible once all of these $150 million 
worth of changes were put in the project. Yet, we were still 
driving our contractors to do that, and we put out bids on that 
basis. We shouldn't have put out bids on that basis. We should 
have recognized earlier that that's a criteria that will lose 
us the bidders and the competitiveness of the bidding process.
    Senator Allard. I think that's a comment well made. As soon 
as you start changing the original order, you open up the 
contract, and it just becomes a blank check, and it's very 
difficult to control costs once you've done that. I've been in 
the position where I had a construction project. You know, I 
was building a veterinary hospital. And as soon as I started 
requesting a change here or there, you just open the whole 
thing up. And I can imagine, with this size of a project, 
that's a huge, huge issue. Do you think there might be any more 
major changes coming forward that could impact cost?
    Mr. Hantman. Well, as was indicated in your opening 
remarks, GAO, last time around, when we came before the 
subcommittees for costs, they said, ``There's further risk out 
there.'' GAO still indicates that there is further risk out 
there. Hopefully, not on the magnitude that we're talking about 
to date.
    We need to award the contracts that we have yet to award, 
and make sure that we can move ahead as expeditiously as 
possible. That's the best way to control the costs.
    Senator Allard. Mr. Chairman, do you have any questions or 
comments while we wrap this up?
    Senator Cochran. Mr. Chairman, I'm very glad that we've had 
an opportunity to have this exchange, and the question and 
answers have been very informative and helpful to our 
understanding of where we are with the visitor center project 
and the responsibilities of these fine individuals, who serve 
as Architect and Secretary of the Senate. We appreciate your 
service and your cooperation with our efforts to help make sure 
we're getting what we're paying for and we are not being frugal 
and living up to our responsibilities to the general public and 
to the Congress, itself, and the American people, in 
particular.
    Thank you, Mr. Chairman.
    Senator Allard. Mr. Chairman, I couldn't agree more with 
your comments, and I also understand the frustration when you 
have numerous bosses, like the Architect of the Capitol has. We 
all have our own views, and I understand the challenges of your 
position, but I do think the more we can get down as a plan, 
the better off we'd all be so we can understand that. So, 
again, I would encourage you to get something in writing to us, 
some kind of a plan. It would be helpful, I think, for the 
subcommittee.
    I agree with the chairman, this has been a very helpful 
hearing, from both of you. And I know there's a lot of 
dedicated people here that want to do the right thing for 
Congress, and want to do the right thing for the people. We do 
want this to be something we're all proud of, and I do see a 
lot of things in that visitor center that are just great. I 
want to make sure we can get through this with as few bumps as 
we possibly can toward completion.
    I want to thank all of you for your effort. Thank you.
    Mr. Hantman. Thank you, Mr. Chairman.
    Ms. Reynolds. Thank you.

                     ADDITIONAL COMMITTEE QUESTIONS

    Senator Allard. And I would request, of the witnesses, 
that, within 1 week, if you could respond to additional 
questions in writing, then we'll make those a part of the 
record.
    [The following questions were not asked at the hearing, but 
were submitted to the Offices for response subsequent to the 
hearing:]

                 Questions Submitted to Emily Reynolds
              Questions Submitted by Senator Wayne Allard

    Question. What are your recommendations for the closed captioning 
of Senate hearings based on the pilot project your office conducted in 
conjunction with the Judiciary Committee?
    Answer. In September, 2003, the Office of the Secretary, in 
coordination with the Judiciary Committee, agreed to implement a pilot 
program for the closed captioning of Senate committee hearings, based 
on language included in the fiscal year 2003 Legislative Branch 
Appropriations report.
    The pilot is summarized based on the request given to us by your 
committee to assess the feasibility, use and cost of the closed 
captioning pilot for committee hearings.
    The original plan called for the pilot to run for a period not to 
exceed 90 days with the Secretary's Office of Captioning Services to 
provide the hardware and software using voice recognition technology, a 
technology selected at the suggestion of the Judiciary Committee. The 
Judiciary Committee provided funding for the product contract.
    The Secretary's office invested almost $18,000 in support of the 
project, which included equipment and training. In addition, the 
director of captioning services served as the project manager and 
provided extensive counsel and training. A room on the mezzanine level 
of Hart 216 was prepared and furnished by the Architect of the Capitol 
and the Sergeant at Arms for the captioners' work given the need for a 
noise-free environment. The Senate Recording Studio also assisted in 
providing the necessary feed and encoding equipment.
    The project concluded on October 6, 2004, following the completion 
of two captioned hearings for the Judiciary Committee. Unfortunately, 
the project encountered delays involving both the contractor and the 
technology, which eventually led to the selection of a second 
contractor in order to complete the pilot.
    The first contractor began work on January 21, 2004, and conducted 
its first dry run on a committee hearing on February 25. A second dry 
run followed approximately one week later on March 3. The contractors 
were not familiar with the realtime captioning software, and on-site 
training was provided. In addition, software bugs with the technology 
had to be addressed and remedied. The contractors also experienced 
numerous hardware problems, making it difficult to determine at times 
whether the problems were software or hardware related. An overall lack 
of experience in the use of voice recognition technology led to a high 
error rate, so high the captions could not be understood.
    The Judiciary Committee opted to terminate their contract with the 
first contractor in mid-March, 2004, and proceeded to engage a second 
operator just over one month later. The second contractor began 
training in late August, and two dry runs of committee hearings were 
conducted in September.
    The contractor employed the voice recognition technology on 
September 22 and again on October 6 to cover two Judiciary Committee 
hearings that were broadcast on the Senate's internal television 
committee channel. In the first hearing, the average percentage of 
sentences with recognition errors was 55 percent. In the second 
hearing, the captioners showed improvement with the technology reducing 
the average percentage with recognition errors to 42 percent. (As a 
standard of comparison, captioning services for Senate broadcasts posts 
an accuracy rate of 99 percent).
    The second contractor's captioners continued to experience setbacks 
with both the software and hardware, and have rendered their opinion 
that at least currently, the realtime captioning project is not 
appropriate for Senate committee work, particularly given the unique 
language of the Senate and the requirement for accuracy.
    The Secretary's office provided a means for the Senate community to 
respond to the pilot, with comments, creating an e-mail address, 
<a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="167575667f7a796256657375386573787762733871796038">[email&#160;protected]</a> Two e-mail notices were sent prior to the 
internal broadcasts of the two closed captioned hearings.
    Four responses were received at the e-mail address. One was an 
inquiry as to how to access the hearing; a second was from a committee 
staffer inquiring further about the pilot. Two responses came from a 
Congressional Research Service staffer who suggested transcript 
corrections.
    To the best of our knowledge, voice recognition technology has not 
yet been employed to realtime caption television programming. In 
addition, the availability of voice writers is minimal in the region, 
particularly those with captioning experience. While the technology may 
hold promise for the future, on the basis of the pilot project, it is 
not a feasible technology for the Senate's use at this time.
    Question. What information can your office provide to Senate 
offices on employment compensation, hiring and benefit practices, 
particularly for those newly-elected Senators who are in the process of 
setting up shop? Would it be useful for Senate offices to have an 
outside organization study compensation, hiring and benefit practices 
for Senate staff, and in your view, would it be appropriate for us to 
fund such a study?
    Answer. Two departments under the direction of the Secretary, the 
Disbursing Office and the Senate Chief Counsel for Employment (SCCE) 
can and do provide information to Senate offices, including newly-
elected Senators' offices, regarding compensation, hiring and benefit 
practices.
    With respect to hiring and benefit practices, the SCCE does the 
following: (1) informs offices about how and where to advertise job 
openings, how to interview candidates, how to conduct reference and 
background checks, how to establish appropriate criteria for selecting 
among job applicants, and how to finalize and document job offers; (2) 
provides each office with dozens of sample employee policies that are 
used across the Senate and assists the office with customizing the 
policies; (3) assists offices with preparing employee policy manuals 
and supervisors' manuals; (4) educates the offices about the range of 
benefits customarily offered by Senate offices, such as the number of 
days of paid leave, paid holidays, and paid FMLA leave, and assists 
offices in establishing their benefits; (5) educates the offices about 
all of their legal obligations and employees' legal rights under 
employment laws, which include compensation, hiring and benefit 
practices.
    Like the SCCE, the Disbursing Office provides extensive and 
detailed information to newly elected Senators' offices during the 
Senators-elect orientation program and in one-on-one training with all 
new offices. The training includes both written and verbal information 
on the budget structure and available funds by fiscal year for the 
office, the salary limitations for the office, the appointment and 
hiring procedures including the statutory prohibitions on when 
appointments and transfers can be effective, other employment 
restrictions, procedures and requirements for salary adjustments and 
termination processing, guidelines and procedures for processing 
overtime and paying for unused annual leave, and any other relevant 
employment and payroll procedures. Counseling on all federal benefits 
(retirement, Thrift Savings Plan, health insurance, life insurance, 
flexible spending accounts) is also provided to all new Senate 
employees.
    With respect to compensation, because each member's office is, by 
law, an individual employer, each office establishes its own salaries. 
Twice each fiscal year, the Report of the Secretary of the Senate is 
published in compliance with Section 105 of Public Law 88-454, approved 
August 20, 1964, as amended. The Report is a full and complete 
statement of the receipts and expenditures of the Senate.
    Based on the work of both the Disbursing Office and the Senate 
Chief Counsel for Employment, it would be neither useful or necessary 
to hire an outside organization to study compensation, hiring and 
benefit practices. Because each office is an individual employer, 
employee positions and job responsibilities are not the same across 
offices, and salaries and benefits often reflect issues unique to each 
state. To the extent policies and benefits are common across offices, 
that information is already shared across, and provided to, Senators' 
offices.
                                 ______
                                 
                  Questions Submitted to Alan Hantman
              Questions Submitted by Senator Wayne Allard

                                 BUDGET

    Question. AOC is in the process of conducting a mid-year review of 
the current year budget. Based on this analysis, do you believe there 
will be any funding this year that could be reprogrammed to any 
projects AOC is requesting in the fiscal year 2006 budget? If there are 
savings, please explain why.
    Answer. The mid-year review resulted in satisfying some emerging 
fiscal year 2005 needs and a few fiscal year 2006 needs as well. The 
review identified potential sources of funding to pay the Botanic 
Garden claim, the closing costs for the ACF purchase and the Capitol 
Power Plant-Replace Ash Handling.

                             STRATEGIC PLAN

    Question. In December 2003, AOC issued a strategic plan for the 
agency. How is the implementation of that strategic plan specifically 
affecting your organizational structure and the resources you need for 
fiscal year 2006?
    Answer. Resources in terms of both dollars and FTEs are needed to 
continue to make progress in implementing improvements (outlined in our 
Performance Plan) in key areas such as project management, IT security, 
Enterprise Architecture, worker safety, financial controls, and 
employee communications. We have not requested additional FTEs to 
implement these improvements and have ensured that the dollars 
requested in our budget are aligned with our strategic action plans. As 
part of our internal process to develop our budget, we require each 
responsible manager to include discussion on how the requested budget 
is linked to accomplishing one or more of AOC's Strategic goals.
    In addition, the AOC proposed organizational structure would allow 
us to more effectively manage day-to-day operations and achieve our 
strategic goals. It will facilitate delegations of authority and 
clarify lines of communications by formally recognizing the official 
management structure of the agency.
    Question. In your testimony you say ``we are continuously 
evaluating our efforts so that we continue to excel, meet and exceed 
expectations.'' On what basis can you say AOC is excelling, meeting and 
exceeding expectations?
    Answer. The AOC is constantly reviewing our progress and looking 
for ways to improve our operations. Examples of improvements that allow 
us to excel, meet, and exceed expectations include:
  --Financial Management
    --Developed a Management Control Program Policy--currently in the 
            review and approval process. Implementation team is forging 
            ahead as the policy receives final approval. The team has 
            completed the initial review of the first two internal 
            control cycles: payroll and procure-to-pay.
  --Project Management
    --Implemented a ``pilot'' PM organization to align staff with 
            mission critical goals.
    --Continued to implement a Program Development Process that 
            includes the prioritization of projects by a senior-level 
            panel comprised of all jurisdictional superintendents. The 
            project prioritization process was most recently used in 
            the summer of 2004 in conjunction with determining the 
            fiscal year 2006 Line Item Construction Program (LICP) as 
            recently submitted to The Congress.
    --Developed tools to effectively communicate priorities and 
            progress of projects. Formal Program Development Process 
            procedures have been developed and communicated to all 
            parties through various means. Briefings have occurred. 
            Portions of these procedures, as appropriate, have been 
            included in AOC manuals. The process, to include its 
            specific application to the recommended fiscal year 2005 
            Line Item Construction Program (LICP), has further been 
            communicated through the AOC's Capital Improvement Plan 
            (CIP) prepared in February 2004. These procedures, to 
            include their application to the recommended fiscal year 
            2006 LICP, are similarly being captured and communicated 
            through the revised CIP currently nearing completion.
  --Created an employee feedback process manual (undergoing final 
        review of procedures for implementation).
  --Conducted Focus Groups and a Human Resources Management Division 
        Customer Satisfaction Survey--action plans are being developed 
        to address opportunities for improvement especially in the 
        areas of communication, on a wide variety of AOC issues, 
        policies and procedures.
  --Completed the 2004 Building Services Customer Satisfaction Survey 
        (BSCSS) and reported findings and action plans to stakeholders.
  --Linked senior executive and employee performance management systems 
        to our strategic goals and objectives.
  --Launched our workforce planning office which is currently 
        developing a workforce plan/strategy to outline the process for 
        AOC long-range workforce planning.
  --Continued to implement IT Investment Management, Enterprise 
        Architecture and Security programs.
    Question. What are the most significant challenges you face in 
meeting your strategic plan goals and how does your budget attempt to 
address these priorities?
    Answer. One of the biggest challenges we face, like many government 
agencies, is the aging of our workforce and the need to transfer 
knowledge to the next generation of skilled workers.
    Maintaining our aging and historic facilities is another challenge 
we face. This is why the Facility Condition Assessment (FCAs) are so 
critical to achieving our Facilities Management Goal. The funding 
request for a FCA of the Library of Congress is an example of this.
    In our fiscal year 2006 budget development process, we aligned the 
requests by budget line item to ensure our budget was consistent with 
the Strategic Plan goals and objectives. This was our first attempt to 
move towards a performance based budget. We are continuing to refine 
this process as we prepare future budgets.
    As outlined in our strategic plan, a significant impact on the 
achievement of these goals is the time and money spent responding to 
data calls, and meeting with various groups that are conducting reviews 
of the AOC. The AOC staff is devoted to ensuring these various groups 
have the most accurate and complete information available to support 
the reviews.

                    CHIEF OPERATING OFFICER POSITION

    Question. I understand you are working with a panel made up of the 
Public Printer, the Comptroller General, the Chief Administrative 
Officer of the House and someone yet to be appointed from the Senate 
Sergeant at Arms to select a new Deputy ACO/COO. Could you please 
explain to the committee the process you are using to review applicants 
and make a selection? Has the panel ever met to discuss and approve 
this selection process? Have criteria been established for use by the 
panel in evaluating candidates? Did the panel participate in the 
establishment of these criteria and approve them? When do you expect a 
selection to be made? How many people applied?
    Answer. As instructed by the Committees, in mid-December, 2004, we 
initiated contact with several executive employment search firms to 
identify and select one to conduct a nation-wide recruitment for a new 
COO. After a review of several executive employment search firms, we 
contracted with Korn/Ferry International on December 22, 2004.
  --Korn/Ferry initiated their recruitment search process and suggested 
        that AOC also initiate a recruitment announcement through the 
        Federal U.S.A. Jobs system.
  --AOC staff coordinated the vacancy announcement language with Korn/
        Ferry and the announcement was posted from January 21 through 
        March 4, 2005.
    On March 15, 2005, candidate review criteria, developed by Korn/
Ferry for their use to narrow the number of candidates to be referred 
to the panel, were submitted to the panel for review and input. 
Received input on the review criteria from each of the panel members, 
(last one dated March 30, 2005). In addition to the review criteria 
panel members also suggested steps they would like to follow in 
completing their review and interview of candidates.
    On April 5, 2005, the panel was provided with a matrix documenting 
their input on the review criteria to be used by Korn/Ferry in 
completing the candidate review process. The panel was also provided 
information on suggestions they submitted for ``next steps'', and on 
information they requested from Korn/Ferry for the panel's review and 
interview of candidates.
    On April 14, 2005, the Committees were sent an update on the 
process, including the matrix outlining the criteria that Korn/Ferry 
would use in their review of candidates; In addition, we have outlined 
the ``next steps'' that the panel wanted to follow for their review and 
interview of candidates.
    While Korn/Ferry was completing their review of the candidates, the 
AOC began to work with the panel members' staff to block out times when 
the panel could convene to review and interview the candidates. Based 
on the initial information received on the panel members' availability, 
the earliest date when all the members could convene is May 26, 2005.
    On April 28, 2005, I sent a letter to all the panel members asking 
that they review their calendars to see if they could meet before May 
26. From the information received to date, the panel will have their 
initial meeting on May 17. Based on the travel schedule of some of the 
panel members, it currently appears that the next date they can convene 
is May 26. I anticipate that the panel will likely need to convene 
several times to complete their review.
    On May 3, 2005, Korn/Ferry delivered the candidate books to the AOC 
and they in turn were delivered to the panel the next day.
    Next steps (as suggested by the panel):
  --The panel reviews the candidate information for the top 12 
        candidates that have been submitted to them.
  --The panel narrows the number of candidates to a short list of best 
        qualified.
  --The panel interviews the best qualified to determine the top 
        candidates (not less than three).
  --The panel refers (not less than three) candidates for my 
        consideration, interview and selection.
    Completion of my part of the review and interview of candidates is 
dependent on the panel completing its work. If they cannot complete 
their review until late in May or early June, we may need an extension 
of time. If it appears that this will be necessary, I will make such a 
request for the Committee's consideration as soon as we have that 
information.

                           PROJECT MANAGEMENT

    Question. Project management was one of the areas cited by the 
Government Accountability Office as needing improvement in its 2003 
report on the AOC. What improvements have you made in this area and 
what specific examples can you cite of ``lessons learned?'' Over half 
of AOC's current construction projects over $250,000 are behind 
schedule. Why? What is AOC doing to control schedule overruns? I 
understand AOC established a pilot project management organization last 
September and that is an improvement over the old way of operating, 
including better accountability for managers. Why is it still a pilot 
and why are employees reporting to both their ``old'' boss and their 
``new'' boss? Isn't it time to move ahead with this and finalize the 
structure, as recommended by GAO?
    Answer. Organization Improvements: On September 1, 2004 the AOC 
implemented a ``pilot'' Project Management organization. This 
organization is comprised of Project Managers, Construction Managers, 
and Construction Inspectors. The proposed alignment establishes clear 
performance expectations for delivering high quality design and 
construction projects on time and within budget mainly because the 
project and construction management functions reside, for the first 
time, within the same organization. The alignment is based largely on 
recommendations and observations made by GAO, specifically to ``align 
project management staff and resources with AOC's mission-critical 
goals'' and that ``too many hats'' are being worn by those assigned 
project management responsibilities.
    The pilot Project Management organization is tasked with delivering 
the projects identified through our Program Development Process that 
leads to the development of Capitol Improvement Plans. Smaller projects 
are managed by staff in the Engineering and Architecture Divisions, and 
some projects are managed directly by staff in the Superintendent's 
offices. In addition, there are four projects that are being managed by 
dedicated teams hired specifically for these one-time capital 
improvements efforts: the Capitol Visitor Center, the West 
Refrigeration Plant expansion, the Supreme Court Modernization, and 
most recently, the Hill-wide Perimeter Security program. Decisions as 
to who manages which projects are made jointly by Project Management, 
Architecture and Engineering and Superintendent's management staff. The 
primary goal, however, is to have the Project Management organization 
manage CIP projects, with the remaining project work being managed by 
others. Since September 1, 2004, an effort has been made to transition 
the aligned organization and its assigned workload while ``bridging'' 
those projects in transition to avoid losing institutional knowledge.
    Lessons Learned: The AOC continues to show progress in using its 
best practices to successfully executing design and construction 
projects. Key findings from last year's Lessons Learned surveys (fiscal 
year 2004) concluded that the AOC needed to focus on project planning, 
scope development, and design coordination. In the ensuing months the 
AOC developed critical check lists and sign-off sheets to assure that 
all necessary project elements had been considered and appropriately 
addressed before proceeding. The Program Development Process leading to 
CIP development is serving as a gate-keeping mechanism to assure that 
inadequately-developed projects do not proceed forward in the funding 
request stream.
    In addition, development and publication of the Program of 
Requirements (Pre-design Manual) and assuring consistency with IDIQ 
design task Orders will also significantly improve project scoping and 
documentation before they are sent forward as part of developing the 
CIP.
    Schedule Overruns: One of the key components to creation of the 
pilot Project Management organization was to establish clear 
performance expectations for delivering projects on time and within 
budget. Success in achieving these performance indicators is 
anticipated because the project and construction management functions 
reside, for the first time, within the same organization. When 
variances with schedule, quality or budget arise, the project team is 
required to work together in an attempt to overcome the variance and 
keep the customer apprised accordingly.
    In addition, each of the jurisdictions at the AOC have been 
assigned a Jurisdictional Executive from the Project Management 
organization. Each Jurisdictional Executive acts as the liaison between 
the customer and the project-delivery organizations for resolution of 
project-related issues. The goal with this arrangement is to foster 
continuous communications and to keep projects moving forward on-time 
and within budget.
    Although the pilot organization has made several positive steps 
with respect to project delivery and reporting, it must be recognized 
that achieving an optimal goal for ``on schedule'' is a multi-step and 
multi-year endeavor. As noted previously, many measures and processes 
have been put in place, but the AOC has not yet delivered a CIP project 
developed with the benefit of the Pre-design Manual, and there are 
additional refinements to the Program Development Process that need to 
be defined, such as creating an Acquisition Strategy process. The 
expectation that a seven-month-old organization can overnight correct 
problems inherent in projects developed years ago without benefit of 
the new processes and organizational structured and accountability is 
overly optimistic. GAO pointed out in its original General Management 
Review that such changes take years to accomplish in an orderly and 
measured manner. The AOC is confident that it continues to make steady 
progress in project delivery and reporting.
    Pilot Organization Approval: On April 22, 2005, letters were sent 
by the Architect of the Capitol to both Appropriation's Committees, 
providing notification of his plan to implement a new organizational 
structure for the Agency. The proposed organizational chart delineated 
changes to the current, higher-level management structure, which in-
turn would modify the reporting structure for the Project Management 
organization, upon implementation. The letters indicated that the 
proposed organizational structure would be implemented in May, unless 
other feedback was provided by the Committees. It was thought prudent 
to await the implementation of the higher-level management structure, 
before implementing the pilot organization. Subsequent feedback to the 
letters has been received by the Committees and the requested follow-on 
information is being provided. Procedures for implementation of the 
pilot organization will commence immediately after implementation of 
the AOC organizational structure.
    When the pilot organization was established in September 2004, it 
was made clear to the impacted employees that their official management 
structure would remain unchanged and that supervisory actions such as 
performance evaluations would continue to be performed by their current 
supervisor. This direction has not changed. Communications between the 
Acting Director of Project Management and the management of the 
impacted employees are continuous in an attempt to minimize confusion 
and disruption to the staff. It is acknowledged that implementation of 
the pilot organization will eliminate any perceptions of a ``dual'' 
reporting structure for the employee.

                           PERIMETER SECURITY

    Question. Approximately $120 million has been appropriated for 
perimeter security since 1999. I understand on the Senate side, the 
work is at least a year behind the schedule that we were given last 
year, with completion now planned for fall of 2007. Why has it slipped 
by a year? Will additional funds be required to complete the overall 
perimeter security work around the Capitol complex? How much and when 
is it needed?
    Answer. Work was prioritized to complete those items necessary for 
the Inauguration. Completion of all remaining work presently funded is 
scheduled for fall of 2006, with the exception of First St., N.E., 
which will be complete in fall of 2007 and Maryland Avenue, N.E., which 
will be complete the fall of 2008. Additional funding will be required 
for the completion of perimeter security for the Capitol Complex. The 
total amount and date required, is needed as follows:

------------------------------------------------------------------------
                                        Funding
           Jurisdiction                Required         Date Required
------------------------------------------------------------------------
Senate Office Buildings...........      $5,985,000  2007 Budget
House Office Buildings............       4,319,000  August 2005
Supreme Court.....................       2,885,000  2007 Budget
Library of Congress (Phase 1).....       5,637,000  June 2005
Capitol Square \1\................       8,200,000  June 2005
                                   -------------------------------------
      TOTAL.......................      27,026,000  ....................
------------------------------------------------------------------------
\1\ Supplemental.

             MASTER PLAN AND FACILITY CONDITION ASSESSMENT

    Question. In July 2001, this Committee directed AOC to develop a 
master plan for the Capitol complex since the existing master plan is 
25 years old. What is the status of the master plan? AOC has also been 
working to develop condition assessments for each of the buildings. 
What is the status of that effort and what are the most significant 
capital requirements should we expect over the next 5 years?
    Answer. In August 2004, a contract was awarded to a consulting team 
to undertake development of the Capitol Complex Master Plan. In 
December, a draft Vision Statement for the plan was completed and 
reviewed by an Expert Advisory Panel through meetings convened by the 
National Academies of Science and Engineering. Based on that meeting, 
the consultants moved forward with the development of various complex-
wide concept plans. A second meeting with the Expert Advisory Panel was 
convened by the National Academies during the week of March 7, 2005 for 
the purpose of reviewing the various concept plans. We are now entering 
the stage where more detailed facility plans are developed for each 
jurisdiction. This will involve extensive interaction and consultations 
so as to accommodate each jurisdiction's facility needs within an 
overall Concept Plan for the Capitol Complex. The Capitol Complex 
Master Plan initiative is on schedule for completion in late 2006, and 
remains within budget.
    Contracts for Facility Condition Assessments (FCAs) for the Capitol 
Building, House and Senate were completed in early 2005. Projects 
identified as a result of these studies will begin to appear with the 
AOC's submission of its fiscal year 2007 Budget Request. FCAs for all 
other jurisdictions, except for the Library of Congress, are ongoing 
with completion of the House, Senate, and Capitol scheduled for 
completion Spring 2005 and the remaining jurisdictions are scheduled 
for late 2005. Funding for the Library of Congress FCA was requested in 
the AOC's fiscal year 2006 Budget Submission and, subject to the 
receipt of funding, would start in the fall of 2005.
    Capital Projects are classified as one of four types with Deferred 
Maintenance (DM), Capital Improvement (CI), and Capital Renewal (CR) 
identified primarily through FCAs while Capital Construction (CC), 
which is new construction of a building or construction that enlarges 
and existing facility, identified primarily through the Capitol Complex 
Master Plan. Because the Capitol Complex Master Plan is ongoing, and 
because 7 of the 10 jurisdictions do not yet have completed Facility 
Condition Assessments, it will be 2 to 3 years before a comprehensive 
and complete list of Major Capital Projects, defined as those over $10 
million, will be available. In the interim, and based only on the three 
FCAs completed to date, the following Major Capital Projects, have been 
identified:

                          [Dollars in millions]
------------------------------------------------------------------------
  PROJ NO          PROJECT TITLE          COST RANGE         TYPE
------------------------------------------------------------------------
  HB05004A Cable TV System Upgrade,         $10-20  CI
            Phase I, HOB
    950042 Infrastructure                    10-20  CI
            Improvements, Phase I,
            DSOB
  SB05004A Cable TV System Upgrade,          10-20  CI
            Phase I, SOB
    000228 Fire Damper Installation,         10-15  CI
            FHOB, RHOB & LHOB
    990347 480V Switchgear and               10-20  CR
            Transformer Replacements,
            RHOB
   900265H Dome Rehabilitation, Phase        50-60  CR
            II, USC
    970280 Interior Renovations, HUGE        40-50  DM
            & HUGW
    970279 Domestic Hot and Cold             10-25  DM
            Water System Replacement,
            RHOB
    990364 Exterior Stone and Metal          30-50  DM
            Preservation, USC
    970351 Subway Upgrade, RSOB to           10-25  CI
            Capitol, RSOB
    030335 Emergency Evacuation and          10-25  CI
            Notification System
            Upgrade, USC
    990401 Window Restoration and            10-20  CR
            Replacement, USC
    970278 Heating System Conversion--       10-20  CR
            Steam to Hot Water, LHOB
    980298 House Chamber Renovation,         25-50  CR
            USC
    980050 HVAC System Upgrade, Phase        20-30  CR
            1, HOB
    980433 Garage Concrete                   20-40  DM
            Replacement , RHOB
    990402 Sprinkler System                  40-50  CI
            Installation, USC
   040234F Fire Alarm System Upgrade,        20-30  CI
            RHOB
    030320 Fire Damper Installation,         20-30  CI
            DSOB
    030319 Smoke Management System           20-30  CI
            Installation, HSOB
   030309B Enhanced Filtration for           70-90  CI
            Air Handling Systems,
            DSOB
   030309B Enhanced Filtration for           60-80  CI
            Air Handling Systems,
            RSOB
   030309B Enhanced Filtration for           30-40  CI
            Air Handling Systems,
            HSOB
   030309A Enhanced Filtration for           30-40  CI
            Air Handling Systems,
            LHOB
   030309A Enhanced Filtration for           25-35  CI
            AC1-15 & AC22-25, CHOB
   030309A Enhanced Filtration for           10-20  CI
            Air Handling Systems,
            FHOB
    000299 Smoke Management System           20-40  CI
            Installation, RSOB
    980050 HVAC System Upgrade, Phase        20-30  CR
            2, HOB
    030004 Parking Garage, Lot 9,            30-40  CC
            RHOB
------------------------------------------------------------------------

                          CAPITOL POWER PLANT

    Question. GAO recently made recommendations to cut operating costs 
at the Power Plant. Do you have any plans to implement these 
recommendations in fiscal year 2006? How much funding might be saved by 
proceeding with GAO's recommendations?
    Answer. The start-up, testing, and post construction activities for 
the expansion of the West Refrigeration Plant and the new plant central 
control system will commence in the 1st quarter of fiscal year 2006 and 
tentatively complete in the 3rd quarter. Due to the nature of these 
manpower intensive activities, it is unlikely that we will implement 
manpower changes until fiscal year 2007. The major cost saving 
recommendation for the efficient use of fuel has been implemented and 
we expect to save approximately $3,000,000 in fiscal year 2006.

                     FIRE AND LIFE SAFETY PROJECTS

    Question. AOC has been provided close to $190 million in the past 5 
years for fire and life safety projects to ensure the buildings in the 
Capitol complex meet appropriate codes and standards. How much more 
needs to be done and at what cost? What is the schedule for completion 
of all fire and life-safety related projects?
    Answer. Considerable improvements in Fire Protection and Life 
Safety of the buildings in the Capitol complex have been completed and 
implementation of others continue throughout the complex. As shown in 
the Capital Improvements Plan there are numerous additional projects 
including fire alarm, smoke detector and fire sprinkler upgrades, 
emergency lighting and exit light upgrades, firefighter telephone 
installations, audibility and intelligibility upgrades, kitchen exhaust 
system upgrades, and egress improvements which remain to be completed. 
For fiscal year 2006 there are nine projects totaling $24,850,000. The 
total projected cost for projects included in fiscal year 2007 through 
fiscal year 2010 in the CIP ranges from $264 million to $499 million. 
It will take approximately 8 years to complete all currently defined 
projects. In addition, there are several egress studies and designs 
which will be completed in fiscal year 2007 for which cost and schedule 
projections cannot be made at this time.

               CAPITOL POLICE OFF-SITE DELIVERY FACILITY

    Question. The pending supplemental appropriations bill in the 
Senate includes $23 million as requested by the Capitol Police Board 
for a new off-site delivery facility for the police. This project was 
first identified as a ``top 5 priority'' in the Capitol Police 1999 
Master Plan, yet the project has been very slow to gain momentum. It is 
now urgent with the new baseball stadium forcing USCP out of the 
current space within the year. Can you assure us that you will make 
this project a very high priority and obligate funds this fiscal year?
    Answer. The safety and well-being of those who work in and visit 
the Capitol and the ability to facilitate the legislative process are 
our top priorities. To ensure we achieve these objectives, all items, 
for use in the Capitol complex undergo an inspection process prior to 
entering the Capitol perimeter. Having an acceptable Capitol Police 
Off-site Delivery Facility is critical to the entire community and our 
goal is to obligate the funds this fiscal year.

                       FORT MEADE STORAGE MODULES

    Question. The budget includes $41 million for the construction of 
two additional storage modules for the Library of Congress at Fort 
Meade, MD. Could you explain the status of construction of the first 
and second modules at Fort Meade? I understand this is a long-term 
project, with many more modules to be constructed to meet the Library's 
storage needs. What is the total cost and timeframe for the Fort Meade 
storage modules project?
    Answer. The first Book Storage Module is complete and the building 
is occupied. The second Book Storage Module is 98 percent complete and 
should be occupied by the latter part of May, 2005. The Library of 
Congress currently plans to design and contract a total of 13 High 
Density Book Storage Module at Fort Meade. If Modules 3 and 4 are 
appropriated in fiscal year 2006, the Library of Congress desires to 
construct a new Book Storage Module every two years. At this pace, the 
thirteenth module will be complete and ready for use in 2026. The total 
cost in current year dollars, excluding design fees, is expected to be 
as follows:

------------------------------------------------------------------------
                                                              Amount
------------------------------------------------------------------------
Book Storage Module 1...................................      $3,500,000
Water Tank..............................................       4,100,000
Book Storage Module 2...................................       9,500,000
Book Storage Modules 3 & 4..............................      40,700,000
Supporting Infrastructure...............................  \1\ 20,000,000
Book Storage Module 5...................................      11,000,000
Book Storage Modules 6-13 ($11,000,000 each)............      88,000,000
                                                         ---------------
      TOTAL.............................................     176,800,000
------------------------------------------------------------------------
\1\ To be split among all projects.

                             PRIVATIZATION

    Question. I understand GAO has been asked to look at whether 
privatizing any AOC functions would make sense. Do you have any 
suggestions as to whether consideration ought to be given to 
contracting-out any of AOC's in-house functions?
    Answer. We have been and will continue to look for areas that may 
be appropriate for consideration. We have outsourced a number of areas 
including trash and waste removal; shuttle bus service; pest control; 
some janitorial functions; a variety of A/E support functions; 
information resources help desk operation and most of IRM's server 
support; lawn mowing and snow removal; several audit and accounting 
functions; art work conservation; emergency elevator repair; equipment 
repair and maintenance (fork lifts, floor machines); kitchen exhaust 
hood/duct inspection, testing and cleaning; testing, inspection and 
certification of elevators; testing and certification of fire alarm 
systems; testing and certification of fire extinguishers; and window 
cleaning. We are considering options to outsource facilities management 
of the ACF (assuming purchase) and for Capitol Police Buildings and 
Grounds; and outsourcing of replacement of high efficiency HVAC 
filters.

                         GAO MANAGEMENT REVIEW

    Question. What is the status of AOC meeting GAO's recommendations 
from its 2003 review of the AOC relative to financial management 
improvements, including preparing auditable financial statements? What 
remains to be done in the financial management area? Are the resources, 
including staffing levels, in your budget request adequate to meet 
these requirements?
    Answer. August 2004 report (GAO-04-966) says the following in 
relation to Auditable Financial Statement and Related Internal 
Controls: ``The ability to prepare agencywide financial statements 
that, along with related internal controls, can be independently 
audited represents a key component of an organization's ability to 
institutionalize financial management best practices and establish a 
sound foundation of accountability and control. AOC has made progress 
in preparing agencywide financial statements; supporting an audit of 
its September 30, 2003, balance sheet; and establishing related 
internal control policies and procedures. As part of its efforts to 
prepare agencywide financial statements, AOC put in place internal 
control policies and procedures related to funds control, financial 
reporting, and inventory management, and is starting work on other 
actions to further enhance financial control and accountability.''
    Question. How has AOC improved its internal control framework, 
including establishing an environment in which management and employees 
maintain a positive and supportive attitude toward internal controls 
and conscientious management (see p. 41 of GAO/03/231)?
    Answer. For the past two years as a part of our financial audit, 
our auditors have conducted a review of internal controls. All of their 
stated concerns have either been addressed or are being addressed. We 
are in the process of establishing an Internal Control Program. This 
program will assist us in establishing an ``accountability'' framework 
that will include training of all management employees on their 
responsibilities with respect to internal controls.
    Question. What has AOC done to develop and communicate consistent 
human capital policies and procedures at all levels (p. 43 GAO/03/231), 
including provision of pay raises, bonuses, and awards?
    Answer. As part of its Human Capital Plan, AOC has continued to re-
write policies that need revision, or write new AOC wide policies that 
didn't previously exist. Listed below by fiscal year are the policies 
in supervisor's offices and available on AOC's intranet. For policies 
that have a direct impact on employees, hard copies are distributed to 
every AOC employee. To facilitate understanding of some policies, 
briefings are given to supervisors and/or employees where they are 
given an opportunity to ask questions. In addition, supervisors and 
managers use a variety of methods to communicate policies to their 
employees. As part of reviewing the focus group result findings, AOC 
management is currently considering other measures that should be 
taken.

------------------------------------------------------------------------
                                                       Date
------------------------------------------------------------------------
Fiscal Year 2003:
    Determining Eligibility for Sunday   6/15/03
     Premium Pay.
    Performance Review Plan for Exempt   7/1/03
     Personnel.
    Hours of Duty......................  9/2/03
Fiscal Year 2004:
    Holiday Pay........................  11/21/03
    Absence and Leave..................  12/5/03
    Awards.............................  12/19/03
    Leadership Development Program.....  6/14/04
    Clearance of Separating Employees..  7/19/04
Fiscal Year 2005:
    Avenues for Assistance.............  10/04
    Pay Under the Architect's Wage       3/1/05
     System.
    Career Staffing....................  Completed, awaiting approval
    Performance Communication and        Completed, awaiting approval
     Evaluation System.
Currently under development:
    Pay Under the General Schedule.....
    Employee Development...............
    Exempt Personnel...................
------------------------------------------------------------------------

    Question. Why did it take AOC 18 months from the time the GAO's 
report was issues, to initiate an employee survey, to begin to address 
GAO's recommendation to comprehensively collect and analyze data from 
employee relations groups?
    Answer. GAO made the following recommendation in their January 2004 
report ``Gather and analyze employee feedback from focus groups or 
surveys before fiscal year 2005, as well as communicate how it is 
taking actions to address any identified employee concerns.'' The AOC 
addressed this recommendation in September 2004 by conducting employee 
focus groups. This was completed ahead of the GAO recommended date and 
in line with our Performance Plan.

                         CAPITOL VISITOR CENTER

    Question. Several changes to the CVC contract appear to be due to a 
simple lack of coordination with both internal officials, such as the 
fire marshal, and other organizations including the Supreme Court. Why 
did this happen and what are you doing to prevent this in the future?
    Answer. Several changes such as stair pressurization and fire 
damper monitoring are a result of professional disagreements between 
the Fire Marshal and the designer of life safety systems for the CVC. 
The uniqueness of a below grade building and inherent conflicts between 
the desire for increased security and the often inflexible nature of 
building code contributes to areas of disagreement on how to best 
handle life safety issues. These differences came about during normal 
review of building life safety systems as the details were developed.
    The Supreme Court issue you are referring to is the requirement 
that the book tunnel between the Supreme Court and Library of Congress 
be undisturbed when the utility tunnel is constructed. Apparently the 
construction sequence requiring removal of the book tunnel for 
excavation of the utility tunnel and subsequent rebuilding was not 
known to Supreme Court security personnel, and could not be 
accommodated. We are proceeding to build the utility tunnel up to the 
book tunnel on both sides with minimal impact to the utility tunnel 
construction.
    Question. Why was the Government responsible for all of the CVC 
Sequence 1 delay when monthly CVC progress reports indicated that the 
Sequence 1 contractor was not devoting sufficient resources to keep the 
project on schedule?
    Answer. The CVC contract requires the government to compensate the 
contractor in time and money for delays cause by differing site 
conditions or owner changes that delay his work. Weather delay is 
compensable only with time. During negotiation with the Sequence 1 
contractor and all of the subcontractors, a portion of the delay was 
attributed to weather. However, most of the delay was due to differing 
site conditions and changes to the Sequence 1 contract for added scope. 
These problems created inefficiencies that kept the Sequence 1 
contractor from fully staffing the project while awaiting direction on 
corrective action.
    Question. GAO's risk-based cost and schedule estimates for the CVC 
to date have been much more accurate than the AOC's or that of their 
construction management firm. What is AOC doing to integrate risk 
assessment in its future estimates?
    Answer. The estimates prepared by AOC and our construction manager 
have been based on what was known at the time. We did not ask for 
additional funding beyond the needs that could be identified. The delay 
costs for Sequence 1 in Spring 2003 were based on the delay of a couple 
of months that had occurred to date, and did not contemplate an 
additional eight and a half months of delay to Sequence 1 that 
followed. There was also an expectation at that time that the delay 
impact on commencing Sequence 2 work would be minimal since it was felt 
the two contracts could be overlapped to make up most of the two month 
delay.
    Today the risk is reduced to the delay in award of the Expansion 
space contract, the Exhibit construction contract, the House Connector 
tunnel and the Jefferson Building work. Had these contracts been 
awarded in February or March 2005, the risk would be minimal; however 
with the current delay in awarding those contracts, the impact is 
uncertain. The risk of differing site conditions remains for the House 
Connector tunnel and Jefferson Building.

                        ORGANIZATIONAL STRUCTURE

    Question. What steps is AOC taking to address concerns raised by 
the Comptroller General regarding AOC's organizational structure, in 
response to a letter (2/8/05) from the Architect seeking the CG's 
comments? Will AOC enable the CVC Project Director to report directly 
to the Architect?
    Answer. We developed and submitted for your information a revised 
organizational structure incorporating most of GAO's recommendations 
after follow up discussions with the Comptroller General. The CVC 
director reports directly to the Architect.

                 CAPITOL VISITOR CENTER UTILITY TUNNEL

    Question. According to GAO, over $1 million in additional costs was 
incurred due to AOC's indecision on how to construct the utility 
tunnel. Why did this happen?
    Answer. The utility tunnel work in the Sequence 1 contract did not 
include new requirements by WASA for the tie-in of utilities at Second 
Street that was estimated to cost approximately $1 million. In order to 
reduce the cost for this work, a Bulletin G was created by the 
Architect to use precast concrete sections in lieu of poured in place 
concrete. Pricing received for Bulletin G was not as good as expected 
so other alternatives such as drilling, use of utility trench or direct 
burial were investigated. Ultimately, the Bulletin G scope of work was 
determined to be the best value to the government for first cost and 
long term maintenance. Pricing was available from both Sequence 1 and 
Sequence 2 for the work, and since Sequence 1 was nearly finished with 
their work and Sequence 2 was slightly lower in cost, the decision was 
made to award work to Sequence 2. During the period of tunnel 
evaluation, the cost of steel pipe and other metals, which were always 
in Sequence 2, went up significantly in cost. The Sequence 2 contractor 
could not order this material until a decision was made on the tunnel 
configuration, since that could affect the pipe required. The added 
cost for Sequence 2 materials escalation is $1 million.

                  CAPITOL VISITOR CENTER CONSTRUCTION

    Question. In November 2004, GAO recommended AOC use incentives to 
keep CVC contractors on schedule, and rigorously track, document, and 
analyze the reasons for delays. What specific steps have you taken to 
implement these recommendations? The fiscal year 2006 budget request 
includes $36 million to complete the CVC. Are you confident this will 
be sufficient? Does this leave you with sufficient contingency? What 
steps are you taking to ensure the project stays within this new budget 
of $517 million? You say that delays in the job were due in part to a 
record year of bad weather--Why wasn't weather listed as one of the 
reasons for delay when the change order was settled?
    Answer. The Sequence 2 contract has an award fee of $1.2 million 
available to the contractor that is used as a positive incentive for 
good contractor performance including timely completion. The first 
portion of that award for $150,000 is currently being evaluated. The 
Sequence 2 contractor's schedule is being evaluated monthly to resolve 
any delay issues and track their progress against the schedule. In 
addition, the construction manager has developed a more integrated 
Master Schedule for the project that includes all those activities in 
addition to construction that are required to complete the CVC facility 
for opening. To date, aside from the 10 month delay for Sequence 1 to 
complete their work and allow Sequence 2 to begin, there have been no 
delays in the Sequence 2 contract. We believe the $36.9 million 
requested in fiscal year 2006, together with the reprogramming request 
of $26.3 million in fiscal year 2005, provides sufficient funds and 
contingency to complete the project, providing those funds are forth 
coming to avoid delays in Sequence 2 for award of contracts such as 
Exhibit construction and House and Senate Expansion space. This also 
assumes our estimate of $15 million is adequate to cover the 10 month 
delay for Sequence 2 to commence work while awaiting the completion of 
Sequence 1 work, that there are no significant added costs for the 
House Connector tunnel and no significant owner changes to the current 
project including the Jefferson Building work, the Expansion spaces or 
the CVC.
    Unusually severe weather is excusable time, but not compensable. 
Total delay was 235 working days. The sequence 1 contractor was 
compensated for a maximum of 217 days. (Some subcontractors experienced 
a greater weather impact than others, and their settlements were based 
on a lower number of compensable days).
    Question. Has AOC formally evaluated the performance of its CVC 
construction management firm? If not, why not? If so, when and with 
what results? What incentives or penalties are provided in their 
contract for performance?
    Answer. We have evaluated the construction managers' performance 
twice to date, in August 2004 and February 2005. The result indicated 
improvement was needed in schedule management, dispute resolution, and 
the preparation of change order packages. Since their last evaluation 
significant improvements have been made in dispute resolution and 
change order preparation, with schedule management currently being 
addressed. Their contract does not provide for either incentives or 
penalties, which has been normal for this type contract.

                           PROJECT MANAGEMENT

    Question. AOC does not maintain consistent baseline data in its 
Project Information Center to track changes to project costs and 
schedules. What progress have you made developing information systems 
that quickly collect and roll up information on all ongoing capital 
projects to senior management and congressional committees? What still 
needs to be done?
    Answer. One of the greatest challenges the AOC has faced is how to 
satisfy the many demands to report project status both internally and 
externally. Each entity wants to know basically the same things: is a 
project within budget, is it on time, and will it meet the customer's 
needs? The challenge in the past has been that the various entities 
have asked for project performance indicators in many different ways. 
In the attempt to satisfy the many different but similar questions, the 
AOC has not done as good a job as it could have.
    In September 2004, when the pilot organization was initiated, 
project reporting through PIC was suspended pursuant to senior 
management's interest in reporting on contract status in lieu of 
project status. A manually-produced report was developed that clearly 
indicated contract status, and the data could easily be verified by 
comparison to financial and procurement documents. These so-called COTR 
reports have been kept internally for six months.
    Over the past few months, the AOC has been working closely with the 
Government Accountability Office during the current cycle of its 
General Management Review. The GAO had asked that the AOC provide yet 
another series of project performance indicators. On a parallel path, 
the AOC project management team had been developing a report format 
that would answer recurring questions asked over the past several 
years, as well as satisfy a requirement to report project status on a 
quarterly basis. The report format uses project performance indicators 
based on verifiable contract and financial data, but also includes a 
text status. The format has been reviewed by some of the 
Superintendents, who have given it favorable comments related to its 
ability to accurately portray project status. Together, the AOC and the 
GAO are working to assure that this format, along with definitions, 
will satisfy project reporting requirements. The AOC's published a 
manually produced version of this report at the end of March 2005. 
Feedback will be gathered before any attempt is made to make changes in 
PIC to produce the report from an automated system.
    Question. How will the new (pilot) project management organization 
improve your ability to manage projects? How will you determine if this 
new organization is a success?
    Answer. The pilot organization has established clear performance 
expectations for delivering high quality design and construction 
projects on time and within budget. Now that the project and 
construction management functions reside, for the first time, within 
the same organization, these expectations can be managed by recognizing 
success and poor performance. Internally, the AOC has developed 
customer satisfaction surveys to measure performance as viewed by the 
jurisdictions. External customer satisfaction feedback will be sought 
in the future.
    In its transitional state, only a few projects funded in fiscal 
year 2005 have begun the construction phase with the benefits of better 
planning and scope development. As the organization matures and 
delivers more design and construction projects, performance results are 
anticipated to improve.
    Question. You recently released to employees a set of manuals 
containing project management best practices that are to be followed. 
How will you ensure that AOC employees actually follow those best 
practices?
    Answer. Key components of the best practices manual processes are 
summarized in checklists that accompany project development through its 
scope development, design, construction, and closeout phases. These 
checklists serve as quick references to assure adherence to critical 
processes. Projects without completed checklists are not permitted to 
proceed without a senior level exemption being granted. However, due to 
the significant competition for funding resources, project managers and 
their clients, the Superintendents, are increasingly rigorous in 
developing project data to satisfy justification requirements. Project 
managers who utilize the manuals will be successful in completing their 
checklists.
                                 ______
                                 
            Questions Submitted by Senator Richard J. Durbin

                         ORGANIZATIONAL ISSUES

    Question. In February, ``The Hill'' newspaper published an article 
entitled ``Fear and Loathing at AOC'', which reported on the results of 
a recent AOC employee feedback survey. According to the article, the 
survey showed that senior management at AOC is dysfunctional, 
inconsistent, and lacks leadership qualities. It also reiterated some 
long-standing issues at AOC, such as poor communications and very low 
morale. Why do these issues still persist? What actions are you taking 
to respond to employee concerns?
    Answer. The article stems from an initiative we took to solicit 
employee feedback to identify specific areas for improvement.
    In September we asked over 300 employees, from all organizations, 
divisions, levels, and shifts, to partake in 25 focus groups. The 
purpose of holding the focus groups was specifically to get employee 
feedback on areas for improvement. The participation and the outcome 
were beyond our expectations: 215 employees shared their opinions on 
our way of doing business. We also obtained very good feedback on 
opportunities for improvement.
    In addition to these focus groups, the Human Resources Management 
Division (HRMD) invited employees to share their opinions in a customer 
satisfaction survey in October. The questions focused on the services 
HRMD provides and how well they deliver those services. The findings 
from the HRMD survey were compiled and validated against the issues 
raised during the focus groups. This process took some time in that 
both electronic and paper copies of the survey had to be processed and 
analyzed. By coupling this information, the senior management team had 
a broader cross-section of employees' views, opinions, and suggestions 
to evaluate.
    Through our employees active participation in this feedback-
gathering process we identified the following areas where we need to do 
a better job:
  --Communicating (provide clearer, easier-to-understand information, 
        obtain more employee input, explain work processes, policies, 
        procedures, publish an organizational chart);
  --Providing clearer direction (explain internal procedures and 
        policies including job expectations, manage shifting 
        priorities, coordinate assignments, set service standards);
  --Recognizing employee accomplishments (more acknowledgment of 
        individual accomplishments by senior managers, use of awards);
  --Explaining our Mission and Vision;
  --Outlining customer service expectations (define the standards for 
        excellence, hold internal organizations accountable for quality 
        service, clearly communicate standards); and
  --Setting Agency standards that provide responsive customer support 
        to meet AOC employee needs from HR, Procurement, EEO and other 
        service organizations.
    Based on the information and feedback received, we have created 
eight cross-jurisdictional work teams that are taking each of the areas 
identified for improvement and they are developing action plans to 
address them as expeditiously as possible.

                         CAPITOL VISITOR CENTER

    Question. What do you expect the final cost of the CVC to be? What 
do you see as the major reasons for cost increases in this project and 
what are you doing to control costs during the remainder of the 
project?
    Answer. We expect the final cost for the construction of the CVC 
facility to be $517.6 million. The major reason for the cost increase 
to date is the addition of $141.8 million in budgeted added scope, and 
$29.1 million in delay costs due to the added scope and differing site 
conditions. Sequence 1 delay costs totaled $10.3 million, and $18.5 
million is expected to be required to fund Sequence 2 costs as a 
consequence of the 10 month delay while Sequence 2 waited for Sequence 
1 to complete their work. Controlling costs for the remainder of the 
project requires that there be no significant changes to the contract 
and Expansion space, no significant differing site conditions in the 
House Connector tunnel or Jefferson Building work, and timely release 
of the project funding so contracts can be awarded and change orders 
processed.
    Question. Without additional appropriations, when will the CVC 
project run out of money?
    Answer. The CVC project has 24 line items. We are already out of 
funding for the item to fund change orders for the Sequence 2 contract 
and will be out of authority for funding CVC Administration in mid May 
2005. Until we receive additional funding we cannot award the House and 
Senate Expansion space. We have funding available in other line items, 
but those funds are required for construction of the Exhibit area, $6.6 
million; security equipment, $4 million; perimeter security, $2 
million; House Connector tunnel, $2.5 million; and Jefferson Building 
work, $3.3 million.
    Question. GAO's risk-based cost and schedule estimates have been 
much more accurate that the AOC's or their construction management 
firm. What is AOC doing to integrate risk assessment in its future 
estimates?
    Answer. The risks remaining on the CVC project relate primarily to 
our complicated building systems, and those elements of work not yet 
under contract which includes the House Connector tunnel, the House and 
Senate Expansion space, and the Jefferson Building work. The systems 
include the filtration system since it involves a new technology, and a 
very complicated fire safety and smoke evacuation system. To minimize 
the above risk the entire team, including subcontractors, is working to 
ensure we understand all of the issues required to complete and turn 
over these systems.
    Question. According to GAO, over $1 million in additional costs was 
incurred due to AOC's indecision on how to construct the Utility 
tunnel. Why did this happen?
    Answer. The utility tunnel work in the Sequence 1 contract did not 
include new requirements by WASA for the tie-in of utilities at Second 
Street that was estimated to cost approximately $1 million. In order to 
reduce the cost for this work, a Bulletin G was created by the 
Architect to use precast concrete sections in lieu of poured in place 
concrete. Pricing received for Bulletin G was not as good as expected 
so other alternatives such as drilling, use of utility trench or direct 
burial were investigated. Ultimately, the Bulletin G scope of work was 
determined to be the best value to the government for first cost and 
long term maintenance. Pricing was available from both Sequence 1 and 
Sequence 2 for the work, and since Sequence 1 was nearly finished with 
their work and Sequence 2 was slightly lower in cost, the decision was 
made to award work to Sequence 2. During the period of tunnel 
evaluation, the cost of steel pipe and other metals, which were always 
in Sequence 2, went up significantly in cost. The Sequence 2 contractor 
could not order this material until a decision was made on the tunnel 
configuration, since that could affect the pipe required. The added 
cost for Sequence 2 materials escalation is $1 million.
    Question. When can we expect the CVC to be open to the public and 
will the Senate expansion space be ready for use at the same time? What 
are the liquidated damages for the CVC and are they the same for 
completion of the Senate expansion space?
    Answer. We expect the CVC portion of the project to be available 
for public use in September 2006. The Senate space will probably not be 
ready, especially since we still do not yet have the funding approved 
to make the award of the contract. The liquidated damages on the CVC 
are $16,000 a day and the liquidated damages for the House and Senate 
Expansion Space work is $4,750 per day.
    Question. Considering that the CVC will most likely not open until 
fiscal year 2007, why have you asked for so much in your fiscal year 
2006 operations budget for the CVC? Additionally, why have you 
requested so many FTE's?
    Answer. The operations and maintenance costs included in my fiscal 
year 2006 budget request were based on a June timeframe as opposed to 
September opening date. It is estimated that the costs for operations 
and maintenance will be $10.4 million rather than $15.3 million as 
originally requested. I have included these requirements in the AOC 
budget submission until a determination is made on who will have 
oversight of the facility. An additional $20 million was included for 
start-up and opening costs for gift shops, Visitor Center services, 
Capitol police furniture, fixtures and equipment, House recording 
studio, data network wiring and equipping of the House shell space. 
Since the House shell space estimate was also included in the fiscal 
year 2006 Budget request of the Chief Administrative Officer of the 
House, this request can be reduced to $9.1 million for this portion of 
the budget. As a result of the September opening date, the payroll 
estimate can be revised from $12 million to $7 million with an 
associated reduction in FTEs.
    Question. In November 2004, when GAO presented its most recent 
estimate of the cost to complete the project, it recommended that you 
immediately enhance the CVC project team's schedule management 
capacity, use incentives and other means to keep contractors on 
schedule, and rigorously track, document, and analyze the reasons for 
delays. What specific steps have you taken to implement these 
recommendations?
    Answer. The Construction Manager contracted with a scheduling 
consultant to help their field staff in schedule management. In 
addition, we have contracted with the firm that prepared the ``Cost to 
Complete'' in 2004 to review those efforts and offer recommendations. 
To date those efforts still require improvement and a senior official 
has assumed those responsibilities.
    We currently have a $1.2 million award fee that is used as an 
incentive for outstanding performance by the Sequence 2 construction 
contractor.
    Question. Who was responsible for ensuring that adequate contract 
and project summary schedules were developed, kept current, and adhered 
to and for documenting delays and their causes as they occurred? How 
well in your view, was this done over the course of the project?
    Answer. The construction manager has responsibility for ensuring 
that adequate contract and project summary schedules were developed, 
kept current, and adhered to as well as documenting delays and their 
causes as they occurred. That work has been marginal to date, and they 
are changing the personnel responsible for that effort to a senior 
official on site.
    Question. How much has AOC paid Gilbane to manage the CVC 
construction work and how well has Gilbane performed? Has AOC formally 
evaluated Gilbane's performance? If so, when and what were the results? 
If not, why not? What incentives or penalties are provided for in 
Gilbane's contract for performance?
    Answer. Gilbane's contract for construction management for the CVC 
portion totals $15.5 million. Payments to date total $12,772,847. We 
have evaluated the construction managers' performance twice to date, in 
August 2004 and February 2005. The results indicated improvement was 
needed in schedule management, dispute resolution, and the preparation 
of change order packages. Since their last evaluation significant 
improvements have been made in dispute resolution and change order 
preparation, with schedule management currently being addressed. Their 
contract does not provide for either incentives or penalties, which has 
been normal for this type contract.
    Question. In view of the cost and completion increases for this 
project, what incentives are there for your various consultants to 
control these items?
    Answer. The design and construction manager consultants' primarily 
incentive is the reputation they receive on projects such as this one. 
They are very concerned that this project be viewed in the end as a 
success, and that they personally are viewed as having successfully 
overcome huge scope additions and differing site conditions to complete 
the project in a timely and cost effective manner, in spite of the 
challenges imposed upon them.
    Question. What is the overall status of AOC's efforts to correct 
the internal control weaknesses reported from the fiscal year 2003 
audit?
    Answer. The AOC has approved a policy to establish an Internal 
Control program modeled after the program at the Library of Congress. 
It has been modified to comply with the intent of the Sarbanes Oxley 
Act of 2002 and OMB Circular A-123. Development of the policy is 
partially complete with a target implementation date of September 30, 
2005. The program's development is currently being handled by 
contractors. The program will require additional resources for its 
implementation.
    Question. When does the AOC expect the fiscal year 2004 audit to be 
completed?
    Answer. All field work has been completed. The final requirement to 
complete the audit is for AOC management to sign representation letters 
which we are in the process of accomplishing.
    Question. Could the AOC provide a copy of the fiscal year 2004 
audit report to this committee as soon as they receive it from their 
auditors?
    Answer. Yes.
    Question. Is the AOC expecting any new, significant internal 
control findings from the 2004 audit?
    Answer. The auditors have not yet provided us with a ranking of the 
audit findings as to significance. The answer though is clear, there 
are significant findings. The audit found 15 new findings not all of 
which were material. There were also 6 repeat findings from the 
previous year. Most of the significant internal controls findings were 
weaknesses in the Payroll, Personnel and Procurement areas.
    Question. The proposed AOC organization chart dated December 2004 
shows the Project Executive for the CVC directly reporting to the 
Architect of the Capitol. Has this reorganization taken place?
    Answer. Reorganization proposal has been submitted for Committee 
review and we propose to implement in May. CVC Project Executive 
reports to the Architect of the Capitol.
    Question. The proposed AOC organization chart dated December 2004 
shows a Chief of Staff reporting directly to the Architect of the 
Capitol. What are the duties of the person in this position? Will there 
be any overlap in the duties of the Chief of Staff and the Chief 
Operating Officer?
    Answer. The Chief of Staff assists both the Architect and COO in a 
variety of agency outreach communication and Congressional support 
needs. With the COO's extensive internal operational functions, on a 
strategic as well as day to day basis, the support of the Chief of 
Staff allows the COO to concentrate more fully on these 
responsibilities. Following are the duties of the COO and Chief of 
Staff.
    Duties of the Chief Operating Officer/Deputy:
  --Responsible for reviewing and directing the operational functions 
        of the Office of the Architect of the Capitol including: 
        facilities operation and maintenance; safety; design, 
        construction and project management; administration and 
        modernization of information technology systems employed by the 
        Office; productivity and cost-savings measures; strategic human 
        capital management, including performance management and 
        training and development initiatives; financial management, 
        including the integration of operational functions and 
        financial management to ensure that budgets, financial 
        information, and systems support the required strategic and 
        annual plans.
  --Serves as senior advisor to and representative of the Architect. 
        The individual will provide advice and assistance on all 
        aspects of the management and operations of the AOC; provides 
        advice on all operational aspects of AOC business functions 
        including facilities operation and maintenance; safety; design, 
        construction and project management; procurement and 
        contracting; budget and financial management; information 
        technology; human resources, and other administrative 
        management matters.
  --Assists the Architect in promoting reform and measuring results, 
        and is responsible to the Architect of the Capitol for the 
        direction, operation, and management of the Office of the 
        Architect of the Capitol. Additionally, the individual is 
        responsible for implementing the Office's mission and goals; 
        and providing organization management to improve the Office's 
        performance.
  --Responsible for developing, implementing, annually updating, and 
        maintaining a long-term strategic plan covering a period of not 
        less that 5 years.
  --Responsible for developing and implementing an annual performance 
        plan that includes annual performance goals covering each of 
        the general goals and objectives in the strategic plan and 
        including to the extent practicable quantifiable performance 
        measures for the annual goals.
  --Responsible for proposing organizational changes and new positions 
        needed to carry out the Office of the Architect of the 
        Capitol's mission and strategic and annual performance goal and 
        will ensure that the AOC's organizational structure promotes 
        efficiency and effectiveness.
    Duties of the Chief of Staff:
  --Assist the Architect and the COO in exploring and developing 
        program and management ideas, evaluating problems and 
        developing suggested course of action in program and policy 
        development and evaluation; conducts research and provides data 
        to assist the Architect and COO in their review and evaluation 
        or program and policy proposals from staff, incorporates the 
        perspective of Members and or Congressional staff in the 
        evaluation of AOC programs, operations and policy.
  --Assists the Architect and the COO in day-to-day information 
        management, priority initiatives, meetings and meeting 
        information, and may represent the Architect or the COO in 
        meetings with staff and stakeholders.
  --Manages legislative affairs; develops and nurtures relations with 
        Members and staff; tracks legislative mandates; facilitates 
        Congressional meetings for the Architect and COO; assists in 
        leading AOC outreach to Congressional staff to help ensure that 
        the Agency is addressing Congressional support needs.
  --Manages and coordinates Agency communications; assesses agency 
        internal and external communications processes and develops 
        appropriate improvement initiatives; develop proposals for 
        communications alternatives to address Agency communications 
        gaps or focused initiatives to meet identified needs.

                       PROCUREMENT IRREGULARITIES

    Question. Mr. Hantman, we understand in part from The Hill article 
titled ``Fear and Loathing at the AOC'' that your Focus Group findings 
noted the following customer service concerns with your entire 
Procurement Department:
  --Your process, roles, and responsibilities are either ill defined or 
        not defined at all;
  --There is a general lack of understanding of the businesses they are 
        procuring for; and
  --Procurement procedures are not applied consistently.
    We also understand that your fiscal year 2003 financial audit 
uncovered procurement irregularities at the CVC and in fiscal year 2004 
the auditors have found these same irregularities throughout the AOC.
    What steps have you taken to correct this serious situation of work 
being performed before a contract is awarded?
    Answer. In January 2004, the Procurement Division began requiring 
more information when an unauthorized procurement was discovered. This 
information includes a description and quantity of the unauthorized 
procurement, why it was needed, the benefit acquired, why a requisition 
was not prepared and a Contracting Officer allowed to place the order/
contract, the circumstances that led to the unauthorized procurement, 
the name of the vendor used, the vendor's invoice, how the vendor was 
selected, the basis for determining if the price was fair and 
reasonable, other vendors and prices considered, the date the service 
or supply was received and requested by the Government, documentation 
from the Budget Office that funds are available if the unauthorized 
procurement utilized prior year funds, actions taken to prevent future 
unauthorized procurements, and an explanation why the unauthorized 
procurement should be ratified rather than holding the individual who 
made it personally responsible. At the same time, a Standard Operating 
Procedure was established in the Procurement Division to provide policy 
and guidance to Procurement Division staff when they discover an 
unauthorized procurement. On June 21, 2004, the Deputy Chief of Staff, 
issued a memorandum to all Superintendents and Division Directors 
stating that the practice of unauthorized commitments was unacceptable. 
On March 14, 2005, the Deputy Chief of Staff issued a second memorandum 
requiring that the Superintendents and Division Directors who had 
issued unauthorized procurements since June 2004 meet with the Deputy 
Chief of Staff and the Director, Procurement Division regarding this 
issue. On March 22, 2005, Architect of the Capitol Order 34-01-01 
Ratifications of Unauthorized Procurements was signed by the Deputy 
Chief of Staff to establish AOC-wide policy and underscore the 
importance of complying with procurement regulations and the 
ratification process.
    Question. What processes does your Procurement Department have to 
detect and prevent these situations from recurring in the future?
    Answer. As previously stated, several processes were put in place 
to address and prevent unauthorized procurements. The implementation of 
these processes began January 2004 and culminated on March 22, 2005 
with the Architect of the Capitol Order 34-01-01 Ratifications of 
Unauthorized Procurements.
    The Procurement Division typically detects unauthorized 
procurements in three manners. First, an AOC employee may contact the 
Procurement Division directly to discuss a possible unauthorized 
procurement. Second, a contractor may contact the Procurement Division 
to inquire about recent and/or on-going work, at which time it becomes 
apparent that an unauthorized procurement has occurred. Third, the 
Procurement Division recently teamed with the Accounting Division to 
establish a notification process when an invoice is received that 
predates the contract or order. In all three instances, the Procurement 
Division responds by investigating to determine if the occurrence is 
actually an unauthorized procurement. If it is, then the appropriate 
Jurisdiction/Organization's official is required to submit the 
information required by the ratification process.
    Question. In the last year, how many times did your Procurement 
Department discover this situation where a contractor performed work 
prior to a valid contract being awarded?
    Answer. During the time frame of April 1, 2004-April 30, 2005, the 
Procurement Division discovered 28 situations where a contractor 
performed work prior to a valid contract being awarded.
    Question. How many times was the responsible AOC employee required 
to submit a statement for contract ratification?
    Answer. In all 28 situations that were discovered, the responsible 
AOC employee was requested to provide a sufficient explanation to 
determine if a ratification would be issued.
    Question. Who is the ratifying official if not you and what steps 
do they take to ensure these serious irregularities are prevented in 
the future?
    Answer. The March 22, 2005, Architect of the Capitol Order 34-01-04 
Ratifications of Unauthorized Procurements specifies that the ratifying 
official is the Architect of the Capitol, the Chief Operating Officer, 
the Deputy Chief of Staff, or their designee.

                           PERSONNEL CONTROLS

    Question. Mr. Hantman, your employees in the Focus Group findings, 
and your auditor, in the two audits (fiscal year 2003 and fiscal year 
2004) have identified numerous findings in the Personnel Office. The 
findings of the Focus Group and the auditor are similar in many ways, 
for example:
  --Focus Group--Employee questions receive either incorrect 
        information or no information at all, answers depend on who you 
        ask since not all staff is knowledgeable.
  --Audits--Information is not properly maintained for an employee, 
        official personnel files are not up-to-date, information is 
        routinely entered incorrectly into the payroll/personnel 
        system, and no checking and verification is performed.
    What are you doing to address the numerous serious Focus Group and 
Audit findings?
    Answer. As a result of preliminary findings from the financial 
audit, Human Resources requested an expert assessment of our Payroll 
and Personnel processing by the National Finance Center (NFC). The 
assessment was completed in March 2005, and we expect a final report at 
the beginning of May. Although checking and verification is performed, 
we have determined that it needs to be accomplished earlier in the 
process to prevent errors, rather than discovering errors and 
correcting them. Based on preliminary findings from both the Audit and 
NFC assessment, a number of internal controls have been instituted. In 
addition, Human Resources is considering a consolidation of personnel 
processing functions to provide greater internal controls, but we will 
review NFC's assessment report and recommendations before a final 
decision is made.
    As part of AOC's Human Capital Plan, Workforce Management and Human 
Resources are working jointly to review AOC's Human Resources 
competency model, management will assess employee's using the model, 
and developmental needs will be addressed.
    Question. When your Personnel Office's processes and systems lack 
fundamental internal controls, you open your agency to waste or worse, 
to fraud. Have any overpayments been made to AOC employees or has any 
fraud in the payroll area been brought to your attention? If so, what 
corrective action have you taken?
    Answer. Incorrect payments have been made to employees through both 
corrections to time and attendance records, and corrections to 
personnel records. In cases of underpayment, the corrected action 
properly pays the employee. In the case of overpayments, we follow a 
systematic process to collect monies due from employees. Only one case 
of potential fraud was identified, and we are currently investigating 
the specific case, which involves two employees. The investigation is 
complete for one employee, and appropriate disciplinary action is being 
initiated. We are still reviewing additional records for the second 
employee, and appropriate disciplinary action will be initiated if 
warranted.

                      FINANCIAL MANAGEMENT REFORMS

    Question. In the Senate Report on Legislative Branch 
Appropriations, 2002, I specifically sought the urgent need for a Chief 
Financial Officer at the AOC to begin essential financial management 
reforms. From every GAO General Management Review progress report, I 
have been pleased to learn that substantial progress has been made.
    Mr. Hantman, can I expect your commitment to continue in this most 
important area?
    Answer. Yes. We are examining the resource needs of the CFO's 
organization to ensure the people, tools and skills necessary to 
continue this process are in place. I am communicating to every 
employee especially our management employees that sound financial 
management is everyone's responsibility not just the CFO's.
    Agency Heads in the Executive Branch are now required (similar to 
the Sarbanes-Oxley Act of 2002) to lead by example and assert that 
their fiscal year 2006 financial controls will result in timely, 
accurate, and useful financial and management information.
    Question. Mr. Hantman, if you had the same requirement, when would 
you be able to make this same assertion?
    Answer. Our Internal Control Program is scheduled to be in place by 
September 30, 2005. The reality is that I would like the program to 
have been in place for one year, fiscal year 2006, before we 
implemented full assertion as I understand is required now by OMB 
Circular A-123 for executive branch agencies. I recognize that this may 
impact our Audit results, but request time to allow our internal 
control program to mature.

                          SUBCOMMITTEE RECESS

    Senator Allard. I want to thank you for your testimony. 
And, with that, we'll recess the subcommittee. Thank you.
    [Whereupon, at 11:55 a.m., Wednesday, April 13, the 
subcommittee was recessed, to reconvene subject to the call of 
the Chair.]

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
